<html>
<title> - NOMINATION TO THE U.S. DEPARTMENT OF TRANSPORTATION AND THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 115-281]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-281

                           NOMINATION TO THE
                   U.S. DEPARTMENT OF TRANSPORTATION
                  AND THE U.S. DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
       
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-769 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2017....................................     1
Statement of Senator Thune.......................................     1
    Support letter dated June 22, 2017 to Hon. John Thune and 
      Hon. Bill Nelson...........................................    35
    Support letter dated June 22, 2017 to Hon. John Thune and 
      Hon. Bill Nelson...........................................    37
    Support letter dated June 27, 2017 to Hon. John Thune and 
      Hon. Bill Nelson...........................................    38
    Support letter dated June 27, 2017 to Hon. John Thune and 
      Hon. Bill Nelson...........................................    39
    Opposition letter dated June 28, 2017 to Hon. Mitch McConnell 
      from John McCain, United States Senator....................    40
    Opposition letter dated July 31, 2017 from nonpartisan group 
      of former national security, law enforcement, intelligence, 
      and interrogation professionals............................    40
    Opposition letter dated August 1, 2017 to Hon. John Thune and 
      Hon. Bill Nelson from Sheldon Whitehouse, United States 
      Senator....................................................    41
    Opposition letter dated August 1, 2017 from Robert Weissman, 
      President, Public Citizen..................................    42
Statement of Senator Nelson......................................    29
    Letter dated June 22, 2017 to Steven G. Bradbury, Esquire 
      from Hon. Bill Nelson......................................    31
    Response letter dated June 23, 2017 to Hon. Bill Nelson from 
      Steven G. Bradbury.........................................    32
Statement of Senator Cantwell....................................    44
Statement of Senator Cortez Masto................................    47
Statement of Senator Sullivan....................................    49
Statement of Senator Hassan......................................    51
Statement of Senator Klobuchar...................................    53
Statement of Senator Duckworth...................................    55
    Letter dated July 14, 2006 to Hon. Arlen Specter and Hon. 
      Patrick J. Leahy from Steven G. Bradbury, Acting Assistant 
      Attorney General, U.S. Department of Justice...............    58
    Senate Select Committee on Intelligence Committee, Study of 
      the Central Intelligence Agency's Detention and 
      Interrogation Program......................................    59
    Memorandum dated May 10, 2005 for John A. Rizzo, Senior 
      Deputy General Counsel, Central Intelligence Agency........    60
    Memorandum dated July 20, 2007 for John A. Rizzo, Senior 
      Deputy General Counsel, Central Intelligence Agency........   106
    Memorandum dated October 6, 2008 from Steven G. Bradbury, 
      Principal Deputy Assistant Attorney General, U.S. 
      Department of Justice......................................   195
    Memorandum dated January 15, 2009 from Steven G. Bradbury, 
      Principal Deputy Assistant Attorney General, U.S. 
      Department of Justice......................................   196
    Department of Justice's Office of Professional Responsibility 
      Report on the Investigation into the Office of Legal 
      Counsel's Memoranda Concerning Issues Relating to the 
      Central Intelligence Agency's Use of ``Enhanced 
      Interrogation Techniques'' on Suspected Terrorists.........   203
    Letter dated June 26, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Charles C. Krulak, General, United States 
      Marine Corps (Ret.)........................................   203
    Opposition letter dated June 22, 2017 to Chairman John Thune 
      from 14 leading human rights groups........................   204
Statement of Senator Blumenthal..................................   206
    Article dated May 18, 2009 from The New York Times entitled, 
      ``Advocacy Groups Seek Disbarment of Ex-Bush Administration 
      Lawyers'' by Scott Shane...................................   208
Statement of Senator Young.......................................   210

                               Witnesses

Steven Gill Bradbury, Nominee to be General Counsel, U.S. 
  Department of Transportation...................................     3
    Prepared statement...........................................     4
    Biographical information.....................................     5
Elizabeth Erin Walsh, Nominee to be Assistant Secretary of 
  Commerce and Director General of the United States and Foreign 
  Commercial Service, U.S. Department of Commerce................    21
    Prepared statement...........................................    22
    Biographical information.....................................    23

                                Appendix

Response to written questions submitted to Steven Gill Bradbury 
  by:
    Hon. John Thune..............................................   215
    Hon. Bill Nelson.............................................   215
    Hon. Amy Klobuchar...........................................   217
    Hon. Richard Blumenthal......................................   219
    Hon. Maggie Hassan...........................................   222
Response to written questions submitted to Elizabeth Erin Walsh 
  by:
    Hon. Dan Sullivan............................................   223
    Hon. Bill Nelson.............................................   224

 
                           NOMINATION TO THE
                   U.S. DEPARTMENT OF TRANSPORTATION
                   AND THE U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Sullivan, 
Young, Cantwell, Klobuchar, Blumenthal, Duckworth, Hassan, 
Cortez Masto, Fischer, and Heller.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Thank you, Mr. Bradbury and Ms. 
Walsh, for being here. We have two well-qualified nominees 
before our Committee today.
    Steven Bradbury has been nominated to serve as the General 
Counsel at the Department of Transportation. Mr. Bradbury is 
currently a litigation partner at Dechert here in Washington, 
D.C., and his practice focuses on regulatory enforcement and 
investigations, rulemakings, and judicial review of agency 
actions, as well as appellate cases and antitrust matters.
    From 2005 to 2009, Mr. Bradbury headed the Office of Legal 
Counsel at the Department of Justice, the office that provides 
essential legal advice to the President and the heads of 
executive departments and agencies. In that role, he received 
the Edmund J. Randolph Award and the Secretary of Defense Medal 
for Outstanding Public Service, among other awards.
    Before serving in the Justice Department, Mr. Bradbury was 
a partner at Kirkland & Ellis for 10 years. He clerked for 
Justice Clarence Thomas on the Supreme Court and for Judge 
James L. Buckley on the D.C. Circuit. Mr. Bradbury graduated 
magna cum laude from Michigan Law School and received his B.A. 
from Stanford University.
    If confirmed, Mr. Bradbury will serve as the Chief Legal 
Officer at the Department of Transportation, with final 
authority on questions of law. The General Counsel is the legal 
advisor to the Secretary and is responsible for the 
supervision, coordination, and review of the legal work of the 
almost 500 lawyers throughout the Department. The General 
Counsel is also responsible for the Office of Aviation Consumer 
Protection and Enforcement, and coordinates the Department's 
legislative efforts, regulatory program, and involvement in 
legal proceedings before other agencies as well as various 
operational and international legal matters.
    Elizabeth Walsh has been nominated to serve as Assistant 
Secretary and Director General of the United States and Foreign 
Commercial Service, within the Department of Commerce. She 
currently serves as a Senior Advisor to Secretary Wilbur Ross. 
Before that, she served as a Special Assistant to the President 
and Associate Director for Presidential Personnel. She has had 
an extensive career in the international arena in both the 
private and public sectors.
    Ms. Walsh has served more than 12 years in the Federal 
Government, including at the Department of State, the U.S. 
Mission to the United Nations, and the Department of Energy. 
She also worked at the United Nations, serving 18 months in 
Bosnia, during the war. At the Department of State, Ms. Walsh 
was a senior advisor in the Bureau of Near Eastern Affairs. She 
holds a Bachelor of Arts degree in Government and International 
Relations from Georgetown University and a Master of Science 
degree from the London School of Economics and Political 
Science.
    If confirmed, Ms. Walsh will lead the trade promotion arm 
of the U.S. Department of Commerce's International Trade 
Administration. U.S. Commercial Service trade professionals in 
over 100 U.S. cities and in more than 75 countries help U.S. 
companies get started in exporting or increasing their sales to 
new global markets.
    As part of the Commerce Department's International Trade 
Administration, the Commercial Service helps American firms and 
workers navigate the often complicated and unpredictable waters 
of foreign trade, so that U.S. firms' sales abroad help to 
support jobs here in the United States.
    Both nominees have consistently proven their willingness to 
address the challenges facing our Nation.
    I would like to thank you both for testifying today and for 
your willingness to continue your service to our country.
    And Senator Nelson, our Ranking Member, is at the DOD NDAA 
markup right now. The Senate Armed Services Committee is 
marking up the defense bill, so he is going to be joining us a 
little bit late.
    Senator Cantwell, anything you would like to add?
    Senator Cantwell. [Off microphone.]
    The Chairman. OK. We will then proceed to our panel, 
starting with Steven Gill Bradbury, of Virginia. He was 
nominated to be General Counsel, Department of Transportation.
    As I mentioned Elizabeth Erin Walsh, of the District of 
Columbia, to be Director General of the United States and 
Foreign Commercial Service and Assistant Secretary for Global 
Markets at the Department of Commerce.
    So if you would proceed with your opening remarks, and then 
we'll get a chance to ask some questions.
    Mr. Bradbury.

   STATEMENT OF STEVEN GILL BRADBURY, NOMINEE TO BE GENERAL 
           COUNSEL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Bradbury. Well, thank you, Chairman Thune and Senator 
Cantwell. Before I begin, I would just like to introduce my 
family. My wife, Hilde Kahn, is here, and my daughter, Susanna 
Bradbury, who just graduated from TJ, Thomas Jefferson High 
School, in Fairfax. I'm very proud of her. And also here are my 
wife's parents, Barbara and Walter Kahn, of Bethesda. And I 
would also just like to introduce my partner and colleague Paul 
Dennis, who is here supporting me from our firm.
    So thank you again, and to the distinguished members of the 
Committee. I am humbled and honored to come before you today as 
the nominee to serve as General Counsel of the Department of 
Transportation. I am deeply grateful to the President and 
Secretary Chao for the trust and confidence they have placed in 
me. And again I would like to thank my family and supporters 
who are here. And I especially want to thank my wife, Hilde, 
among other things for putting up with me for 29 years.
    Someone who could not be here today, but who I know would 
be the proudest person in this hearing room if she were still 
alive is my mother, Cora Gill Bradbury. She raised me in 
Portland, Oregon, as a single mom after my father died before 
my first birthday. She took in ironing for 75 cents an hour and 
worked nights in a bakery to support me and my grandmother and 
to supplement our Social Security income. She encouraged me in 
every endeavor and always pointed me toward college and a 
better future. Because of her, I was the first in our family to 
attend a 4-year university, graduating from Stanford and later 
from Michigan Law School.
    After serving judicial clerkships with Judge James Buckley 
on the D.C. Circuit and with Justice Clarence Thomas on the 
Supreme Court, my legal career has focused on administrative 
litigation and antitrust, agency rulemakings and enforcement 
actions, appellate cases, and constitutional issues. I have 
handled a number of substantial regulatory matters in private 
practice, including before the Department of Transportation.
    As the Chairman said, I've also had the great good fortune 
to serve previously in the Executive Branch of our government. 
From 2005 to 2009, I headed the Office of Legal Counsel at the 
Justice Department, where I advised the President, the Attorney 
General, and the heads of executive departments and agencies on 
a wide range of complex legal questions arising under the 
Constitution and the laws and treaties of the United States.
    OLC is the office in the Executive Branch where the buck 
stops on contentious legal issues. OLC does not make policy 
decisions or authorize any policies for the Executive Branch; 
rather, its essential function is to provide unvarnished legal 
advice, not distorted by policy objectives or political 
considerations to help ensure that the programs approved by 
senior policymakers are consistent with the rule of law.
    Every opinion I gave for OLC represented my best judgment 
of what the laws in effect at that time required. I certainly 
recognize and respect that some of the questions we addressed 
during my tenure in the Office raised difficult issues about 
which reasonable people could disagree. Indeed, our opinions 
acknowledged as much.
    My previous experiences in government and private practice 
have given me a working base of knowledge in administrative law 
and a healthy appreciation for the limits of government 
authority. They've also instilled in me an abiding reverence 
for the rule of law and a dedication to preserving the 
constitutional structures and traditions on which----
    [Audience interruption.]
    The Chairman. Order. Order in the hearing room.
    Mr. Bradbury, please proceed.
    Mr. Bradbury. Thank you, Mr. Chairman.
    These experiences really have instilled in me an abiding 
reference for the rule of law and a dedication to preserving 
the constitutional structures and traditions on which our 
freedom depends, not least of which is the proper relationship 
between the Federal Government and the States. I pledge to this 
Committee that if confirmed, I will bring these same values to 
work with me every day at the Department of Transportation.
    DOT's mission is exceptionally important. The liberty and 
prosperity of the American people depend in no small part on 
the safe, efficient operation of the Nation's transportation 
systems and infrastructure. If privileged to be confirmed by 
the Senate, I will work alongside the many dedicated career 
lawyers of DOT to ensure to the best of our abilities that the 
Department's decisions are well founded and consistent with the 
statutory authorities provided by Congress. We will devote 
ourselves to giving the Secretary and the administrators of the 
Department the legal support they need to maximize public 
safety in accordance with the law, to strengthen our nation's 
infrastructure through efficient implementation of authorized 
funding programs, and to preserve, as Congress intended, 
competitive markets for private investment and innovation in 
transportation technology.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Bradbury follow:]

   Prepared Statement of Steven Gill Bradbury, Nominee to be General 
               Counsel, U.S. Department of Transportation
    Thank you, Chairman Thune, Ranking Member Nelson, and distinguished 
Members of the Committee. I am humbled and honored to come before you 
today as the nominee to serve as General Counsel of the Department of 
Transportation.
    I am deeply grateful to the President and Secretary Chao for the 
trust and confidence they have placed in me.
    I want to thank my family for their love and support. I am 
especially thankful to my wife Hilde Kahn--among other things, for 
putting up with me for 29 years. Hilde is here today, along with our 
daughter Susanna, who is 18 and just graduated from Thomas Jefferson 
High School for Science and Technology in Fairfax County, Virginia, and 
my wife's parents, Barbara and Walter Kahn of Bethesda, Maryland. Our 
two sons, James and Will, are busy working in Silicon Valley and could 
not be with us.
    Someone else who could not be here today, but who would be the 
proudest person in this hearing room if she were still alive, is my 
mother Cora Gill Bradbury. She raised me in Portland, Oregon, as a 
single mom after my father died before my first birthday. She took in 
ironing for 75 cents an hour and worked nights in a bakery to support 
me and my grandmother and to supplement our Social Security income. She 
encouraged me in every endeavor and always pointed me toward college 
and a better future.
    Because of her, I was the first in our family to attend a four-year 
university, graduating from Stanford University and later from the 
University of Michigan Law School.
    After serving judicial clerkships with Judge James L. Buckley on 
the U.S. Court of Appeals for the D.C. Circuit and for Justice Clarence 
Thomas on the Supreme Court of the United States, my legal career has 
focused on administrative litigation and antitrust law, agency 
rulemakings and enforcement actions, appellate cases, and 
constitutional issues. I have handled a number of substantial 
regulatory matters in private practice, including before the Department 
of Transportation.
    I have also had the great fortune to serve previously in the 
Executive Branch of our government. From 2005 to 2009, I headed the 
Office of Legal Counsel (``OLC'') at the U.S. Department of Justice, 
where I was called upon to advise the President, the Attorney General, 
and the executive departments and agencies on a broad range of the most 
complex legal questions arising under the Constitution and the statutes 
and treaties of the United States.
    As you may know, OLC is the office in the Executive Branch where 
the buck often stops on contentious legal issues. OLC does not make 
policy decisions or authorize any policies for the Executive Branch; 
rather OLC's essential function is to provide unvarnished legal advice, 
not distorted by policy objectives or political considerations, to help 
ensure that the programs approved by senior policy makers are 
consistent with the rule of law.
    In performing that duty, every opinion I gave for OLC represented 
my best judgment of what the law required. I certainly recognize and 
respect that some of the questions we addressed raised difficult issues 
about which reasonable people could disagree. Indeed, my opinions 
recognized as much at the time.
    My previous experiences both in government and in private practice 
have given me a working base of knowledge in administrative law and a 
healthy appreciation for the limits of government authority. More 
broadly, they have instilled in me an abiding reverence for the rule of 
law and a dedication to the preservation of our Nation's constitutional 
structures and traditions on which our freedom depends--not least of 
which is the proper relationship between the Federal Government and the 
states.
    I pledge to this Committee that, if confirmed, I will bring those 
same values to work with me every day at the Department of 
Transportation.
    DOT's mission is exceptionally important. The liberty and 
prosperity of the American people depend in no small part on the safe, 
efficient operation of the Nation's transportation systems and 
infrastructure.
    If privileged to be confirmed by the Senate, I will work alongside 
the many dedicated career lawyers of DOT to ensure, to the best of our 
abilities, that the Department's decisions are well-founded and 
consistent with the statutory authorities provided by Congress.
    We will devote ourselves to giving the Secretary and the 
administrators of the Department the legal support they need to 
maximize public safety in accordance with the law, to strengthen our 
Nation's infrastructure through efficient implementation of authorized 
funding programs, and to preserve, as Congress intended, competitive 
markets for private investment and innovation in transportation 
technology.
    Thank you, Mr. Chairman. That concludes my statement, and I would 
be happy to answer the Committee's questions.
                                 ______
                                 
                      a. biographical information
    1. Name (include any former names or nicknames used): Steven Gill 
(``Steve'') Bradbury. Former name used: Steven Dean Bradbury, 1958-1986 
(judicial name change, July 15, 1986).
    2. Position to which nominated: General Counsel, Department of 
Transportation.
    3. Date of nomination: June 6, 2017.
    4. Address (list current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1900 K Street, N.W. Washington, D.C. 20006

    5. Date and place of birth: September 12, 1958; Portland, Oregon.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Hilde Elisabeth Kahn. Occupation: Homemaker; registered 
        real estate agent, affiliated with Long & Foster, McLean, VA; 
        owner and developer of investment property (single family home) 
        through a limited liability company, Chesterbrook Homes LLC, of 
        which she is the sole member.
        Three children: James, age 23; Will, age 21; Susanna, age l8.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Stanford University (Sept. 1976 to June 1980), BA English, June 
        1980.
        University of Michigan Law School (Aug. 1985 to May 1988), JD 
        magna cum laude, May 1988.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        July 2009-Present:
        Partner
        Dechert LLP (law firm)
        1900 K Street, N.W.
        Washington, D.C. 20006

        My practice with Dechert LLP has included representing clients 
        in administrative proceedings and government investigations and 
        enforcement actions, including matters before the Department of 
        Transportation and matters involving public safety and 
        competition issues. I have also represented clients in court 
        cases at all levels raising constitutional issues and questions 
        involving the interpretation of Federal statutes and judicial 
        review of agency actions. In many of these matters, I have 
        interacted extensively with officials of the Federal 
        Government, including at the Department of Transportation. I 
        have also managed complex projects and supervised teams of 
        attorneys and support staff. Finally, during my years at 
        Dechert, I have appeared in public, in court, and in Congress 
        to address issues of public importance and significant legal 
        questions. I believe these experiences are relevant and useful 
        in approaching the duties of the position to which r have been 
        nominated.

        April 2004-January 2009:
        Acting Assistant Attorney General (Feb. 2005; June 2005-Apr. 
        2007)
        Principal Deputy Assistant Attorney General (Apr. 2004-Jan. 
        2009)
        Office of Legal Counsel
        U.S. Department of Justice
        950 Pennsylvania Avenue, N.W.
        Washington, D.C. 20530

        As head of the Office of Legal Counsel, I managed an office of 
        numerous attorneys, including some of the most experienced and 
        accomplished senior career lawyers in the executive branch. OLC 
        is the office in the Justice Department that exercises the 
        Attorney General's authority to provide legal advice to the 
        President and the heads of executive departments and agencies 
        on complex, difficult, and novel questions of constitutional 
        law, statutory interpretation, and treaty matters. During my 
        tenure in OLC, I interacted directly with the Attorney General, 
        the President, the Vice President, the White House Counsel, 
        Cabinet officers, and the general counsels of departments and 
        agencies to address and resolve significant legal issues, 
        including issues on which there was a division of views within 
        the executive branch. I also interfaced extensively with the 
        Committees and Members of Congress and their staffs to explain 
        the legal positions of the Executive Branch and to assist in 
        crafting legislative solutions for complex problems. These 
        experiences in OLC are relevant preparation for potential 
        service as General Counsel of the Department of Transportation.

        September 1993-April 2004:
        Partner (Oct. 1994-April 2004)
        Associate (Sept. 1993-Oct. 1994)
        Kirkland & Ellis LLP
        655 Fifteenth Street, N.W.
        Washington, D.C. 20005

        As a partner at Kirkland & Ellis, I supervised teams of lawyers 
        in several large cases of significance, including a proposed 
        merger of major airlines, several high profile telecom mergers, 
        large antitrust and securities litigation matters in court, and 
        numerous other appellate matters, constitutional cases, and 
        administrative law matters, several of which involved court 
        challenges to agency rulemakings. I also served on the firm's 
        Finance Committee and the Associate Review Committee for the 
        firm's Washington office. These matters and assignments provide 
        relevant experience for potential service supervising the legal 
        staff of a major department of government with responsibilities 
        in a wide range of administrative law areas.

        July 1992-July 1993:
        Law Clerk to Justice Clarence Thomas
        Supreme Court of the United States
        1 First Street, N.E.
        Washington, D.C. 20543

        July 1991-July 1992:
        Attorney-Adviser
        Office of Legal Counsel
        U.S. Department of Justice
        950 Pennsylvania Avenue, N.W.
        Washington, D.C. 20530

        July 1990-July 1991:
        Law Clerk to Judge James L. Buckley
        U.S. Court of Appeals for the D.C. Circuit
        333 Constitution Avenue, N.W.
        Washington, D.C. 20001

        September 1988-July 1990:
        Associate
        Covington & Burling
        1201 Pennsylvania Avenue, N.W.
        Washington, D.C. 20044

        May 1987-July 1987:
        Summer Associate
        Covington & Burling
        1201 Pennsylvania Avenue, N.W.
        Washington. D.C. 20044

        May 1986-August 1986:
        Summer Associate
        Miller, Nash, Wiener, Hager & Carlsen
        111 SW Fifth Avenue
        Portland, OR 97204

        September 1983-August 1985:
        Legal Assistant
        Davis Polk & Wardwell
        1 Chase Manhattan Plaza
        New York, NY 10001
        (Now located 47th Street & Park Avenue)

        November 1981-September 1983:
        Assistant Editor (Feb. 1983-Sept. 1983)
        Editorial Assistant (Nov. 1981-Feb. 1983)
        Avon Books (then a Division of the Hearst Corporation)
        1790 Broadway
        New York, NY 10019

        August 1981-October 1981:
        Waiter & Bus Boy
        Off Broadway Company (restaurant)
        West 69th Street & Broadway
        New York, NY
        (No longer in business)

        April 1981-June 1981:
        Waiter
        Le Cafe Meursault (restaurant)
        Palo Alto, CA
        (No longer in business)

        September 1980-October 1980:
        Food Service (sandwich maker)
        Stanford Coffee House
        Tresidder Student Union
        Stanford University
        Stanford, CA 94305

        June 1980-September 1980:
        Installer of insulation blankets for water heaters in 
        university housing
        Stanford Conservation Center
        Stanford University
        Stanford, CA 94305

    9. Attach a copy of your resume.
    Please see Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Partner, Dechert LLP, 7/2009 to present.

        Chair (9/2015 to present) and Member (9/2012 to present), 
        Editorial Board for Annual Review of Antitrust Law 
        Developments, ABA Section of Antitrust Law.

        Member, 5/2012 to present, Capital Markets Litigation Advisory 
        Committee, U.S. Chamber of Commerce Litigation Center.

        Chair, 5/2015 to present, International Law Working Group. John 
        Hay Initiative.

        Member, 2/2012 to present, National Security Law Working Group, 
        Heritage Foundation.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        D.C. Bar; member since 12/1988.

        American Bar Association; member, 1988-1992 and 2009 to 
        present.

        ABA Section of Antitrust Law, Editorial Board for Annual Review 
        of Antitrust Law Developments; chair, 9/2015 to present, and 
        member, 9/2012 to present.

        U.S. Chamber of Commerce Litigation Center, Capital Markets 
        Litigation Advisory Committee; member since 5/2012.

        Federalist Society; member off and on beginning in 1993 and 
        currently; was not a member while serving in government.

        Heritage Foundation, National Security Law Working Group: 
        participating member since 2/2012.

        John Hay Initiative, International Law Working Group; chair, 
        since 5/2015.

        Alexander Hamilton Society; member 2012-2014.

        Supreme Court Historical Society; member 2013.

        Stanford University Alumni Association; member since 1980.

        Michigan Law School Alumni Association; member since 1988.

        Chesterbrook Swim and Tennis Club (community pool and tennis 
        courts inMcLean, VA); member from 06/2008 until 03/2013.

        River Falls Community Center Association. Inc. (community pool 
        and tennis courts in Potomac, MD); member from 08/1996 until 
        09/2007.

        Civic Association of River Falls; member from 08/1996 until 09/
        2007.

        Registered member of the Republican Party.

        Maryland Republican Party; was a member while living in MD 
        (until 2007).

        Virginia Republican Party; currently a member.

        To my knowledge, no organization of which I have been a member 
        has ever had a policy of restricting membership on the basis of 
        sex, race, color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non elected, or appointed)? If so, indicate whether any 
campaign has any out standing debt, the amount, and whether you are 
personally liable for that debt.
    As listed above, I have held appointed office in the U.S. 
Department of Justice and have served as law clerk to two Federal 
judges. I have not campaigned for public office and do not have any 
campaign debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have made the following political contributions of $500 or more 
in the last ten years:

09/26/2016                     $1,000    National Republican Senatorial
                                          Committee
02/21/2016                     $2,700    Marco Rubio for President
06/18/2015                     $2,700    JEB2016, Inc.
09/19/2012                     $2,500    Romney Victory, Inc.
05/08/2012                       $500    Ted Cruz for Senate
09/14/2011                     $1,500    Romney for President
07/26/2011                     $1,000    Romney for President
02/24/2010                     $1,000    National Republican Senatorial
                                          Committee
 

    I have held no offices with any political party or election 
committee. I did serve as an unpaid legal adviser to presidential 
candidate Mitt Romney in 2012 and as an informal legal adviser to 
candidate Jeb Bush in 2015-2016.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        --Edmund J, Randolph Award for outstanding service to the 
        Department of Justice, 2007.

        --Secretary of Defense Medal for Outstanding Public Service, 
        Nov. 2006.

        --National Security Agency's Intelligence Under Law Award, May 
        2008.

        --Director of National Intelligence's 2007 Intelligence 
        Community Legal Award (Team of the Year, FISA Modernization).

        --Criminal Division's Award for Outstanding Law Enforcement 
        Partnerships, Nov. 2006.

        --Included in list of Washington's top 40 lawyers under age 40, 
        Washingtonian Magazine, Aug. 1998.

        --J.D., magna cum laude, University of Michigan Law School, May 
        1988.

        --Order of the Coif, University of Michigan Law School, 1988.

        --Article Editor, Michigan Law Review, 1987-1988.

        --Dean's 1987-1988 Law Review Award for outstanding 
        contribution to the Michigan Law Review.

        --Book Awards for top grade in law school classes: 
        Administrative Law, Civil Procedure II; and Legal Process.

        --Supreme Court clerkship, Justice Thomas, October Term 1992.

        --D.C. Circuit clerkship, Judge Buckley, 1990-1991.

        --Student Body President, Washington High School, Portland, OR, 
        1976.

        --Officer, Honor Society, Washington High School, Portland, OR, 
        1975-1976.

        --National Merit Scholarship Letter of Commendation, Washington 
        High School, Portland, OR, 1976.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications:
        --Steven G. Bradbury, ``National Security and the New Yellow 
        Press,'' published as chapter 11 in Journalism After Snowden: 
        The Future of the Free Press in the Surveillance State, p. 172 
        (Emily Bell, Taylor Owen, et al., eds., Columbia Journalism 
        Review Books, Columbia Univ. Press 2017).

        --Steven G. Bradbury, Justice Thomas and the Second Amendment: 
        Protecting Liberty and Promoting Equal Justice, published 
        online at JusticeThomas.com (Oct. 24, 2016).

        --Steven Gill Bradbury, ``Celebrating Justice Thomas's 25 Years 
        of Service on the Supreme Court,'' Letter of Tribute Addressed 
        to Sen. Orrin G. Hatch, Senate Committee on the Judiciary 
        (Sept. 16, 2016) (published in the Congressional Record).

        --Steven G. Bradbury, Opinion Piece, ``Clarence Thomas's 25 
        years on theSupreme Court are a triumph of perseverance,'' 
        FoxNews.com (online) (June 27, 2016).

        --John Hay Initiative International Law Working Group, Chaired 
        by Steven G. Bradbury. ``Update on China's Expansion in the 
        South China Sea'' (May 6, 2016) (published online).

        --John Hay Initiative International Law Working Group, Chaired 
        by Steven G. Bradbury, ``JHI Backgrounder: China's Maritime 
        Expansion in the South and East China Seas'' (Sept. 21, 2015) 
        (published online).

        --Steven G. Bradbury, Balancing Privacy and Security, Harv. J. 
        L. & Pub. Pol'y (Federalist Ed.), Vol. 2, No. 1, p.5 (Winter 
        2015).

        --Steven G. Bradbury, Op-Ed, ``Opposing view: Preserve this 
        critical tool [NSA telephone metadata program],'' USA Today, p. 
        10A (Mar. 28, 2014).

        --Steven G. Bradbury, Op-Ed, ``Don't limit the NSA's 
        effectiveness,'' Wash. Post, p.Al3 (Jan. 5, 2014).

        --Michael B. Mukasey, Steven G. Bradbury, & David B. Rivkin 
        Jr., Op-Ed, ``An ill-founded ruling against the NSA,'' Wash. 
        Post, p.A27 (Dec. 20, 2013).

        --Steven G. Bradbury, Understanding the NSA Programs: Bulk 
        Acquisition of Telephone Metadata Under Section 215 and 
        Foreign-Targeted Collection Under Section 702, Lawfare Research 
        Paper Series 1, No. 3 (Aug. 30, 2013), available at https://
        www.lawfareblog.com/topic/lawfare-research-paper-series.

        --Steven G. Bradbury, Op-Ed, ``The use of phone data: 
        Constraining the NSA would make Americans less safe,'' Wash. 
        Post, p.A15 (July 23, 2013).

        --Steven G. Bradbury, Op-Ed, ``Opposing view: `The system works 
        well as it is': FISA court judges serve the rule of law,'' USA 
        Today, p.8A (July 19, 2013).

        --Thomas P. Vartanian & Steven G. Bradbury, How to Fight Back 
        Against Bad Agency Decisions, American Banker BankThink 
        (online) (Jan. 16, 2013).

        --Steven G. Bradbury, Anticipating How the U.S. Supreme Court 
        May Rethink Fraud-on-the-Market Standards for Securities Class 
        Actions, Bloomberg BNA (online) (Aug. 24, 2012).

        --George G. Gordon & Steven G. Bradbury, K-Dur: The Rejection 
        of ``Scope of the Patent'' Test, Law360 (online) (July 24, 
        2012).

        --FTC Recommends Improvements to Patent System, Intellectual 
        Prop. & Tech'y L.J. (June 2011).

        --Timothy C. Blank, Steven G. Bradbury, & Christopher R. 
        Boisvert, The Dawn of Internet Privacy?, Law360 (online) (Apr. 
        22, 2011).

        --Steven G. Bradbury, Keynote Address, The Developing Legal 
        Framework for Defensive and Offensive Cyber Operations, 2 Harv. 
        Nat'l Sec. J. 629 (Mar. 2011).

        --Steven G. Bradbury & John P. Elwood, Op-Ed, ``Recess is 
        canceled: President Obama should call the Senate's bluff,'' 
        Wash. Post, p.Al9 (Oct. 15, 2010).

        --Steven G. Bradbury, Dechert LLP, After further review, NFL's 
        ``Hail Mary'' pass ruled incomplete: Supreme Court holds NFL's 
        joint trademark licensing subject to Section 1 of the Sherman 
        Act, Lexology (online) (May 28, 2010).

        --Steven G. Bradbury, Gearing up for American Needle v. NFL, 
        Law360 (online) (Jan. 11, 2010).

        --Steven G. Bradbury & Grant M. Dixton, Court Ruling Wrongly 
        Creates New Right to Sue Telecom Companies, Washington Legal 
        Foundation Legal Opinion Letter, Vol. 12, No. 22 (Aug. 30, 
        2002) (discussing Law Offices of Curtis V. Trinko, LLP v. Bell 
        Atlantic Corp., 294 F.3d 307 (2d Cir. 2002), a case later 
        reversed by the Supreme Court).

        --Steven Bradbury & Kelion Kasler, Kirkland & Ellis, ``Verizon 
        Communications: The Merger of Bell Atlantic and GTE,'' 
        published in Corporate Finance, Global M&A Yearbook 2000: New 
        Strategies in M&A at 47 (Nov. 2000).

        --Steven G. Bradbury, Paul T. Cappuccio & Patrick F. Philbin, 
        Kirkland & Ellis, ``Telecommunications,'' published in 
        International Financial Law Review, United States: A Legal 
        Guide at 33 (June 1998).

        --Steven G. Bradbury, Paul T. Cappuccio & Patrick F. Philbin, 
        Kirkland & Ellis, ``United States,'' published in International 
        Financial Law Review, Telecommunications: An International 
        Legal Guide at 69 (Aug. 1997).

        --Steven G. Bradbury, The Unconstitutionality of Qui Tam Suits, 
        Federalist Society Federalism & Separation of Powers News, Vol. 
        1 No. 1 (Fall 1996) (discussing pending cert. petition in 
        Hughes Aircraft Co. v. United States ex rel. Schumer).

        --Steven G. Bradbury, Original Intent, Revisionism, and the 
        Meaning of the CGL Comprehensive General Liability Insurance] 
        Policies, 1 Environmental Claims J. 279 (Spring 1989).

        --Note, Corporate Auctions and Directors' Fiduciary Duties: A 
        Third-Generation Business Judgment Rule, 87 Mich. L. Rev. 276 
        (1988).

        --Book Note, 85 Mich. L. Rev. 941 (1987).

        --A Cattleman's Calling (short story), published in The Hoboken 
        Terminal, Vol. 1 No. 1 (Spring 1982).

    In addition to the publications listed above, I have assisted in 
preparing client alerts issued online by Dechert LLP regarding a wide 
variety of legal topics. Those client alerts are available at https://
www.dechert.com/steven_bradbury/ (click on ``Related Publications''). I 
also authored or supervised the preparation of legal opinions for the 
Office of Legal Counsel (``OLC'') of the U.S. Department of Justice 
from 2004 to 2009. Many of those opinions are posted on the OLC Website 
and can be found at www.usdoj.gov/olc/opinions-main and https://
www.usdoj.gov/olc/olc-foia-electronic-reading-room.

Speeches and Other Public Remarks:
    I have given numerous speeches, panel presentations, and other 
public remarks, mostly addressed to issues of national security law, 
cybersecurity, antitrust, securities law, and administrative law and 
regulation. Very few of my public remarks have been relevant to the 
position to which I have been nominated. The following is the most 
complete list I have been able to compile of my speeches and public 
remarks.

        Panel Presentation, ``How to Shut It Down: Creative Strategies 
        that Ended Government Antitrust Investigations,'' Dechert LLP's 
        2017 Annual Antitrust Spring Seminar, Philadelphia, PA (Apr. 4, 
        2017).

        Panel Presentation, ``Financial Services Breakfast Briefing: 
        Current Developments Affecting the Fund Industry--Washington 
        Update,'' Investment Company Institute Annual Legal Conference, 
        Palm Desert, CA (Mar. 14, 2017).

        Panel Presentation, ``A Term in Review: An Overview of Key 
        Supreme Court Decisions from the 2015 Term & Thoughts About the 
        Upcoming Term,'' Dechert LLP CLE Seminar, Washington, D.C. 
        (Nov. 29, 2016).

        Panel Presentations, ``A Bitter Pill?: Recent Developments in 
        Pharma''; and ``Antitrust in the Next U.S. Administration,'' 
        Dechert LLP's 2016 Annual Antitrust Spring Seminar, 
        Philadelphia, PA (Apr. 13, 2016).

        Panel Presentation, ``What Every Lawyer Needs to Know About 
        Recent Supreme Court Cases,'' Dechert LLP CLE Seminar, 
        Washington, D.C. (Sept. 16, 2015).

        Guest Appearance, Discussion and Debate on Reauthorizing the 
        PATRIOT Act, C-SPAN Washington Journal, Washington, D.C. (May 
        16, 2015) (appeared with Neema Singh Guliani of ACLU).

        Panel Presentation, Dechert LLP's 2015 Annual Antitrust Spring 
        Seminar, Philadelphia, PA (Apr. 28, 2015).

        Participant in Panel Debate, Legality of Section 215 Telephone 
        Metadata Acquisition, Heritage Foundation, Washington, D.C. 
        (Mar. 17, 2015).

        Remarks, ``The Legal Framework for Cybersecurity,'' Presented 
        to the Legal Department of Raytheon Company, Waltham, MA (Nov. 
        4, 2014).

        Featured Speaker (with John B. Bellinger, II), Discussing the 
        President's Use of the 2001 AUMF to Combat ISIS, Event 
        Organized by Alexander Hamilton Society and Federalist Society, 
        Mayflower Hotel, Washington, D.C. (Oct. 22, 2014).

        Moderator, Discussion between Two Former SEC Commissioners 
        Regarding ``Corporate Disclosure Effectiveness: Ensuring a 
        Balanced System [of SEC Disclosure] that Informs and Protects 
        Investors and Facilitates Capital Formation,'' U.S. Chamber of 
        Commerce, Washington, D.C. (July 29, 2014).

        Panel Speaker, Discussion Regarding Supreme Court's Decision in 
        Utility Air Regulatory Group v. EPA Striking Down EPA Rule on 
        Greenhouse Gas Emissions from Stationary Sources, ABA 
        Administrative Law Section Forum, Washington, D.C. (July 24, 
        2014).

        Panel Presentation, Dechert LLP, ``So the Government Thinks 
        Your Deal Is Anticompetitive: Restructuring Your Deal to 
        Overcome Antitrust Hurdles,'' Lawline CLE Webinar, New York, NY 
        (June 24, 2014).

        Video-Recorded Remarks Discussing Supreme Court's Decision in 
        Halliburton Case (Addressing Securities Law Class Action 
        Standards), Federalist Society YouTube Video Series, 
        Washington, D.C. (June 23, 2014).

        Panel Speaker, ``Executive Branch Action in a Time of Political 
        Dysfunction,'' American Constitution Society, Annual 
        Convention, Washington, D.C. (June 20, 2014).

        Panel Speaker) ``Debrief on Supreme Court's UARG v. EPA Opinion 
        Regarding Greenhouse Gas Rules,'' Environmental Law Institute, 
        Associates Seminar, Washington, D.C. (June 19, 2014).

        Panel Speaker, ``Foreign Intelligence Surveillance in an Era of 
        `Big Data'--Is There a Need to Recalibrate Boundaries?,'' ABA 
        Standing Committee on Law and National Security, Washington, 
        D.C. (May 2, 2014).

        Panel Presentation, ``What Every Lawyer Needs to Know About 
        Recent Supreme Court Cases,'' Dechert LLP CLE Seminar, New 
        York, NY (Apr. 30, 2014).

        Panel Presentation, Dechert LLP's 2014 Annual Antitrust Spring 
        Seminar, Philadelphia, PA (Apr. 29, 2014).

        Panel Speaker, Forum on Data Privacy and Balancing National 
        Security and Civil Liberties, Clements Center for History, 
        Strategy, & Statecraft, University of Texas Law School, Austin, 
        TX (Apr. 3, 2014).

        Panel Speaker, Panel Discussing Data Privacy and 
        Constitutionality of National Security Surveillance Activities, 
        Georgetown Journal of Law & Public Policy Spring Symposium, 
        Washington, D.C. (Mar. 27, 2014).

        Panel Speaker, Panel Discussing Constitutionality of Border 
        Searches of Electronic Media by TSA Officials, National Press 
        Club, Washington, D.C. (Mar. 20, 2014).

        Featured Speaker, ``National Security versus Data Privacy,'' 
        Ferrum College Annual Forum, Roanoke, VA (Mar. 19. 2014).

        Panel Speaker, ``Balancing Privacy and Security,'' Federalist 
        Society's 33rd Annual National Student Symposium, Univ. of 
        Florida Levin College of Law, Gainesville, FL (Mar. 8, 2014).

        Panel Speaker, Addressing the Halliburton case and the Supreme 
        Court's Reconsideration of the Basic v. Levinson Presumption of 
        Reliance in Securities Fraud Litigation, D.C. Bar Luncheon, 
        Washington, D.C. (Mar. 5, 2014).

        Panel Speaker, Addressing Individual Privacy and National 
        Security, Chicago Bar Association Forum, Union League Club, 
        Chicago, IL (Mar. 3, 2014).

        Panel Speaker, ``Erica P. John Fund & Beyond: The Past, 
        Present, and Future of Securities Class Actions,'' U.S. Chamber 
        of Commerce, Washington, D.C. (Feb. 28, 2014).

        Panel Speaker, ``Debrief of the Supreme Court's Oral Argument 
        on EPA's Greenhouse Gas Rulemakings,'' D.C. Bar Association, 
        Washington, D.C. (Feb. 25, 2014).

        Panel Speaker, Constitutionality of NSA Programs, Organized by 
        the National Security Law Committee of the Federalist Society, 
        Held at the Offices of Jones Day, Washington, D.C. (Feb. 24, 
        2014).

        Panel Speaker, Addressing Fallout from the NSA Revelations for 
        Foreign Relations and the Legal Regime Governing Surveillance 
        in the U.S. and Among Our Allies, Breakfast Panel Debate, 
        Council on Foreign Relations, Washington, D.C. (Feb. 20, 2014).

        Panel Speaker, Conference on Privacy and Security, Chicago 
        Council on Global Affairs and Notre Dame Law School's 
        International Security Program, Chicago, IL (Feb. 14, 2014).

        Panel Speaker, ``Reforming the NSA Surveillance System: 
        Assessing the Options,'' at the State of the Net Conference, 
        organized by the Internet Education Foundation and the National 
        Cable and Telecommunications Association, The Newseum, 
        Washington, D.C. (Jan. 28, 2014).

        Featured Speaker, Address on the Constitutional Underpinnings 
        of the NSA Programs, Stanford Law School Constitutional Law 
        Center, Stanford, CA (Jan. 23, 2014).

        Guest on radio program discussing FISA Court process and NSA 
        programs, NPR Philadelphia affiliate (Jan. 21, 2014).

        Audio Teleconference and Podcast, Discussing District Court 
        Decision Enjoining NSA Metadata Program, Federalist Society 
        Teleforum, Washington, D.C. (Dec. 19, 2013).

        Webinar Presentation, ``Supreme Court Takes on the Clean Air 
        Act: EME Homer and Utility Air Regulatory Group v. EPA,'' 
        Bloomberg BNA Webinar (Dec. 17, 2013).

        Panel Speaker, Addressing Cybersecurity and the NSA 
        Disclosures, Federalist Society Annual Convention, Washington, 
        D.C. (Nov. 15, 2013).

        Debate, ``NSA Surveillance: A Necessary Evil?,'' Paul H. Nitze 
        School of Advanced International Studies (SAIS), Johns Hopkins 
        University, Washington, D.C. (Oct. 28, 2013) (debating Prof. 
        David Cole of Georgetown Law School; moderated by SAIS Prof 
        John McLaughlin, former Deputy Director of the CIA).

        Participant, Debate on National Security versus Privacy 
        Interests, St. Thomas Law School, St Paul, MN (Oct 3, 2013).

        Panel Presentation, CLE Seminar on Antitrust Law Developments, 
        presented to Time Warner Inc. Legal Department, New York, NY 
        (Sept. 24, 2013).

        Participant, Debate on Legality of NSA Programs, Milbank Tweed 
        Forum, NYU Law School, New York, NY (Sept 18, 2013) (debating 
        Liza Goitein of the Brennan Center for Justice, among others).

        Participant in nationally televised debate addressing the 
        propriety and legality of the NSA programs disclosed by Edward 
        Snowden, PBS News Hour, Shirlington, VA (July 31, 2013) 
        (debating author and NSA critic Jim Bamford).

        Participant in radio debate addressing the legality of the NSA 
        programs disclosed by Edward Snowden, Minnesota Public Radio's 
        Daily Circuit program (July 30, 2013) (debating Marc Rotenberg 
        of EPIC),

        Debate on constitutionality of NSA programs disclosed by Edward 
        Snowden, Federalist Society Teleforum, Washington, D.C. (July 
        23, 2013) (debating Prof. Randy Barnett of Georgetown Law 
        School).

        Webinar Presentation, ``FTC v. Actavis, Inc.: The Unsettling of 
        Hatch-Waxman Settlements,'' BNA Bloomberg Webinar (July 16, 
        2013).

        Guest on Public Radio Program To The Point With Warren Olney 
        Discussing the FISA Court and NSA Programs (July 10, 2013).

        Prepared Remarks and Q&A Addressing Legal Bases for NSA 
        Programs, Delivered before the Privacy and Civil Liberties 
        Oversight Board, Washington, D,C. (July 9, 2013).

        Live Analysis, SCOTUS Decision in FTC v. Actavis, Inc., Dechert 
        LLP, Washington, D,C. (June 19, 2013).

        Panel Speaker, Addressing Cost-Benefit Analysis and OMB Review 
        of Administrative Rulemaking, Federalist Society Luncheon 
        Event, National Press Club, Washington, D.C. (June 11, 2013).

        Panel Speaker in Live Conference and Pod cast, ``The Pentagon, 
        the National Security Agency, and Domestic Cybersecurity,'' 
        Federalist Society International & National Security Law 
        Practice Group, Washington, D.C. (May 3, 2013).

        Panel Presentation, Dechert LLP's 2013 Annual Antitrust Spring 
        Seminar, Philadelphia, PA (April 17, 2013).

        Webinar Participant, Briefing on Supreme Court case FTC v. 
        Actavis, Inc. regarding intersection of patent law and 
        antitrust, American Intellectual Property Law Association 
        Webinar, Washington, D.C. (Apr. 2, 2013).

        Panel Speaker, ``The Importance of Cost-Benefit Analysis in 
        Agency Rulemaking,'' U.S. Chamber of Commerce Center for 
        Capital Markets Competitiveness, Washington, D.C. (Mar. 12, 
        2013).

        Featured Speaker, ``Agency v. Agency (and other problems of 
        overlapping jurisdiction),'' Federalist Society event, Duke Law 
        School, Durham, NC (Jan. 31, 2013).

        Debate Presentation, ``Debating the USA PATRIOT Act: 10 Years 
        Later,'' Appellate Judges Education Institute, 2012 Annual 
        Summit, New Orleans, LA (Nov. 18, 2012) (debating Susan Herman, 
        National President of the ACLU).

        Webinar Participant, ``The Legal Challenge to the CFTC's New 
        Registration Regime for Mutual Funds)'' Mutual Fund Directors 
        Forum Webinar, Washington, D.C. (Oct 9, 2012).

        Web Video, Addressing Federal Trade Commission's Policy Change 
        in Seeking Restitution in Enforcement Proceedings, Washington 
        Legal Foundation Web Video, Washington, D.C. (Aug. 30, 2012).

        Debate on the Constitutionality of the Individual Mandate in 
        the Affordable Care Act Following Oral Argument in the Supreme 
        Court, American Constitution Society, Annual Convention, 
        Washington, D.C. (June 16, 2012) (debating Walter Dellinger; 
        moderated by Adam Liptak).

        Mock Oral Argument on the Constitutionality of the Individual 
        Mandate in the Affordable Care Act, Georgetown Law School 
        Supreme Court Institute, Washington, D.C. (Feb. 1, 2012) 
        (arguing opposite Walter Dellinger before a distinguished panel 
        of Supreme Court practitioners sitting as mock justices).

        Panel Speaker, Addressing Developments in Cybersecurity Law, 
        Steptoe & Johnson Forum, Washington, D.C. (June 28, 2011).

        Featured Speaker, Roundtable Discussion on the Developing Legal 
        Framework for Defensive and Offensive Cybersecurity, Council on 
        Foreign Relations, Washington, D.C. (Apr. 18, 2011).

        Keynote Address, ``The Developing Legal Framework for Defensive 
        and Offensive Cyber Operations,'' Harvard National Security 
        Journal Forum on Cybersecurity, Harvard Law School, Cambridge, 
        MA (Mar. 4, 2011).

        Remarks Addressing Matrix Initiatives Supreme Court Case, 
        Federalist Society Press Call, Washington, D.C. (Jan. 6, 2011).

        Moderator, ``Merck & Co. v. Reynolds,'' Law Seminars 
        International TeleBriefing (May 18, 2010) (panel presentation 
        included Richard Cordray, then Attorney General of Ohio).

        Panel Presentation, Dechert LLP, Spring Antitrust CLE Seminar, 
        Philadelphia, PA (Apr. 28, 2010).

        Remarks on Receiving the Intelligence Under Law Award, NSA's 
        Law Day, National Security Agency, Fort Meade, MD (May 1, 
        2008).

        Remarks on the Departure of Attorney General Alberto R. 
        Gonzales, Great Hall of the U.S. Department of Justice, 
        Washington, D.C. (Sept. 17, 2007).

        Remarks delivered to attorneys of my former law firm, Kirkland 
        & Ellis LLP, concerning the functions of the Office of Legal 
        Counsel and my experiences as Acting AAG, Washington, D.C. 
        (Jan. 22, 2007).

        Guest on NPR's Morning Edition radio program, Explaining the 
        Legal Basis for the Special NSA Surveillance Program Authorized 
        by the President, Washington, D.C. (Feb. 14, 2006).

        Guest Appearance, Explaining the Legal Basis for the Special 
        NSA Surveillance Program Authorized by the President, C-SPAN 
        Washington Journal, Washington, D.C. (Feb. 8, 2006).

    In addition to the speaking engagements listed above, in private 
practice with Kirkland & Ellis LLP between 1993 and 2004, I 
participated in several pm1el discussions for industry or bar 
associations concerning matters or issues on which I was working; these 
included: a Washington Legal Foundation panel discussing an upcoming 
Supreme Court term; a panel discussing antitrust litigation in the 
securities industry at the Securities Industry Association Annual Law 
and Compliance Seminar; and a panel discussing airline industry mergers 
at the ABA's Air and Space Law Section annual conference. I also 
appeared as a guest on a cable television program discussing Justice 
Thomas.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Hearing before the House Committee on the Judiciary, 
        ``Examining Recommendations to Reform FISA Authorities'' (Feb. 
        4, 2014).

        Hearing before the House Permanent Select Committee on 
        Intelligence, ``Legislative Proposals for Modifying NSA 
        Programs and Amending FISA Authorities'' (Oct. 29, 2013).

        Hearing before the House Committee on the Judiciary, 
        ``Oversight Hearing into the Administration's Use of FISA 
        Authorities'' (July 17, 2013).

        Hearing before the House Ways and Means Committee, ``The 
        Ramifications of the Supreme Court's Ruling on the Affordable 
        Care Act'' (July 10, 2012).

        Hearing before the House Ways and Means Committee, ``The 
        Constitutionality of the Individual Mandate in the Affordable 
        Care Act'' (Mar. 29, 2012).

        Hearing before the Senate Committee on the Judiciary, ``The Due 
        Process Guarantee Act: Banning Indefinite Detention of 
        Americans'' (Feb. 29, 2012).

        Hearing before the House Committee on the Judiciary, 
        Subcommittee on the Constitution, Civil Rights, and Civil 
        Liberties, ``Oversight of the Justice Department's Office of 
        Legal Counsel'' (Feb. 14, 2008).

        Classified Hearing before the Senate Select Committee on 
        Intelligence Concerning Legal and Policy Review of CIA Program 
        (Apr. 12, 2007).

        Hearing before the House Committee on Armed Services, 
        ``Standards of Military Commissions and Tribunals Following the 
        Supreme Court's Decision in Hamdan v. Rumsfeld'' (Sept. 7, 
        2006).

        Hearing before the House Committee on the Judiciary, 
        Subcommittee on Crime, Terrorism, and Homeland Security, 
        ``Legislative Proposals to Update the Foreign Intelligence 
        Surveillance Act'' (Sept. 6, 2006).

        Hearing before the Senate Committee on the Judiciary, ``The 
        Authority to Prosecute Terrorists under the War Crimes 
        Provisions of Title 18'' (Aug. 2, 2006).

        Hearing before the Senate Committee on the Judiciary, ``FISA 
        for the 21st Century'' (July 26, 2006).

        Hearing before the House Committee on Armed Services, 
        ``Standards of Military Commissions and Tribunals Following the 
        Supreme Court's Decision in Hamdan v. Rumsfeld'' (July 12, 
        2006).

        Hearing before the Senate Committee on the Judiciary, ``Hamdan 
        v. Rumsfeld: Establishing a Constitutional Process for Military 
        Commissions'' (July 11, 2006).

        Confirmation Hearing before the Senate Committee on the 
        Judiciary, Nominations of several nominees, including Steven G. 
        Bradbury, to be Assistant Attorney General for the Office of 
        Legal Counsel, Department of Justice (Oct. 6, 2605).

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Through my work in private practice and in the Justice Department's 
Office of Legal Counsel (``OLC''), I am familiar with the statutory and 
administrative authorities of Federal departments and agencies, 
specifically including the Department of Transportation. Every major 
mission and program administered by the Department depends on accurate 
and reliable legal advice for policymakers on the application and 
limits of such authorities, and I have extensive experience supervising 
teams of attorneys in providing such legal advice.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proper management and accounting controls are critical to the 
Department's appropriate and effective administration of its statutory 
authorities. My responsibilities in OLC included providing legal advice 
to deparh11cnt heads and the White House on compliance with Federal 
budget and accounting controls, including under the Anti-Deficiency 
Act. I have managed teams of lawyers in carrying out this legal role, 
and I have advised senior appointed officials at various departments 
and agencies in the proper supervision of their statutory mandates. In 
private practice, I have advised general counsels and other senior 
legal offices to ensure compliance with applicable laws and 
regulations.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I see the top three challenges facing the Department of 
Transportation to be (a) promoting public safety through reasonable and 
effective application of the legal authorities provided by Congress; 
(b) achieving rational rulemaking consistent with law and with the 
preservation of competitive markets and incentives for private 
investment in innovation; and (c) advancing critical transportation 
infrastructure improvements through cooperation with Congress in the 
budget process and through the efficient administration of grants and 
other funding programs authorized by Congress. If confirmed as General 
Counsel, my role will be to ensure that the Secretary and the 
Department have the legal advice and support needed in exercising their 
authorities to address these and other challenges.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I currently am employed as a partner at Dechert LLP. If confirmed, 
I will resign from that position. Pursuant to Dechert's partnership 
agreement, following my withdrawal from the firm, I will receive a pro 
rata partnership share based on the value of my partnership interests 
for services performed in 2017 through the date of my withdrawal. The 
firm will calculate the value of that share based on the firm's 2016 
earnings. Consistent with the partnership agreement, I will receive the 
partnership share no later than April 2018. Also pursuant to the 
partnership agreement, following my withdrawal from the firm, I will 
receive a lump-sum payment of my capital account, calculated as of the 
date of my withdrawal. This payment will be made on or before 60 days 
from the date of my withdrawal. Dechert may withhold a portion of my 
capital account as a reserve for account reconciliations and tax 
payments, pursuant to the partnership agreement.
    I also currently participate in Dechert's defined contribution 
savings and pension plans, which I will continue to participate in if 
confirmed; the firm as plan sponsor docs not contribute to these plans 
and will not contribute to them after my separation. I also currently 
hold residual interests in certain contingent-fee cases from my 
previous law firm, Kirkland & Ellis LLP, and I will forfeit these 
interests upon confirmation.
    In addition, I currently hold uncompensated positions with the 
American Bar Association Section of Antitrust Law, the Capital Markets 
Litigation Advisory Committee of the U.S. Chamber of Commerce 
Litigation Center, the National Security Law Working Group of the 
Heritage Foundation, and the John Hay Initiative. If confirmed, I will 
resign from those positions.
    I have a Thrift Savings Plan (``TSP'') account from my previous 
government service; if confirmed, I will retain my TSP account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation 
(``DOT'') Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved consistent with the terms of an ethics agreement I have 
entered into with the DOT Designated Agency Ethics Official, which has 
been provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the DOT Designated Agency Ethics 
Official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved consistent with the terms of an 
ethics agreement I have entered into with the DOT Designated Agency 
Ethics Official, which has been provided to this Committee. I am not 
aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have not been engaged by a client in private practice during the 
past ten years to influence legislation. In 2013-2014, based on my 
prior experiences as a senior official in the Department of Justice and 
acting in my personal capacity, not for any client, I provided 
testimony and authored letters and other writings urging Congress not 
to enact certain legislative proposals concerning important national 
security programs. I also signed a letter on behalf of former 
government officials urging Congress to reduce the number of committees 
with responsibility for oversight of the Department of Homeland 
Security. I have represented clients involved in agency investigations 
and enforcement actions and similar matters in which I presented good 
faith arguments relating to the interpretation and application of 
relevant laws.
    Earlier, during my tenure as head of the Office of Legal Counsel of 
the Department of Justice, I represented the President and the 
Executive Branch in working with Congress on legislative reforms of the 
Foreign Intelligence Surveillance Act, the procedures for military 
commissions of enemy combatants, and the War Crimes Act.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the DOT Designated Agency Ethics 
Official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved consistent with the terms of an 
ethics agreement I have entered into with the DOT Designated Agency 
Ethics Official, which has been provided to this Committee. I am not 
aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  (a)  Provide the name of agency, association, committee, or group;

  (b)  Provide the date the citation, disciplinary action, complaint, 
        or personnel action was issued or initiated;

  (c)  Describe the citation, disciplinary action, complaint, or 
        personnel action; and

  (d)  Provide the results of the citation. disciplinary action, 
        complaint, or personnel action.
    No.
    2, Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding or civil litigation? If so, please 
explain.
    I have not been a party to civil litigation, administrative agency 
proceedings, or criminal proceedings, except as described in response 
to Question 4 below. The law firms of which I have been a partner have 
on occasion been parties to litigation, but none of those litigation 
matters has concerned activities involving me personally, and I am not 
personally familiar with the details of any such litigation matters. 
Certain legal opinions issued by the Office of Legal Counsel in 2002 
and 2003 (before my time as Principal Deputy in OLC) were the subject 
of an investigation by the Office of Professional Responsibility 
(``OPR'') of the Department of Justice, and in the course of that 
investigation, OPR also considered certain later OLC opinions that I 
authored. OPR did not make any finding that my opinions failed to 
satisfy standards of professional responsibility. The final OPR report 
made recommendations concerning the earlier OLC opinions, hut that 
report was overruled and its recommendations were rejected by the 
senior career official of the Department of Justice (the Associate 
Deputy Attorney General), and the OPR report does not have continuing 
official force or validity.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    Yes, as follows:

  (a)  Moving violation: Failure to yield right of way on a left turn 
        (in connection with a traffic accident on Bradley Blvd. in 
        Montgomery County, MD on 06/05/2002). On 10/01/2002, I pleaded 
        guilty in Circuit Court of Montgomery County, MD, and paid a 
        $37 fine plus $23 in court costs. The court reduced the points 
        for this violation from 3 to 1.

  (b)  I received a citation on 10/02/1981 and paid a $10 fine on 11/
        02/1981 for entering the New York City subway system without 
        paying the fare.

    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the extent reasonable and feasible.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the extent consistent with legal and customary 
requirements.
    4. Arc you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment A
                     Resume of Steven Gill Bradbury
Work Experience

Dechert LLP, Washington, D.C., 2009-Present
Law Partner, Litigation & Regulatory Enforcement
        Practice includes regulatory enforcement matters; 
        administrative law and judicial review of agency actions; 
        congressional investigations; all aspects of antitrust, 
        including government enforcement, merger reviews, and private 
        litigation; other Supreme Court cases and appellate litigation; 
        constitutional issues; general commercial litigation; data 
        privacy and national security law.
        See separate sheets for significant representations.

U.S. Department of Justice, Washington, D.C., 2004-2009
Acting Assistant Attorney General and Principal Deputy, Office of Legal 
Counsel
        Served as senior appointed official in charge of the Office of 
        Legal Counsel (``OLC''). Nominated by President to be Assistant 
        Attorney General. As head of OLC, advised the President, the 
        Attorney General, and the heads of executive departments and 
        agencies of the Federal Government on significant questions of 
        constitutional, statutory, and administrative law and treaty 
        interpretation; represented the Justice Department and 
        Executive Branch before Congress.

        Awards received during government service:
        Edmund J. Randolph Award for outstanding service to the 
        Department of Justice
        Secretary of Defense Medal for Outstanding Public Service
        National Security Agency's Intelligence Under Law Award
        Director of National Intelligence's 2007 Intelligence Community 
        Legal Award (Team of the Year, FISA Modernization)
        Criminal Division's Award for Outstanding Law Enforcement 
        Partnerships

Kirkland & Ellis LLP, Washington, D.C., 1993-2004
Litigation Partner (1994-2004); Associate (1993-1994)
        Practice included all aspects of antitrust, including 
        government enforcement, merger reviews, and private litigation; 
        other regulatory enforcement matters; administrative law and 
        judicial review of agency actions; Supreme Court cases and 
        appellate litigation; constitutional issues; and general 
        commercial litigation.
        See separate sheets for significant representations.

Honorable Clarence Thomas, Supreme Court of the United States, 1992-
1993
Law Clerk

U.S. Department of Justice, Washington, D.C., 1991-1992
Attorney-Adviser, Office of Legal Counsel

Honorable James L. Buckley, U.S. Court of Appeals for the D.C. Circuit, 
1990-1991
Law Clerk

Covington & Burling, Washington, D.C., 1988-1990
Associate
        Gained substantial Federal trial and appellate court 
        experience. Represented Missouri and Washington State in 
        defending suits brought by hospitals and nursing homes seeking 
        additional Medicaid reimbursements. Represented policyholders 
        and amici in suits seeking insurance coverage for environmental 
        liabilities.

Davis Poll & Wardwell, New York, N.Y., 1983-1985
Legal Assistant

Avon Books, a Division of Hearst Corporation, New York, N.Y., 1981-1983
Assistant Editor (1982-1983); Editorial Assistant (1981-1982)
Education
University of Michigan Law School, Ann Arbor, Michigan
J.D., magna cum laude, May 1988. Order of the Coif
        Article Editor, Michigan Law Review.
        Dean's 1987-1988 Law Review Award for outstanding contribution 
        to the Review.
        Note, Corporate Auctions and Directors' Fiduciary Duties: A 
        Third Generation Business Judgment Rule, 87 Mich. L. Rev. 276 
        (1988).
        Book Awards: Administrative Law, Civil Procedure 11, Legal 
        Process.

Stanford University, Stanford, California
B.A., June 1980. Major in English.
        Additional course work in history, politics, languages. and 
        philosophy, including tutorial study in theory of knowledge at 
        Lincoln College, Oxford University.
Bar and Court Memberships
District of Columbia Bar
Supreme Court of the United States
U.S. District Court for the District of Columbia
U.S. Courts of Appeals for D.C., First, Second, Fourth, Fifth, Sixth, 
and Seventh Circuits
Personal
Born and raised, Portland, Oregon. Spouse: Hilde E. Kahn.
Children: James (B.A., Stanford, 2016); Will (Stanford, Class of 2018); 
Susanna (Thomas Jefferson High School for Science & Technology, Class 
of 2017)
Significant Representations
  <bullet> Represent provider of cloud-based software solutions before 
        the National Highway Traffic Safety Administration (``NHTSA'') 
        in connection with a recall involving potential safety risks 
        from lithium ion batteries.

  <bullet> Represent Internet registry company in connection with 
        antitrust issues raised by ICANN award of top-level domain 
        rights.

  <bullet> Represented the Independent Community Bankers of America in 
        Federal court action challenging a final rule of the National 
        Credit Union Administration relating to commercial lending by 
        insured credit unions (E.D.Va.).

  <bullet> Represented TK Holdings Inc. (Takata Corporation) in 
        connection with investigations of airbag inflator ruptures by 
        NHTSA, Congress, and other entities, and in related civil 
        litigation.

  <bullet> Represent Verizon in connection with wireless data roaming 
        rate cases before the Federal Communications Commission.

  <bullet> Represent American Airlines, Inc., in Department of 
        Transportation rulemaking proceedings on competition and 
        consumer protection issues and in international route 
        authorization proceedings.

  <bullet> Represented major media company in connection with 
        Department of Justice and FCC antitrust review of the proposed 
        merger of Comcast Corporation and Time Warner Cable, Inc., and 
        the merger of Charter Communications and Time Warner Cable.

  <bullet> Represented U.S. Airways Group in defending merger with AMR 
        Corp. (American Airlines) against antitrust challenge by the 
        U.S. Department of Justice and several States--United States v. 
        U.S. Airways Group & AMR Corp. (D.D.C.).

  <bullet> Represented Polypore International, Inc., in appeal from FTC 
        antitrust order requiring divestiture of assets acquired from 
        Microporous Products LP--Polypore International, Inc. v. FTC 
        (11th Cir. and U.S. Sup. Ct.).

  <bullet> Represented Turing Pharmaceuticals in connection with 
        congressional investigation of drug pricing practices.

  <bullet> Represented leading claims administrator in connection with 
        congressional hearing concerning administration of historic 
        settlement of Indian trust fund claims.

  <bullet> Represent various financial industry associations and 
        companies, including as amici, in judicial challenges to agency 
        rulemakings under the Dodd-Frank Act.

  <bullet> Represent U.S. Chamber of Commerce and Investment Company 
        Institute as amici in support of MetLife, Inc.'s challenge to 
        its designation as ``too big to fail'' by the Financial 
        Stability Oversight Council under the Dodd-Frank Act.

  <bullet> Represent U.S. Chamber of Commerce and National Association 
        of Manufacturers as amici in various appellate cases before the 
        Supreme Court and U.S. courts of appeals.

  <bullet> Represented the American Intellectual Property Law 
        Association as amicus before the Supreme Court in FTC v. 
        Actavis, Inc. (U.S.Sup. Ct. 2013), concerning antitrust 
        analysis of ``reverse payment'' patent settlements.

  <bullet> Represented 215 economists as amici in appellate challenge 
        to the Federal health care reform law (11th Cir. and U.S. Sup. 
        Ct.).

  <bullet> Represented Dean Foods Company in defending litigation 
        brought by the Antitrust Division of the U.S. Department of 
        Justice and the States of Wisconsin, Illinois, and Michigan 
        challenging Dean Foods' acquisition of milk processing plants--
        United States v. Dean Foods Co. (E.D. Wis.).

  <bullet> Represented third party before DOJ and FCC in connection 
        with antitrust issues raised by AT&T's proposed acquisition of 
        T-Mobile.

  <bullet> Represented industry stakeholders in antitrust challenge to 
        restrictive trademark licensing practices by NCAA colleges and 
        their exclusive licensing agent.

  <bullet> Lead counsel to Morgan Stanley in defending dozens of 
        consolidated securities class action suits involving the 
        allocation of shares in high-tech IPOs--In re IPO Securities 
        Litigation (S.D.N.Y.)--and related litigation in various other 
        courts.

  <bullet> Lead counsel to Morgan Stanley in SEC and NASD 
        investigations of IPO allocation practices.

  <bullet> Lead counsel to Verizon Communications in successfully 
        obtaining dismissal of antitrust class action against Bell 
        companies relating to competition for local telephone service--
        Twombly v. Bell Atlantic Corp. (S.D.N.Y.).

  <bullet> Lead counsel to Morgan Stanley in successfully obtaining 
        dismissal of antitrust class action relating to the allocation 
        of shares in IPOs--In re IPO Antitrust Litigation (S.D.N.Y .).

  <bullet> Represented Bell Atlantic and DSC Communications Corp. in 
        $3.5 billion monopolization suit against AT&T and Lucent 
        Technologies (E.D. Texas).

  <bullet> Represented Bell Atlantic and NYNEX in challenge to AT&T's 
        $19 billion acquisition of McCaw Communications (E.D.N.Y.).

  <bullet> Lead antitrust counsel to United Air Lines in obtaining DOJ 
        approval of code-share agreement with U.S. Airways.

  <bullet> Lead antitrust counsel to United Air Lines in proposed 
        acquisition of U.S. Airways (abandoned).

  <bullet> Lead antitrust and regulatory counsel to GTE Corporation in 
        its $56 billion merger with Bell Atlantic to create Verizon.

  <bullet> Represented AOL in defending AOL-Time Warner merger before 
        the Competition Directorate of the European Commission 
        (``EC'').

  <bullet> Lead counsel to GTE before DOJ, FCC, EC, and D.D.C. in 
        successfully challenging Internet aspects of MCI-WorldCom 
        merger.

  <bullet> Represented Bell Atlantic in antitrust defense of $23 
        billion acquisition of NYNEX.

  <bullet> Lead counsel to Verizon Directories Corp. in Lanham Act 
        action against Yellow Book USA, Inc. for false advertising and 
        sales claims (E.D.N.Y.).

  <bullet> Handled jury trial and argued appeal in magazine trademark 
        suit between Petersen Publishing Co. and Time, Inc. (S.D.N.Y. & 
        2d Cir.).

  <bullet> Represented NFL football players in Supreme Court case 
        addressing the non-statutory labor exemption to the antitrust 
        laws--Brown v. Pro Football, Inc., 518 U.S. 231 (1996).

    The Chairman. Thank you, Mr. Bradbury.
    [Audience interruption.]
    The Chairman. Order.
    [Audience interruption.]
    The Chairman. This hearing will come to order.
    [Audience interruption.]
    The Chairman. The hearing will come to order.
    Ms. Walsh, please proceed.

        STATEMENT OF ELIZABETH ERIN WALSH, NOMINEE TO BE

          ASSISTANT SECRETARY OF COMMERCE AND DIRECTOR

            GENERAL OF THE UNITED STATES AND FOREIGN

        COMMERCIAL SERVICE, U.S. DEPARTMENT OF COMMERCE

    Ms. Walsh. Senator Cantwell and distinguished members of 
the Committee, I am grateful for the opportunity to appear 
before you today. I am very honored to be nominated by 
President Trump for the position of Assistant Secretary for 
Global Markets and Director General of the U.S. and Foreign 
Commercial Services.
    If you don't mind, I would like to take a moment to 
introduce you to the people that are here to support me and my 
guests: my sister Molly Walsh, who works at the Pentagon; my 
sister Anne Walsh; and my best friend from home, Mary Glass. We 
all grew up in Portland together. And my friend here, Rick 
Ardell.
    I bring to this nomination over 30 years of public and 
private sector experience. Through my work, I have had the 
opportunity to gain extensive knowledge of foreign and economic 
affairs in Asia, the Middle East, and Africa, and I have 
traveled to or worked in 100 countries at this time.
    After graduating from Georgetown University, I worked at 
the White House, the Department of Energy, and the Department 
of State at Blair House. In 1989, I moved to New York to serve 
as Chief of Protocol to the U.S. Mission to the United Nations. 
I left and joined UNICEF as head of emergency operations in 
Tuzla, Bosnia. Following that, I went to the London School of 
Economics and Political Science and then returned back to 
Sarajevo to serve in the Office of Political Affairs and 
Economic Affairs.
    Returning home from Bosnia, I went to work at Cisco, and 
there I built a strong partnership organization to bring the 
Cisco Networking Academy Program to 90 countries, including 41 
of the least developed countries in the world.
    After several years in the private sector, I went back in 
the State Department in 2005, a Senior Advisor in the Bureau of 
Near Eastern Affairs. There, I formulated and executed a 
strategic plan to advance U.S. policy interests, strengthen 
alliances, and establish programs focused on women across 16 
countries in the Middle East and North Africa.
    I also served on the U.S.-Saudi Strategic Dialogue in the 
Human Development Working Group.
    At Goldman Sachs, I was based in China and led the firm's 
philanthropic activities across Asia Pacific. I developed a 
long-term strategic platform in Asia, seeking to foster 
economic growth and opportunity through investment in the 
community, public engagement, and partnership building.
    Through this experience, I have seen firsthand the role 
that the private sector can play in facilitating and enhancing 
America's prominence abroad and in advancing U.S. values. 
Furthermore, I know the critical role the U.S. Government plays 
in leveling the playing field to ensure U.S. companies can 
compete around the world and to ensure that our foreign 
competitors abide by their commitments and play by the same 
rules. At the same time, I've also seen what happens when U.S. 
policy is not carried out or implemented in a way that 
facilitates businesses.
    I am passionate about the mission of the Department of 
Commerce, and I can think of nothing more meaningful and 
impactful than working with a team that is highly skilled and 
dedicated professionals in the U.S. and Foreign Commercial 
Services to create jobs through promoting U.S. exports and 
attracting foreign direct investment into the United States.
    Trade, exports, and FDI are a powerful engine for growth in 
the United States. With 95 percent of the world's population 
outside of the U.S. and more than 1 in 5 American jobs 
supported by trade, the Office of Global Markets has a critical 
role to play particularly with its focus on small- and medium-
sized enterprises, the engine for growth in America.
    In addition, I believe the direction that Secretary Ross is 
taking to ensure we have fair and reciprocal trade with our 
partners will promote America's continued growth and vitality. 
I am deeply grateful to the Secretary for his leadership and 
confidence in me.
    If confirmed, I look forward to having the opportunity to 
lead this organization and will bring to it my global 
experience and business background as well as my knowledge of 
how to leverage government resources and assure efficiency and 
effectiveness.
    Thank you for your time today and for your consideration of 
my nomination.
    [The prepared statement and biographical information of Ms. 
Walsh follow:]

  Prepared Statement of Elizabeth Erin Walsh, Nominee to be Assistant 
  Secretary of Commerce and Director General of the United States and 
        Foreign Commercial Service, U.S. Department of Commerce
    Thank you Chairman Thune, Ranking member Senator Nelson, members of 
the Commerce Committee. I am grateful for the opportunity to appear 
before you today. I am very honored to be here as the President Trump's 
nominee for Assistant Secretary for Global Markets and D.G. for the 
U.S. and Foreign Commercial Service.
    And I am so honored to have my family with me on this special day. 
If you don't mind, I would like to take a moment to introduce them. My 
mother, June and my father Michael a retired attorney--they both served 
in the Reagan and Bush Administrations. My sister Molly, currently 
serving at the Department of Defense and my beloved sister Anne. While 
my parents met in Washington, we grew up in Portland Oregon.
    I bring to this nomination over 30 years of public and private 
sector experience.
    During this time, I have built a strong track record in four key 
areas: Strategy and Program Development for market entry/expansion, 
political and/or policy advancement; Design-Build Scalable Models to 
promote products or programs regionally or globally; Complex 
Negotiations; and Public-Private Partnership Creation at local, 
national and international levels. I have extensive knowledge of 
foreign affairs in Asia, Middle East, and Africa and have traveled or 
worked in 100 countries.
    I earned my undergraduate work at Georgetown University and started 
as an intern for three years at the White House before landing a full-
time position in the Office of Political Affairs. I also worked at the 
Department of Energy, and from there had the opportunity to join the 
U.S. Department of State and serve as the Deputy Manager and then 
acting Manager of Blair House, the President's guest house. During my 
tenure there, we hosted over 60 heads of State and Governments. I was 
then asked by Ambassador Thomas Pickering to come to the U.S. Mission 
to the UN and serve as Chief of Protocol. It was an incredible five
    years in the world's largest diplomatic community. But starting in 
1992 I started to see cables come across my desk that seemed 
unimaginable. Particularly after witnessing the revolutionary Fall of 
the Berlin wall in 1989 and the euphoria that came with it. These 
cables referred to the conflict in Bosnia. As I continued to read the 
news and the cables I felt I had to go to see for myself. I resigned my 
position at USUN to join UNICEF as head of emergency operations in 
Tuzla during in 1994. I later left Bosnia to attend graduate school at 
the London School of Economics and then returned to Sarajevo to work 
with the UN as an Economic and Political Affairs Officer. In preparing 
for post war conflict operations, there was an enormous gap in the lack 
of focus on economic development and investment. Over 20 years later, 
we can see the outcome and results today. No economic development, high 
unemployment and the presence of ISIS in Europe.
    After returning from Bosnia, I came home and wrote a proposal 
focused on Education, Technology and job creation and got an offer from 
Cisco. The firm provided a platform allowing me to build a strong 
partnership organization to bring the Cisco Networking Academy Program 
to 90 countries, in Africa, Asia Pacific, central America and included 
41 of the Least Developed Countries in the world. In the late 1990s we 
began to strong Chinese investment in these areas. Times were changing 
and so was the playing field.
    After several years in the private sector, I returned to the State 
Department in 2005 to serve as Senior Advisor in the Bureau of Near 
Eastern Affairs. I was Recruited to formulate and execute a strategic 
plan to advance U.S. policy interests, strengthen alliances and 
establish and/or expand programs focused on women across 16 countries 
in the Middle East and North Africa. I also served on the U.S.-Saudi 
Arabia Strategic Dialogue, Human Development Working Group.
    I was then hired by Goldman Sachs to lead the firm's philanthropic 
activities in Asia Pacific. I developed a long-term strategic platform 
in Asia, seeking to foster economic growth and opportunity, through 
investment in the community, public engagement and partnership 
building. I incorporated global Goldman Sachs Foundation programs and 
Goldman Sachs Gives, and created a portfolio of multi-year, regional 
and country specific programs aligned with the firms focus and the 
economic/development goals of 11 countries where investments had been 
made. Major programs included: Goldman Sachs 10,000 Women Initiative 
(40 percent of women from Asia); China Breast Cancer Initiative.
    From I have seen first-hand the role that the private sector can 
play in facilitating and enhancing America's prominence abroad and in 
advancing U.S. values.
    I know the critical role the U.S. Government plays in leveling the 
playing field to ensure U.S. companies can compete abroad, and to 
ensure that our foreign competitors abide by their commitments and play 
by the same rules.
    I have also seen what happens when U.S. policy is not carried out 
or implement in a way that facilitates business.
    I am passionate about the mission of the Department of Commerce. 
And can think of nothing more meaningful or impactful then creating 
jobs through promoting U.S. exports or attracting foreign direct 
investment into the United States. In addition, I believe the direction 
that Secretary Ross is taking to ensure we have fair and reciprocal 
trade with our partners will ensure American's continued growth and 
vitality.
    I am deeply grateful to President Trump, and Secretary Ross for 
their leadership. I am honored to be nominated by the President and am 
grateful to the Secretary for his confidence and support.
    In the past couple of weeks, I have had the opportunity to meet 
with a number of the dedicated civil servants and foreign commercial 
officers who constitute the leadership of the International Trade 
Administration's Global Markets, and the U.S. Foreign Commercial 
Service, and I find in them a kindred spirit, one that is driven to 
help American companies succeed. Because they share my belief that 
there is nothing more meaningful or powerful than helping to create 
jobs that put people to work. Trade, exports and FDI are a powerful 
engine for economic growth. With 95 percent of the world' population 
outside of the U.S. and more than 1 in 5 American jobs supported by 
trade, the Office of Global Markets has a critical role to play.
    If confirmed I look forward to having the opportunity to lead this 
organization, and will bring to it my global experience and business 
background as well as my knowledge of how to leverage government 
resources to ensure its efficiency and effectiveness.
    Thank you for your time today and for your consideration of my 
nomination.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Elizabeth 
Erin Walsh.
    2. Position to which nominated: Assistant Secretary for Global 
Markets and Director General for the U.S. and Foreign Commercial 
Services.
    3. Date of Nomination: June 6. 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Department of Commerce, 1401 Constitution Avenue, NW, 
        Washington, D.C. 20230

    5. Date and Place of Birth: Portland, Oregon, USA; 12/18/1961.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Single
    7. List all college and graduate degrees. Provide year and school 
attended.

        Masters of Science, London School of Economics and Political 
        Science, 1995
        Bachelor of Arts, Georgetown University, 1983

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        U.S. Department of Commerce, Washington, D.C. (6/17 to present)
        Senior Advisor, Office of the Secretary

        The White House, Washington, D.C. (1/20-6/17)
        Special Assistant to the President and Associate Director for 
        Presidential Personnel, Foreign Affairs

        Presidential Transition, Washington, D.C.
        Co-lead of the State Department transition and landing team 
        (11/16-11/17)

        Donald J. Trump for President, Inc. Washington, D.C.
        Lead for the State Department (8/16-11/16)

        Goldman Sachs, Washington, Beijing, Hong Kong, China
        Executive Director, Head of the Office of Corporate Engagement, 
        Asia Pacific (5/10-4/15)
        Led the firm's philanthropic activities in Asia Pacific. 
        Developed a long-term strategic platform in Asia, seeking to 
        foster economic growth and opportunity, through investment in 
        the community, public engagement and partnership building.

        U.S. Department of State, Washington, D.C.
        Senior Advisor, Bureau of Near Eastern Affairs (5/05-5/08)
        Recruited to formulate and execute a strategic plan to advance 
        U.S. policy interests, strengthen alliances and establish and/
        or expand programs focused on women across 16 countries in the 
        Middle East and North Africa.

        Cisco Systems, Inc., Washington, D.C. and San Jose, CA
        Senior Manager, International Strategies and Partnerships, 
        Corporate Affairs (8/98-4/05)
        Built a multi-million dollar public-private partnership 
        organization at Cisco. Brought together strategic partners to 
        deliver the Cisco Networking Academy Program to 90 developing 
        and emerging market countries around the globe. Produced a 
        program that successfully fused multi-stakeholder interests, 
        integrated sound business practices and promoted pro-
        competitive policies and regulatory reform.

        United Nations Mission, Sarajevo, Bosnia-Herzegovina
        Economic and Political Affairs Officer (11/95-10/96)
        Economic advisor to Chief of UN Civil Affairs.

        UNICEF, Tuzla, Bosnia-Herzegovina
        Head of Office (4/94-9/94)
        Directed UNICEF's emergency operations in the Tuzla region.

        United States Mission to the United Nations, New York, NY
        Chief Protocol (4/89-4/94)
        Directed and managed an effective Protocol Affairs program 
        based on U.S. Foreign policy objectives. Organized a program 
        which fostered positive relations with the other 184 member 
        states of the UN.

        U.S. Department of State, Washington, D.C.
        Deputy to the Assistant Chief of Protocol for Ceremonials (6/
        88-4/89)

        Blair House. the President's Guest House, Washington, D.C.
        Assistant Manager and Acting Manager (9/85-6/88)

        U.S. Department of Energy, Washington, D.C.
        Legislative Affairs Specialist (2/85-8/85)

        Presidential Inaugural Committee, Washington, D.C.
        Assistant to the Director of Events and Inaugural balls (12/84-
        2/85)

        Reagan-Bush '84, Washington, D.C.
        Administrative Assistant to the Campaign Director (10/83-11184)

        The White House, Washington, D.C.
        Staff Assistant--Office of Political Affairs (4/83-10/83)

    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Managing Member of Chinoiserie Style, LLC (4/16-3/17)
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
  A. Council on Foreign Relations
  B. The Sulgrave Club, Washington (no restrictions)
    13. Have you ever been a candidate for and/or held a public office 
(elected, non elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

$500                            2008     John McCain
$1,000                          2012     Romney Victory, Inc.
$1,000                          2012     Romney/Ryan
$1,000                          2015     Right to Rise PAC
Full time Volunteer Trump for President--8/4/2016-12/1/2016
 

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed. None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have extensive professional experience running operations of 
large international firms, having worked for five years as Vice 
President and Head of the Office of Corporate Engagement for Asia 
Pacific for Goldman Sachs and seven years at Cisco as Senior Manager of 
International Strategies and Partnerships. I have also served more than 
twelve years in the U.S. Government at the White House, State 
Department and Department of Energy as well as at the United Nations. I 
have put major programs in more than one hundred countries across the 
globe, managed budgets of over $80m and, managed globally dispersed, 
culturally diverse teams. Working and living overseas has given me 
insight into the challenges that American companies face in exporting 
their products to global markets. I understand the requirement that the 
United States maintain a strong diplomatic presence in the markets in 
which American businesses operate.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Any government leader needs to be a good steward of the American 
taxpayer. I have been a senior manager in the private sector at large 
companies and have managed a dispersed global organization similar to 
the one that I will oversee at the Department of Commerce. My 
experience in financial management and accountability, and in 
implementing digital strategies to improve productivity of the 
corporate enterprise, should benefit the Department of Commerce's 
Global Markets division, which I will lead.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    1. Addressing the trade deficit: Growing exports and displacing 
imports with more U.S. production will lead to increased growth of GDP 
and job creation.
    2. Battling unfair trade as it impacts U.S. companies and 
particularly small business: American companies need the U.S. 
Government to battle surges of unfairly priced imports and competitors 
that are subsidized by foreign governments.
    3. Getting more companies to export to help grow the U.S. economy 
and American jobs: Companies that export pay their workers more than 
companies that don't. Most of the world's consumers live outside the 
United States. The United States will not prosper unless American 
companies and their workers are successfully competing in global 
markets.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    None with respect to business associates, clients or customers. 
However, information about my retirement accounts is included on the 
public financial disclosure repm1 I filed and to which I understand you 
have access.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    In connection with the nomination process, I have consulted with 
the Office of Government and Department of Commerce agency ethics 
officials to identify any potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of my ethics agreement. I understand that my ethics agreement has 
been provided to the Committee. I am not aware of any potential 
conflict of interest other than those that are the subject of my ethics 
agreement.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of my ethics agreement. I understand that my ethics 
agreement has been provided to the Committee. I am not aware of any 
potential conflict of interest other than those that are the subject of 
my ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        Resume of E. Erin Walsh
Highly motivated leader and innovator with 25 years of progressively 
responsible management experience in government, the private sector and 
international organizations. Exceptional track record in four key 
areas: Strategy and Program Development for market entry/expansion, 
political and/or policy advancement; Design-Build Scalable Models to 
promote products or programs regionally or globally; Complex 
Negotiations; Public-Private Partnership Creation at local, national 
and international levels. Extensive knowledge of foreign affairs in 
Asia, Middle East, and Africa. Traveled or worked in 100 countries.
Professional Experience
U.S. Department of Commerce, Washington, D.C. (6/17-present)
Senior Advisor, Office of the Secretary

The White House, Washington, D.C. (1/16-6/17)
Special Assistant to the President and Associate Director for 
Presidential Personnel, Foreign Affairs

Presidential Transition, Washington, D.C.
Co-lead of the State Department transition and landing team (11/9/16-1/
19/17)

Trump for America, Washington, D.C.
Full-time unpaid volunteer, lead for the State Department (8/16-11/8/
16)

Goldman Sachs, Washington, Beijing, Hong Kong, China
Executive Director, Head of the Office of Corporate Engagement, Asia 
Pacific
(5/10-4/15)
Lead the firm's philanthropic activities in Asia Pacific. Developed a 
long-term strategic platform in Asia, seeking to foster economic growth 
and opportunity, through investment in the community, public engagement 
and partnership building.

  <bullet> Incorporated global Goldman Sachs Foundation programs and 
        Goldman Sachs Gives, and created a portfolio of multi-year, 
        regional and country specific programs aligned with the firms 
        focus and the economic/development goals of 11 countries where 
        investments had been made. Major programs include: Goldman 
        Sachs 10,000 Women Initiative (40 percent of women from Asia); 
        China Breast Cancer Initiative in partnership with the All 
        China Women's Federation launched under the umbrella of the 
        U.S.-China People to People Exchange; Asia Breast Cancer 
        Initiative in Korea and Hong Kong; ``Women's Economic 
        Empowerment through Entrepreneurship'' program in partnership 
        with the UN Economic and Social Commission of Asia Pacific.

  <bullet> Establish and manage relationships with governments, non-
        profit organizations, international organizations and private 
        sector clients.

  <bullet> Advised the Vice Chairman and leadership on philanthropy in 
        Asia Pacific, trends, and opportunities for investment and 
        partnerships.

U.S. Department of State, Washington, D.C.
Senior Advisor, Bureau of Near Eastern Affairs (5/05-5/08)
Recruited to formulate and execute a strategic plan to advance U.S. 
policy interests, strengthen alliances and establish and/or expand 
programs focused on women across 16 countries in the Middle East and 
North Africa.

  <bullet> Created 16 major demand-driven programs in four thematic 
        areas: economy, law, democracy building and women's rights.

  <bullet> Advised senior department officials, ambassadors and members 
        of congress on regional progress, trends, risks and 
        opportunities as they developed in these areas.

  <bullet> Negotiated and managed a $50 million budget (Middle East 
        Partnership Initiative and NEA/Iraq) over three fiscal year 
        cycles to support the implementation of programs.

  <bullet> Designed, led and implemented the first women's programs 
        sponsored by the U.S. Government in the Gulf region.

  <bullet> Architect of several sustainable public-private partnership 
        programs that have had demonstrable positive impact on U.S. 
        foreign relations, societies at large and thousands of 
        individuals in the Middle East. These programs include: U.S.-
        Middle East Partnership for Breast Cancer Awareness and 
        Research, MENA Businesswomen's Network, Women in Technology, 
        and Women in Politics.

  <bullet> Served on the U.S.-Saudi Arabia Strategic Dialogue, Human 
        Development Working Group.

Cisco Systems, Inc., Washington, D.C. and San Jose, CA
Senior Manager, International Strategies and Partnerships, Corporate 
Affairs
(8/98-4/05)
Built a multi-million dollar public-private partnership organization at 
Cisco. Brought together, for the first time, strategic partners that 
included: foreign governments, NGOs, U.S. Agency for International 
Development, and UN Agencies to deliver the Cisco Networking Academy 
Program (CNAP, the world's largest e-learning program), to 90 
developing and emerging market countries around the globe. Produced a 
program that successfully fused multi-stakeholder interests, integrated 
sound business practices and promoted pro-competitive policies and 
regulatory reform. Founded and directed Cisco's Corporate Social 
Responsibility strategic initiatives including:

  <bullet> Cisco's Least Developed Countries Initiative, launched at 
        the G-8 Summit in 2000, which led the way in bridging the 
        digital divide by rolling out CNAP in 39 Least Developed 
        Countries. This resulted in training more than 25,000 students 
        (as of '05) in industry standard IT skills, reaching 33 percent 
        female enrollment and 78 percent employment for graduates in 
        countries where 80 percent of the population live on less than 
        $2 per day.

  <bullet> Cisco/CLI Gender Initiative. First major corporate 
        initiative designed to level the playing field for women in IT. 
        By mainstreaming gender in CNAP, investing in women and girls 
        and institutionalizing policies and processes to ensure access 
        and opportunities to women, the program had substantial impact 
        on instructors, students, institutions and governments in more 
        than 150 countries.

Eudy Nelson & Associates, Washington, D.C. (8/97-12/97)
Consulted on events for the National Republican Senatorial Committee

United Nations Mission, Sarajevo, Bosnia-Herzegovina
Economic and Political Affairs Officer (11/95-10/96)
Economic advisor to Chief of UN Civil Affairs. Responsible for analysis 
of economic situation in post-war Bosnia including: political and 
economic ramifications of delays in reconstruction, progress on 
financial institution building, bi-lateral economic aid, unemployment, 
downside risks and investment climate.

UNICEF, Tuzla, Bosnia-Herzegovina
Head of Office (4/94-9/94)
Directed UNICEF's emergency operations in the Tuzla region. Led 
training programs in the sectors of education, health, nutrition and 
psycho-social rehabilitation for children. Managed the joint UN 
supplementary feeding program, coordinating the efforts of three UN 
agencies and four NGOs. Supervised humanitarian missions across 
confrontation lines, bringing doctors, medical and education supplies 
to children in conflict zones. Worked with government ministries to 
develop post-war education and health policies and systems. Served as 
regional spokesperson for UNICEF.

United States Mission to the United Nations, New York, NY
Chief of Protocol (4/89-4/94)
Directed and managed an effective Protocol Affairs program based on 
U.S. Foreign policy objectives. Organized a program which fostered 
positive relations with the other 184 member states of the UN. Planned 
and executed over 100 events annually. Managed budget and staff of 
four.

U.S. Department of State, Washington, D.C.
Deputy to the Assistant Chief of Protocol for Ceremonials (6/88-4/89)
Planned and organized all official social functions for the Secretary 
of State for Chiefs of State and other foreign guests. Acted as liaison 
between the diplomatic corps and the Department of State. Served as an 
authority on ceremonial protocol matters in the U.S. Government.

Blair House, the President's Guest House, Washington, D.C.
Assistant Manager and Acting Manager (9/85-6/88)
Responsible for Chiefs of State, their families and delegations from 
over 60 countries during official visits to Washington. Coordinated 
accommodations for all official visitors of the President and worked 
with the Chief of Protocol and visits staff to organize their schedules 
and activities. Assisted the general manager with oversight of the $13 
million renovation project, and all operations of the house, including 
the supervision of staff and budget.

U.S. Department of Energy, Washington, D.C.
Legislative Affairs Specialist (2/85-8/85)

Presidential Inaugural Committee, Washington, D.C.
Assistant to the Director of Events and Inaugural balls (12/84-2/85)

Reagan-Bush '84, Washington, D.C.
Administrative Assistant to the Campaign Director (10/83-11/84)

The White House, Washington, D.C.
Staff Assistant--Office of Political Affairs (4/83-10/83)
Research Assistant--Library and Research Center (4/82-4/83)
Intern--Office of Correspondence (10/81-4/82)
Education
The London School of Economics and Political Science, London, England
Masters of Science, Economics, Social Policy in Developing Countries. 
September, 1995

Georgetown University, Washington, D.C.
Bachelor of Arts, (Majors: International Relations and American 
Government). May, 1983
Other Activities
Member of the Council on Foreign Relations
Board Member, USA, King Hussein Cancer Center
Advisor, Antiquities Coalition

    The Chairman. Thank you, Ms. Walsh.
    Senator Nelson has arrived. And I'll turn to him for an 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And, Mr. Chairman, I've been in markup of 
the Senate Armed Services Committee, and we have successfully 
marked up the bill. I might say to Ms. Walsh, indeed I know 
Wilbur Ross is from Florida, and he is quite interested in 
trade. So if you will work with him--and hopefully this 
Committee will consider a Deputy Secretary for International 
Trade as well--I think we can have a good approach there.
    Mr. Chairman, thank you for calling this hearing. The 
Department of Transportation's most important job is the 
regulation and oversight of safety, and that job never stops. 
Just last night, an Amtrak train fatally struck two CSX 
employees who were working on a nearby track. This is tragic. 
These kinds of accidents happen far too often, and we need to 
do more to prevent them.
    I just rode Amtrak, the Acela, and when I got off in the 
Washington station, I looked up on the platform at those steel 
beams that cover the tracks, They are all up and down the 
tracks for the passengers to walk without getting into the 
elements. Lo and behold, all of the steel beams are rusting. 
We've got an infrastructure problem, and we've got to address 
it.
    The Department also has a critical safety role in an issue 
that is important to so many of our constituents, especially in 
Florida, and that is the continuing Takata airbag mess. Back in 
2014, this Senator chaired the first congressional hearing on 
the defective airbag failures, and at that time, we heard from 
a victim, Air Force Lieutenant Stephanie Erdman, who was 
seriously injured and almost lost an eye when a Takata airbag 
exploded after a minor accident in the Florida Panhandle, a 
minor accident. And we also heard from a senior Takata 
executive who stonewalled and failed to acknowledge the 
severity of the problem.
    And in a series of reports, we uncovered evidence that the 
company routinely manipulated data about the safety of its 
airbags. Takata's actions were shameful and showed a lack of 
regard for human safety. And as a result, the Department of 
Justice charged Takata with criminal violations for wire fraud 
and conspiracy concerning the defective airbag inflators.
    And because of all this, you would think that we would 
finally be making some serious progress on Takata recalls, but 
that's not the case. Earlier this month, this Senator released 
new statistics showing that two-thirds of over 46 million 
recalled Takata airbag inflators nationwide have not been 
repaired, 2 years later. And even more troubling is that 16 
people have died and more than 180 people worldwide have been 
injured because of the airbags.
    So this is a crisis, and we need leadership to get these 
recalls back on track. This is especially true in light of 
Takata's announcement that it will enter into bankruptcy, an 
announcement just made in the last few days, making it almost 
certain that the company will not be able to pay for all the 
replacement airbags needed to fix this mess or adequately 
compensate all the victims who have been injured or families 
who have lost their loved ones.
    So this leads me to your nomination, Mr. Bradbury. You 
obviously know a lot about this issue because you represented 
Takata in regulatory and congressional investigations for more 
than 2 years. There's no problem that you are an advocate as an 
attorney at law representing a client. I understand that.
    But we've got a problem of automobile safety. You have been 
generously compensated for being an advocate as an attorney at 
law. And I believe, as the Department's General Counsel, you 
must be free of any conflicts that could be perceived as 
affecting your ability to do the job of protecting the public.
    As a result, I wrote you last week and I urged you, if 
confirmed, to recuse yourself from all matters involving Takata 
for your entire term as the Department's General Counsel.
    So, Mr. Chairman, I would like to ask that my letter to Mr. 
Bradbury and his response be entered in the record.
    The Chairman. Without objection, so ordered.
    [The information referred to follows:]

                                       United States Senate
                                      Washington, DC, June 22, 2017

Steven G. Bradbury, Esquire
McLean, VA

Dear Mr. Bradbury:

    The U.S. Senate Committee on Commerce, Science, and Transportation 
is in receipt of your nomination to the position of General Counsel of 
the U.S. Department of Transportation.
    This position plays a critical role in ensuring the safety of our 
Nation's transportation systems. As such, I believe that the person 
occupying this position must be free of any arrangements or 
entanglements that could be seen as impeding that duty to serve the 
American people.
    In your response to the Committee questionnaire, you state that you 
``[r]epresented TK Holdings Inc. (Takata Corporation) in connection 
with investigations of airbag inflator ruptures by [the National 
Highway Traffic Safety Administration] NHTSA, Congress, and other 
entities, and in related civil litigation.'' As you know, defective 
Takata inflators have been linked to 11 deaths and approximately 180 
injuries nationwide. Recently, Honda confirmed that another Takata 
airbag inflator ruptured in Las Vegas, Nevada, causing serious injury 
to the driver.
    Both civil and criminal litigation surrounding the Takata recalls 
is ongoing, and on February 27, 2017, Takata pled guilty to one count 
of wire fraud related to fabrication of its inflators' safety record 
and agreed to pay $1 billion in criminal penalties. Three Takata 
executives currently face criminal charges for their alleged 
involvement in the Takata scheme. On May 18, 2017, four automakers 
involved in multi-district civil litigation reached a settlement 
agreement to pay $553 million to compensate vehicle owners affected by 
the recalls.
    Furthermore, under Takata's Amended Consent Order and Coordinated 
Remedy Orders with NHTSA, the agency will play an active role in 
overseeing the recall process, including the production of replacement 
airbag inflators, well into the next decade. In light of the low recall 
completion rates, it is reasonable to expect that oversight of the 
recalls by NHTSA and the Department will only increase in the future. 
Additionally, by the end of 2019, Takata must demonstrate to NHTSA the 
safety of its desiccated ammonium nitrate-based inflators. NHTSA's 
determination on this matter could result in expanding the recalls to 
include millions of additional Takata inflators.
    In your agreement with the Department's Designated Agency Ethics 
Official, you state, ``I will not participate personally and 
substantially in any particular matter involving specific parties in 
which I know a former client of mine is a party or represents a party 
for a period of one year after I last provided service to that client, 
unless I am first authorized to participate, pursuant to 5 C.F.R. 
Sec. 2635.502(d).'' In addition, you state, ``[F]or the duration of my 
appointment as General Counsel, I will not participate personally and 
substantially in any particular manner in which I know I previously 
appeared before, or directly communicated with, the U.S. Department of 
Transportation on behalf of Dechert LLP or any former client, unless I 
am first authorized to participate, pursuant to 5 C.F.R. 
Sec. 2635.502(d).''
    Unfortunately, this language does not fully address how you intend 
to handle recusals from matters involving Takata Corporation or TK 
Holdings Inc. Accordingly, prior to taking further action on your 
nomination, I ask you to confirm in writing that you will:

  (1)  Not participate in any NHTSA or Department matter involving 
        Takata Corporation or TK Holdings, Inc, including all 
        subsidiaries and successor entities, during your entire term as 
        General Counsel; and

  (2)  Not seek or accept an authorization under 5 C.F.R. 
        Sec. 2635.502(d) to participate in any matter involving Takata 
        Corporation or TK Holdings Inc., including all subsidiaries and 
        successor entities, during your entire term as General Counsel.
    Thank you in advance for your prompt response to this request.
            Sincerely,
                                               Bill Nelson,
                                                    Ranking Member.
cc: The Honorable John Thune, Chairman
                                 ______
                                 
                                                      June 23, 2017
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senator Nelson:

    Thank you for your letter of yesterday concerning my nomination to 
be General Counsel of the U.S. Department of Transportation (the 
``Department''). After reviewing my responses to the Committee's 
Questionnaire and my Ethics Agreement with the Department's Designated 
Agency Ethics Official, or ``DAEO,'' you have asked me to make specific 
commitments regarding recusals from matters involving Takata 
Corporation, including its subsidiaries and successor entities 
(together, ``Takata''), in the event I am confirmed as the Department's 
General Counsel.
    I very much appreciate your interest in these questions, and I know 
from direct experience how much you personally care about addressing 
and resolving the safety issues relating to airbag inflator ruptures. 
As you know, I represented the U.S. subsidiary of Takata in connection 
with the airbag inflator rupture issues before the Department and 
elsewhere. Among other things, I participated directly in the 
discussions with the National Highway Traffic Safety Administration, or 
``NHTSA,'' that produced the consent orders governing the recalls of 
Takata airbag inflators and establishing the framework for expansion of 
those recalls going forward.
    With regard to Takata, as in all matters, you can be assured I take 
my ethical responsibilities extremely seriously, both as an attorney 
representing clients in private practice and as a prospective officer 
of the Government whose only client will be the United States. I will 
honor my professional duties as a lawyer and will adhere scrupulously 
to the requirements of the Federal ethics laws and regulations, as well 
as the additional obligations I will assume under Executive Order 13770 
(``Ethics Commitments by Executive Branch Appointees''), if confirmed.
    Specifically: For the duration of my tenure with the Department, I 
will recuse myself from all aspects of the Takata airbag inflator 
recalls. Furthermore, under Executive Order 13770, for a period of two 
years following my confirmation as General Counsel of the Department, I 
will not participate in any other particular matter involving specific 
parties that is directly and substantially related to Takata, including 
regulations and contracts. I do not plan to seek a waiver under 
applicable ethics regulations to participate in particular matters 
involving Takata.
            Respectfully submitted,
                                        Steven G. Bradbury.
cc: The Honorable John Thune, Chairman

    Senator Nelson. Mr. Bradbury, I want to thank you for your 
prompt response and your written commitment to recuse yourself 
from Takata recall-related matters. I intend to seek 
clarification from you during my questioning on whether you 
would seek or accept any waivers that would allow you to 
participate in any Takata-related matters. I will be asking you 
those questions, and I expect a direct answer.
    In the meantime, Ms. Walsh and Mr. Bradbury, I look forward 
to continuing this hearing today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Mr. Bradbury and Ms. Walsh, I know you both appreciate the 
importance of cooperation between the branches of our 
government. Nevertheless, these hearings give us an opportunity 
to underscore that point. So a question for both of you is, if 
confirmed, will you pledge to work collaboratively with this 
committee and provide thorough and timely responses to our 
requests for information as we work together to address various 
policies?
    Ms. Walsh. Yes, Chairman, I will.
    Mr. Bradbury. Yes, absolutely, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bradbury, as you know, a major part of the General 
Counsel's job is to help oversee the regulatory process at DOT. 
Though I know Deputy Secretary Rosen, who is the Department's 
Regulatory Reform Task Force Officer, will also play a large 
role in that, could you speak to the principles that you will 
use to evaluate regulations that come to your office?
    Mr. Bradbury. Yes. Thank you, Mr. Chairman. As----
    [Audience interruption.]
    The Chairman. Order in the hearing room!
    Mr. Bradbury, again if you could speak to the principles 
that you will use to evaluate regulations that come to your 
office.
    Mr. Bradbury. Yes. Thank you. Mr. Chairman, as Senator 
Nelson stressed, the number one mission of the Department of 
Transportation is public safety. So the necessity of regulation 
to address safety issues is certainly the primary 
consideration, as I think the Secretary of Transportation has 
made clear in her testimony.
    But I do look forward to working with the Regulatory Task 
Force, the Regulatory Reform Task Force, to review the 
regulations of the Department and to determine those that are 
necessary to address safety issues, and then to ensure that the 
regulations are focused in a way that will preserve incentives 
to invest in innovation because this is a transformational time 
in transportation and technology, and we need to preserve those 
investments to invest in new innovation. So I think that's a 
critical part of the equation.
    Thank you.
    The Chairman. Is there a way that maybe you could 
illustrate a couple of examples of DOT regulations that in your 
view do a good job of reflecting or incorporating those 
principles that you just alluded to?
    Mr. Bradbury. Yes. Thank you, Mr. Chairman. In a couple of 
different areas. One is in automotive safety regulation. The 
regulations I think that NHTSA has promulgated are very clear 
in terms of the disclosure obligations and the procedures that 
manufacturers have to follow, and I think that kind of clear 
procedural guidance is critical. Those types of regulations are 
I think extremely helpful in terms of achieving the safety 
mandate and leaving the markets free to innovate.
    Similarly, on the aviations side, where the Department has 
very important authority to enforce prohibitions on unfair or 
deceptive trade practices, if the Department has a record, a 
factual record, it develops of practices that are unfair to 
consumers, for example, in the aviation industry, then a clear 
rule based on that record that prohibits that specific 
activity, we have several examples of that, I think, are 
examples of the right kind of regulation.
    The Chairman. Thank you, Mr. Bradbury.
    Ms. Walsh, if confirmed, your authority as Assistant 
Secretary for Global Markets will include the SelectUSA 
program, which is an initiative of the Department of Commerce 
to attract more direct foreign investment in the United States. 
What are your thoughts about how the SelectUSA program could be 
used to further your goals for the Global Markets Division at 
the Department of Commerce should you be confirmed?
    Ms. Walsh. Thank you, Mr. Chairman. The SelectUSA has just 
completed a fourth conference that they have done. It was 
highly successful. There were 3,000 participants from around 
the world, and it was really one of the highest rated and only 
event of its sort here in the United States.
    SelectUSA's purpose is to attract foreign direct investment 
from around the world, something that we welcome, particularly 
the United States at this time. So certainly export promotion 
and FDI attraction into the United States will be critical, if 
confirmed, in this position.
    The Chairman. Thank you.
    Mr. Bradbury, tomorrow we are going to be marking up the 
FAA Reauthorization Act of 2017. What do you view as the proper 
role for the Office of General Counsel with respect to the 
protection of aviation, consumers, and DOT enforcement of laws 
enacted for their benefit?
    Mr. Bradbury. Well, I think as you well know, Mr. Chairman, 
the Office of General Counsel has a critical role in terms of 
enforcing the aviation standards against unfair deceptive 
practices in aviation. And then through its supervisory role 
with respect to the Chief Counsel at the FAA, the Federal 
Aviation Administration, a critical role in assisting the FAA 
in terms of legal support in ensuring that its regulation and 
enforcement of safety requirements for the air system are 
enforced and are clear and are effective. So it's certainly an 
important part, and I would, if confirmed, very much look 
forward to working closely with you and the members of this 
Committee in terms of your policy goals with respect to FAA 
Reauthorization and the issues that arise with respect to 
aviation. Thank you.
    The Chairman. Thank you.
    There are a series of letters I want to enter into the 
record. There are four letters signed by a total of over 60 
prominent individuals, including the signatures of former DOT 
Secretary Norm Mineta, former DOT Secretary Rod Slater, as well 
as former Attorney General Michael Mukasey, and former Attorney 
General Ed Meese, and several state attorneys general, 
including the Attorney General of South Dakota, have also 
signed a letter of support for Mr. Bradbury's nomination. And 
he has also received some letters expressing concerns about Mr. 
Bradbury's nomination, and these too will be entered into the 
record for members of this Committee to review. So those will 
be entered into the record without objection.
    [The information referred to follows:]

                                                      June 22, 2017
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Nomination of Steven Gill Bradbury to be General Counsel of the 
            Department of Transportation

Dear Chairman Thune and Ranking Member Nelson:

    We write in strong support of the nomination of Steven Bradbury to 
be General Counsel of the Department of Transportation. Each of us 
served with Steve in the Federal Government, and we believe him to be 
an excellent choice to serve as General Counsel.
    Steve's education, prior public service and work in private 
practice make him exceptionally well-qualified for this important role. 
For the past eight years, Steve has served as a partner at a prominent 
law firm in Washington, D.C. and New York (and from 1994-2004 served as 
a partner at a different but equally prominent firm). He holds degrees 
from Stanford University and the University of Michigan Law School, and 
clerked for Associate Justice Clarence Thomas of the Supreme Court and 
Judge James L. Buckley of the U.S. Court of Appeals for the D.C. 
Circuit. From 2004 to 2009, he served as Acting Assistant Attorney 
General and Principal Deputy Assistant Attorney General at the Office 
of Legal Counsel, where he advised the President, the Attorney General 
and the heads of executive departments and agencies on significant 
questions of constitutional, statutory, and administrative law.
    Because of Steve's extensive experience in both government and 
private practice, we believe he is very well-qualified to serve as 
General Counsel of the Department of Transportation. While at the 
Justice Department, Steve approached his work with extraordinary care, 
and we believe he will demonstrate the same exceptional commitment at 
the Department of Transportation. We also understand that Steve has 
valuable experience handling significant matters before the Department 
(including one of the largest automotive safety recalls in history), 
and has also handled issues involving aviation competition and 
international route authorizations. Most important, Steve has the 
integrity, temperament, judgment, and legal acumen to succeed in the 
role of General Counsel.
    In short, we believe that Steve will serve in this position with 
distinction and honor. We respectfully urge the Committee and the 
Senate to approve his nomination to be General Counsel of the 
Department of Transportation.
            Sincerely,

Alex M. Azar II
Deputy Secretary, Health and Human Services (2005-2007)
General Counsel, Health and Human Services (2001-2005)

Thomas O. Barnett
Assistant Attorney General, Antitrust Division (2006-2008)

C. Frederick Beckner III
Deputy Assistant Attorney General, Civil Division (2006-2009)

John B. Bellinger III
Legal Adviser to the Department of State (2005-2009)
Legal Adviser to the National Security Council (2001-2005)

Bradford A. Berenson
Associate Counsel to the President (2001-2003)

Megan L. Brown
Counsel to the U.S. Attorney General (2007-2008)

Reginald Brown
Associate Counsel to the President (2003-2005)

Jeffrey S. Bucholtz
Acting Assistant Attorney General, Civil Division (2007-2008)
Principal Deputy Assistant Attorney General, Civil Division (2006-2008)

Lily Fu Claffee
General Counsel, U.S. Department of Commerce (2008-2009)
Deputy General Counsel, U.S. Department of the Treasury (2006-2008)
Deputy Associate Attorney General, U.S. Department of Justice (2005-
2006)

Gus P. Coldebella
Acting General Counsel, Department of Homeland Security (2007-2009)
Deputy General Counsel, Department of Homeland Security (2005-2009)

Jonathan Cohn
Deputy Assistant Attorney General, Civil Division (2004-2009)

Daniel J. Dell'Orto
Acting General Counsel, Department of Defense (2008-2009)
Principal Deputy General Counsel, Department of Defense (2000-2009)

Grant M. Dixton
Associate Counsel to the President (2003-2006)

Thomas H. Dupree Jr.
Deputy Assistant Attorney General, Civil Division (2007-2009)

John P. Elwood
Deputy Assistant Attorney General, Office of Legal Counsel (2005-2009)

Alice Fisher
Assistant Attorney General, Criminal Division (2005-2008)

Brett Gerry
Chief of Staff to the Attorney General (2007-2008)
Deputy Assistant Attorney General, National Security Division (2006-
2007)

Matthew W. Friedrich
Acting Assistant Attorney General, Criminal Division (2008-2009)

William J. Haynes
General Counsel of the Department of Defense (2001-2008)

Richard Klingler
Senior Associate Counsel to the President and Legal Adviser, NSC Staff 
(2006-2007)
Special Assistant and Associate Counsel to the President (2005-2006)

C. Kevin Marshall
Deputy Assistant Attorney General, Office of Legal Counsel (2005-2007)
Counsel to the Assistant Attorney General, Office of Legal Counsel 
(2004)

William E. Moschella
Principal Associate Deputy Attorney General (2006-2008)
Assistant Attorney General, Office of Legislative Affairs (2003-2006)

Carl J. Nichols
Deputy Assistant Attorney General, Civil Division (2005-2008)
Principal Deputy Associate Attorney General (2008-2009)

Jake Phillips
Senior Counsel to the Deputy Attorney General (2008-2009)
Counsel to the Assistant Attorney General, Office of Legal Counsel 
(2007-2008)

Benjamin A. Powell
General Counsel, Office of the Director of National Intelligence (2006-
2009)

J. Patrick Rowan
Assistant Attorney General, National Security Division (2008-2009)

Kate Comerford Todd
Associate Counsel to the President (2007-2009)

Ted Ullyot
White House and Department of Justice (2003-2005)
                                 ______
                                 
                                                      June 22, 2017
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Nomination of Steven Gill Bradbury to be General Counsel of the 
            Department of Transportation

Dear Chairman Thune and Ranking Member Nelson:

    We write to express our strong support for the nomination of Steven 
Bradbury to be General Counsel of the Department of Transportation. 
Each of us has previously served in one or more senior positions at the 
Department of Justice, the White House, or agencies within the 
Intelligence Community. We believe Mr. Bradbury is an excellent choice 
to serve as General Counsel.
    Mr. Bradbury's professional experience, both in public service and 
in the private sector, render him exceptionally well-prepared for this 
position. A graduate of Stanford and the University of Michigan Law 
School, he clerked for Justice Clarence Thomas of the United States 
Supreme Court and Judge James Buckley of the United States Court of 
Appeals for the District of Columbia Circuit. He served during two 
Administrations in the Office of Legal Counsel at the Department of 
Justice, first as an Attorney-Adviser and later as the Principal Deputy 
Assistant Attorney General and Acting Assistant Attorney General. In 
those capacities, he was called upon to advise government officials at 
the highest levels, including many of us, on challenging and important 
issues of law. In private practice he has likewise been relied upon to 
handle matters of great significance and complexity, many of which have 
involved issues affecting the transportation industry.
    The breadth and depth of Mr. Bradbury's background and experience, 
his demonstrated capacity for careful and thoughtful legal analysis, 
his consistent professionalism, and his strong integrity would enable 
him to provide exemplary service to the Department of Transportation--
and the country--as General Counsel. We strongly urge the Committee to 
report favorably upon his nomination.
            Sincerely,

William P. Barr
Attorney General (1991-1993)

William A. Burck
Deputy Counsel to the President (2007-2009)

Paul D. Clement
Solicitor General (2005-2008)

Fred. F. Fielding
Counsel to the President (2007-2009; 1981-1986)
Commissioner, 9-11 Commission (2002-2004)

Mark Filip
Deputy Attorney General (2008-2009)

Gregory G. Garre
Solicitor General (2008-2009)
Principal Deputy Solicitor General (2005-2008)

Alberto R. Gonzales
Attorney General (2005-2007)
Counsel to the President (2001-2005)

Stephen J. Hadley
National Security Advisor (2005-2009)
Deputy National Security Advisor (2001-2005)

General Michael V. Hayden, USAF (retired)
Director, Central Intelligence Agency (2006-2009)
Director, National Security Agency (1999-2005)

Peter D. Keisler
Acting Attorney General (2007)
Assistant Attorney General, Civil Division (2003-2007)

Edwin Meese III
Attorney General (1985-1988)

Michael B. Mukasey
Attorney General (2007-2009)
United States District Judge (1988-2006)

Theodore B. Olson
Solicitor General (2001-2004)

George J. Terwilliger III
Deputy Attorney General (1991-1993)

Kenneth L. Wainstein
Homeland Security Advisor (2008-09)
Assistant Attorney General for National Security (2006-08)
      
                                 ______
                                 
                                                      June 27, 2017
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write to endorse the nomination of Steven Gill Bradbury to serve 
as General Counsel of the Department of Transportation.
    We have nothing but the highest respect for his legal skills, his 
judgment, his work ethic, and his professionalism. As a public servant, 
he undoubtedly will bring those same qualities to this important job in 
service to the country.
    We thus urge you to report his nomination favorably to the full 
Senate. Thank you in advance for considering our views.
            Sincerely,

Jeremy Bash
Chief of Staff, U.S. Department of Defense (2011-2013)
Chief of Staff, Central Intelligence Agency (2009-2011)
Democratic Counsel, House Permanent Select Committee on Intelligence 
(2005-2009)

John P. Carlin
Assistant Attorney General for the National Security Division, U.S. 
Department of Justice (2014-2016)
Chief of Staff, Federal Bureau of Investigation (2009-2011)

Daryl Joseffer
Principal Deputy Solicitor General (2008-2009)
Assistant to the Solicitor General (2004-2008)
Deputy General Counsel, Office of Management and Budget (2003-2004)

The Honorable Norman Y. Mineta
Secretary, U.S. Department of Transportation (2001-2006)

Matthew G. Olsen
Former Director, National Counterterrorism Center (2011-2014)
Former General Counsel, National Security Agency (2010-2011)

Virginia A. Seitz
Former Assistant Attorney General, Office of Legal Counsel (2011-2013)

The Honorable Rodney E. Slater
Secretary, U.S. Department of Transportation (1997-2001)

Jeffrey L. Turner
Managing Partner, Public Policy Practice Group, Squire Patton Boggs 
(U.S.) LLP
                                 ______
                                 
                                                      June 27, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Nomination of Steven Gill Bradbury to be General Counsel of the 
            Department of Transportation

Dear Chairman Thune and Ranking Member Nelson:

    We the undersigned Attorneys General for various States are writing 
in strong support of the President's nomination of Steven Gill Bradbury 
to serve as General Counsel of the U.S. Department of Transportation.
    As Attorneys General responsible for protecting the rights and 
legal interests of the people of our States, we have a keen interest in 
the Federal Government's exercise of its broad authorities with respect 
to the Nation's interstate transportation systems. The public safety of 
our highways, rail lines, and other modes of transportation is critical 
to each of our states, and we look to the Department of Transportation 
for smart and effective enforcement action in cooperation with State 
and local authorities. It is also important that the Federal Government 
act wisely and efficiently in spending tax dollars in support of needed 
infrastructure projects. In addition, we expect that the Department of 
Transportation will pursue reasonable regulatory policies that are 
consistent with the law and that promote safety while preserving 
appropriate incentives for technological innovation, private 
investment, and variation in approach among the States.
    In all of these areas, it is vital that the Department of 
Transportation receive sound legal counsel on the proper exercise of 
its statutory authorities. We believe that Mr. Bradbury has exactly the 
right background and set of experiences to provide that legal guidance. 
As the head of the Office of Legal Counsel at the U.S. Department of 
Justice from 2005 to 2009, Mr. Bradbury advised the entire Executive 
Branch on compliance with the laws and the Constitution. And as an 
attorney in private practice, he has gained experience with a range of 
regulatory and enforcement issues before the Department of 
Transportation. We applaud the President for nominating Mr. Bradbury, 
and we look forward to working with him and with Secretary Chao on 
important transportation issues of common interest.
    Accordingly, we respectfully urge the Committee to move Mr. 
Bradbury's nomination forward.
            Respectfully submitted,

Alan Wilson

Attorney General

State of South Carolina


Pam Bondi

Attorney General

State of Florida


Derek Schmidt

Attorney General

State of Kansas


Tim Fox

Attorney General

State of Montana


Sean Reyes

Attorney General

State of Utah


Bill Schuette

Attorney General

State of Michigan


Patrick Morrisey

Attorney General

State of West Virginia


Chris Carr

Attorney General

State of Georgia


Jeff Landry

Attorney General

State of Louisiana


Doug Peterson

Attorney General

State of Nebraska


Brad Schimel

Attorney General

State of Wisconsin


Ken Paxton

Attorney General

State of Texas


Leslie Rutledge

Attorney General

State of Arkansas


Curtis Hill

Attorney General

State of Indiana


Josh Hawley

Attorney General

State of Missouri


Adam Paul Laxalt

Attorney General

State of Nevada


Steve Marshall

Attorney General

State of Alabama


Marty Jackley

Attorney General

State of South Dakota

      
Wayne Stenehjem
Attorney General
State of North Dakota
                                 ______
                                 
                                       United States Senate
                                      Washington, DC, June 28, 2017

Hon. Mitch McConnell,
Majority Leader,
United States Senate,
Washington, DC.

Dear Mitch:

    I am writing to inform you of my strong objection to any 
consideration of the nomination of Steven G. Bradbury to serve as the 
general counsel of the Department of Transportation.
    It has come to my attention that while serving as the acting head 
of the Department of Justice's Office of Legal Counsel from 2005 to 
2009, Mr. Bradbury authored several legal memoranda that authorized the 
use of waterboarding and other forms of torture and degrading 
treatment.
    I find his nomination to any position of trust in our government to 
be personally offensive.
    Please know that I will use whatever means I have at my disposal to 
block consideration of this nominee.
            Sincerely,
                                               John McCain,
                                             United States Senator.
                                 ______
                                 
                                                      July 31, 2017
Dear Senator,

    We are a nonpartisan group of former national security, law 
enforcement, intelligence, and interrogation professionals. Our 
collective professional experience includes service in the U.S. 
military, the Federal Bureau of Investigation, the Central Intelligence 
Agency, the Drug Enforcement Administration, the Defense Intelligence 
Agency, the Army Criminal Investigation Command, and the Naval Criminal 
Investigative Service.
    We write today to express our opposition to the nomination of Mr. 
Steven Bradbury to serve once again in a position of significant 
responsibility within the U.S. Government as general counsel of the 
Department of Transportation. Our opposition stems from the necessary 
judgment and personal courage this office requires to provide candid 
and objective legal advice to policymakers that may be seeking 
politically expedient policy solutions.
    We dedicated our professional lives to keeping our Nation safe. 
That work demanded using every resource at our disposal, including and 
especially our moral authority. Our enemies act without conscience. We 
must not.
    Mr. Bradbury spent many years serving in the Department of 
Justice--including as acting head of the Office of Legal Counsel--
during the George W. Bush Administration. In this position, he prepared 
official memoranda that provided legal cover for other agencies in the 
U.S. Government to employ a program of interrogation tactics that 
amounted to torture or cruel, inhuman, or degrading treatment. These 
brutal methods--which included waterboarding--fundamentally violated 
domestic and international law governing detainee treatment and caused 
untold strategic and operational harm to our national security. As 
former interrogators, intelligence, and law enforcement professionals 
with extensive firsthand experience in the field of interrogation, we 
were shocked by Mr. Bradbury's attempt to defend the use of the 
waterboard and other torture tactics based on the incorrect assertions 
that their use would not cause severe physical pain or suffering and 
would produce valuable intelligence. In our professional judgment, 
torture and other forms of detainee abuse are not only immoral and 
unlawful, they are ineffective and counterproductive in gathering 
reliable intelligence. They also tarnish America's global standing, 
undermine critical alliances, and bolster our enemies' propaganda 
efforts. If the Senate confirms Mr. Bradbury, it would send a clear 
message to the American public that authorizing the use of torture is 
not only acceptable but is not a barrier to advancement into the upper 
ranks of our government. We understand that Mr. Bradbury did not act 
alone in authorizing torture, but as his nomination is before you, we 
ask you to take this opportunity to reaffirm our commitment to the 
ideals we strive to uphold by rejecting his nomination.
    Torture is not a partisan issue. Our respect for human dignity is 
timeless, and we must never risk our national honor to prevail in any 
war. Your vote to reject this nomination would reflect the morally 
sound leadership that this country needs and would not forget.
            Signed,

Frank Anderson--CIA (Ret.)                               Marcus Lewis--Former U.S. Army Interrogator
Glenn Carle--CIA (Ret.)                                  Mike Marks--NCIS (Ret.)
Barry Eisley--Former CIA                                 Robert McFadden--NCIS (Ret.)
Mark Fallon--NCIS (Ret.)                                 Joe Navarro--FBI (Ret.)
Charlton Howard--NCIS (Ret.)                             William Quinn--Former U.S. Army Interrogator
Timothy James--NCIS (Ret.)                               Ken Robinson--U.S. Army (Ret.)
Colonel Steven Kleinman--U.S. Air Force (Ret.)           Patrick Skinner--CIA (Ret.)
 

                                 ______
                                 
                                       United States Senate
                                     Washington, DC, August 1, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I write to share my deep concerns about Steven G. Bradbury, who has 
been nominated by President Trump to serve as General Counsel of the 
Department of Transportation and whose vote before the Senate Commerce 
Committee is scheduled for August 2, 2017. Mr. Bradbury 's role as an 
architect of the torture program, along with his proven unwillingness 
to exercise independence and objectivity at moments when those 
qualities were most warranted, in my view disqualify him from any 
position of public trust.
    Mr. Bradbury was acting Assistant Attorney General from 2005 to 
2007 and headed the Office of Legal Counsel at the U.S. Department of 
Justice from 2005 to 2009. During that time, along with John Yoo and 
Jay Bybee, he served as a principal author of what have come to be 
known as the ``torture memos.'' While the torture program had already 
been developed by the administration prior to Mr. Bradbury's 
appointment, he contributed to secret OLC memos that provided the legal 
justification for a range of CIA interrogation tactics including 
waterboarding, cramped confinement, and dietary manipulation.
    Mr. Bradbury's work has been sharply criticized inside and outside 
the Department of Justice. In 2007, State Department Legal Adviser John 
Bellinger warned Mr. Bradbury that his draft opinion analyzing Common 
Article 3 of the Geneva Convention ``will not be considered the better 
interpretation of [the law] but rather a work of advocacy to achieve a 
desired outcome.'' \1\ Mr. Bradbury's legal opinions were eventually 
overturned, and the Department's Office of Professional Responsibility 
(OPR) issued a report in 2009 citing ``serious concerns about some of 
his analysis.'' \2\ OPR's review ``raised questions about the 
objectivity and reasonableness of some of the Bradbury Memos' 
analyses'' and found that instead of providing objective legal analysis 
his memos ``were written with a goal of allowing the ongoing CIA 
program to continue.'' \3\ As a coalition of human rights groups noted 
in their letter of June 22 to Chairman Thune and Ranking Member Nelson 
of the Committee on Commerce, Science, and Transportation, Mr. 
Bradbury's ``analysis directly contradicted relevant domestic and 
international law regarding the treatment of prisoners, and helped 
establish an official policy of torture and detainee abuse that has 
caused incalculable damage to both the United States and the prisoners 
it has held.'' \4\
---------------------------------------------------------------------------
    \1\ Department of Justice Office of Professional Responsibility, 
Report on Investigation into the Office of Legal Counsel's Memoranda 
Concerning Issues Relating to the Central Intelligence Agency's Use of 
``Enhanced Interrogation Techniques'' on Suspected Terrorists, July 29, 
2009.
    \2\ Id.
    \3\ Id.
    \4\ Coalition Letter Expressing Concern Regarding the Nomination of 
Steven Bradbury for General Counsel of the Department of 
Transportation, June 22, 2017, available at https://ccrjus
tice.orglcoalition-letter-expressing-concern-regarding-nomination-
steven-bradbury-general-counsel-department.
---------------------------------------------------------------------------
    In testimony before the Senate Judiciary Committee in 2006, Mr. 
Bradbury justified the administration's interpretation of the Supreme 
Court's decision in Hamdam v. Rumsfeld by stating that the ''president 
is always right.'' \5\ The general counsel of a Federal agency must not 
simply be a rubber stamp for the administration and its policies. In 
2008, the Senate refused to confirm Mr. Bradbury as assistant attorney 
general for the Office of Legal Counsel in light of his role in 
crafting the torture memos and demonstrated lack of political 
independence. I urge you to again reject his nomination to this 
position of public trust.
---------------------------------------------------------------------------
    \5\ Senate Judiciary Committee, Hearing on Hamdan v. Rumsfeld: 
Establishing a Constitutional Process, July 11, 2006.
---------------------------------------------------------------------------
            Sincerely,
                                        Sheldon Whitehouse,
                                             United States Senator.
                                 ______
                                 
                                             Public Citizen
                                     Washington, DC, August 1, 2017

Dear Senator,

    We are writing to urge you to deny confirmation for Steven 
Bradbury, the nominee to become general counsel for the Department of 
Transportation.
    Mr. Bradbury has a long record of opposing consumer and 
environmental interests that makes him singularly unfit for the general 
counsel position at an agency charged with developing a safe, 
affordable and environmentally sustainable transportation system for 
Americans.
    Most notably, Mr. Bradbury has represented Takata Corporation as it 
has sought to defend itself from civil and criminal liability related 
to faulty air bags that have killed or injured more than 100 people. 
Recalls of the Takata airbags are proceeding at a disturbingly slow 
rate. As Senator Nelson said at Mr. Bradbury's confirmation hearing, he 
was ``one of the main advocates for a company that has done dastardly 
things.''
    Unfortunately, that representation and advocacy was part of a long 
history of advocating on behalf of corporate wrongdoers. He has 
represented:

  <bullet> Turing Pharmaceuticals, of Martin Shkreli fame, in 
        connection with congressional investigations of outrageous drug 
        price increases;

  <bullet> Southeastern Legal Foundation in a Supreme Court challenge 
        to EPA greenhouse gas emission rules;

  <bullet> US Airways during its 2013 merger with AMR Corporation, the 
        company that operates American Airlines, a merger that created 
        the country's largest airline:

  <bullet> Verizon, in a lawsuit against the Federal Communications 
        Commission, challenging an early FCC net neutrality rule.

  <bullet> The U.S. Chamber of Commerce and Investment Company 
        Institute as amici in support of MetLife, Inc.'s challenge to 
        its designation as ``too big to fail'' by the Financial 
        Stability Oversight Council under the Dodd-Frank Act.

    In Mr. Bradbury's world, corporations would be bigger, freer to 
pollute, price gouge and endanger the public.
    This is not the resume of someone qualified to serve as general 
counsel at the Department of Transportation. Mr. Bradbury's record 
evinces a hostility to the very priorities he would be charged with 
upholding at the department. We urge you to reject his nomination.
            Sincerely,
                                           Robert Weissman,
                                                         President.

    The Chairman. Senator Nelson.
    Senator Nelson. Mr. Chairman, this is an airbag. It goes in 
this device--in this case, this is a Honda--and it's right in 
the middle of the steering wheel. And it inflates. Even minor 
fender benders cause it to inflate. The actual inflator is 
inside the steering wheel. This is cut in half, and the 
explosive material is in the inside, and that has been the 
problem. Takata's ammonium nitrate, when exposed to humidity 
over time, can explode with great force. You can see how heavy 
that is. That explosive force starts to shred this metal, and 
that's what has killed 16 people and injured 180. The very 
device that is intended to save lives is killing lives.
    Now, in response to the letter that I sent you last week, 
you said that you would agree to recuse yourself from all 
aspects of the Takata airbag inflator recall and that you, 
quote, do not plan to seek a waiver that would allow you to 
participate in, quote, particular matters involving Takata 
since you were their counsel.
    Well, I appreciate your response, but I want to get very 
specific. Will you agree to completely recuse yourself from all 
Takata matters and agree never to seek or accept a waiver of 
these restrictions?
    Mr. Bradbury. Thank you, Senator Nelson. And let me explain 
what the statements in the letter indicate just so it's clear. 
There would not be a waiver available at all with respect to 
the Takata airbag recall issues. Those I am recused from 
entirely. So as I've indicated to you, Senator Nelson, I 
recognize that I am recused for my entire time as General 
Counsel, if I am confirmed, from all aspects of the Takata 
airbag recalls.
    With respect to any other unrelated matter that might come 
up, so let's say, for example, with respect to seatbelts, if 
the Takata successor, and based on what I read in the news, 
that could be the key systems company has an issue with 
seatbelts completed unrelated to airbags, I am indicating I 
would be recused under the ethics pledge of the President's 
Executive Order for 2 years from the commencement of my time at 
the Department if I am confirmed.
    So I would not involve myself in any other particular 
matter that relates directly to Takata. Those unrelated matters 
are the ones for which at least theoretically a waiver might be 
available. And what I indicated in the letter is I do not plan 
to seek a waiver to participate in any of those unrelated 
matters that involve a Takata successor. I can't, as I sit here 
today, foresee what those matters might be, and if it did 
involve something completely unrelated and there was a strong 
need for the General Counsel to be involved, that's the kind of 
situation that I cannot foresee. But I do not plan to seek any 
such waiver for any such unforeseen matter, as I sit here. And, 
of course, if something came up like that, I would certainly be 
in touch with your office in advance of anything. But I think 
that's a pretty broad and clear statement.
    Senator Nelson. Mr. Bradbury, I appreciate your good 
intentions, but the fact is that you were one of the main 
advocates for a company that has done dastardly things and that 
has, according to U.S. attorneys, violated criminal laws.
    Now, we just need the understanding, as a committee, that 
you're still not going to be an advocate for Takata. And 
they've already said they're filing for bankruptcy. And this is 
at a time that the American public is still at risk because 
two-thirds of the recalled vehicles are not repaired. The 
Department of Transportation can in fact affect this, although 
it's specifically NHTSA. Why can't you just say that, ``I'm not 
going to get involved in Takata''?
    Mr. Bradbury. Well, certainly, Senator Nelson, I will not 
in any way, shape, or form be an advocate for any private 
interest. I will represent only one client as General Counsel 
if I am confirmed, and that's the United States. I have no 
plans, as I indicated, to seek any waiver to be involved with 
respect to Takata on any matter that's unrelated to the airbag 
recalls. As to the airbag recalls, I would be entirely recused 
my entire time.
    I agree with you completely, these are serious safety 
issues. One of the things I did as attorney for Takata was 
assist them in coming forward and disclosing these serious 
issues to NHTSA and to the Department of Justice and assisting 
them in working out the consent order, and consent orders, with 
NHTSA to create the framework for these expanded recalls.
    I agree entirely that they've got a long way to go, and 
it's critically important that they continue and that they be 
completed as promptly as possible. And so the Deputy General 
Counsel will be overseeing that. I know it has Secretary Chao's 
personal and direct attention. From personal experience, I well 
know how important it is to you and what a high priority it is 
and how it particularly affects Florida. So I'm not at all 
going to be an advocate for that company or any private 
company. Thank you.
    Senator Nelson. OK. Mr. Chairman, I've just got to respond. 
So here's a potential hypothetical. We're rocking along into 
bankruptcy, and there is something in the bankruptcy with 
regard to creditors that would be favorable to Takata but would 
slow down the process of recall. That's something that you 
shouldn't get involved in because you had been the advocate, 
the spokesperson, the mouthpiece for Takata.
    Mr. Bradbury. I agree, and I would not get involved because 
that would have an effect potentially, as you have indicated 
there, on the completion of the recalls. So you have my pledge, 
I will not participate in any aspect of any work of the 
Department or the Department's activities with respect to that, 
that affect the recalls, the Takata airbag recalls, because we 
have to complete those as quickly as possible.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Ms. Walsh, thanks for your willingness to serve. You know, 
I'm sure you understand because you said you traveled to 100 
different countries, that approximately 96 percent of global 
consumers are and over three-quarters of the world's purchasing 
power are overseas. So by some estimates, the middle class is 
expected to triple by 2030, creating booming markets in Asia, 
Africa, and India. Only 1 to 3 percent of the U.S. small 
businesses are currently exporters, so obviously we want our 
exporters to have all the help and support they can to break 
down those barriers and become champions.
    One of the programs that I have supported and many of my 
colleagues have supported is the State Export Promotion 
Program, and I wanted to get your thoughts on whether you 
support that program. And, second, do you support the Export-
Import Bank as a tool to help small business exporters?
    Ms. Walsh. Thank you, Senator, for your interest and 
support in the Commerce Department. I definitely feel that the 
time is now to really be focusing on small and medium-sized 
enterprises in terms of the states. I think everyone has a role 
to play at the Federal, the state, and the local levels in 
ensuring that our small-and medium-sized enterprises are 
prepared to export for those that are interested in doing so.
    The markets out there are huge, and the growth is 
exponential that we're seeing particularly in Asia. I would 
also say that obviously it's up on the upswing in Africa as 
well. And to answer your question with regard to the Export-
Import Bank, I am not in a position to respond to that right 
now. The Export-Import Bank has definitely been part of the 
cycle of success in terms of our exports around the globe, but 
in terms of--I'm not in a position, but if confirmed, I would 
definitely look into working with them at the direction of the 
Secretary and Under Secretary.
    Senator Cantwell. You are not in a position to say whether 
you support it? Is that what you're saying?
    Ms. Walsh. Not in a position to say personally? Is that 
what you're asking, Senator?
    Senator Cantwell. I mean, you are in such a big position to 
promote trade for the United States, the Export-Import Bank is 
one of the key tools.
    Ms. Walsh. Right. And I think that it has been outstanding 
thus far from what I know of working with the Export-Import 
Bank, but in this position, I am not prepared to say what role 
the Department will play. But definitely, Senator, if 
confirmed----
    Senator Cantwell. Thank you.
    Mr. Bradbury, I would love to ask you the same related 
question as it relates to DOT and trade because one of the 
things that will be in the purview of DOT is these FASTLANE 
grants that we were able to approve last administration to more 
quickly move freight, and we're still waiting for the awards 
for this year.
    But I feel so compelled to ask you about your time in the 
Bush administration obviously regarding on this torture issue. 
Do you stand by your previous decisions now that you've seen 
how the Court has ruled on this issue?
    Mr. Bradbury. I'm sorry, Senator, how the Court has ruled? 
How the Court has ruled on what?
    Senator Cantwell. Do you think that you were right and do 
you stand by your positions on torture? Or do you now see a 
change or a problem with your philosophy that you were 
advocating?
    Mr. Bradbury. Well, first of all, I just really want to 
make it clear, I was not advocating for any policies. I didn't 
have a philosophy about these policies. I certainly didn't ask 
to be in the position to provide legal advice on these 
questions. You know, the Office of Legal Counsel is that office 
where tough questions come to you when senior policymakers need 
legal advice and clarity, and that's the function of the 
office.
    I will say there is one point I really want to make about 
this, because certainly I don't feel the need to defend or 
discuss the analysis of opinions, which I think speak for 
themselves, and, of course, these opinions are not operative 
anymore. There's been a real, you know, major, major 
development.
    At that time, when we were addressing these issues, it was 
recognized that there were two standards. There were the 
standards that applied to the Armed Forces in the military, 
which use the Army Field Manual, and very clear, and they have 
traditions and protocols that they followed. And then there 
were different standards for intelligence officers, and those 
standards were much less well formulated, much more vague, less 
clear, very few precedents, and that's what we were really 
struggling with.
    Now, of course, there has been a big sea change since that 
time because Congress has come----
    Senator Cantwell. Do you support that sea change?
    Mr. Bradbury. I do. I think it's tremendous for the country 
historically that Congress and the Executive Branch have come 
together on this highly contentious issue. And Congress has 
fully debated it. Senators I really have great affection and 
respect for led the charge, like Senator McCain and Senator 
Feinstein. And Congress has enacted new laws which essentially 
said for the United States, the standard is going to be the 
same, it's going to be one and the same----
    Senator Cantwell. So you didn't see a violation of the 
Geneva Convention in what you were recommending?
    Mr. Bradbury. Well, I wasn't recommending anything. OK? The 
office that I headed up is pure legal advisory, it doesn't 
recommend anything. So policymakers----
    Senator Cantwell. But you were interpreting the law----
    Mr. Bradbury. Correct, and----
    Senator Cantwell.--and standards.
    Mr. Bradbury. Yes. And, of course, what we faced in 2006 
was a Supreme Court decision which really caught everybody by 
surprise which said the standard that applies in the war on 
terror is the Common Article III standard. That was something 
new. The President previously said, ``it doesn't apply.'' So we 
needed to work on addressing what those standards in that 
framework would mean for the United States. And I actually was 
privileged at the time to work on behalf of the Executive 
Branch closely with Senator McCain and others to resolve those 
issues through legislation in 2006, legislation that actually 
got 67 votes in the Senate. I was very----
    Senator Cantwell. Well, my time is expired, Mr. Chairman, 
and I don't want to go on and on, but I think that people are 
here this morning because they don't think that you showed 
enough leadership. So now trying to say that--we'll go over 
this in more detail when I have an opportunity.
    Mr. Bradbury. OK.
    Senator Cantwell. But I think what people want to know is 
that, as an attorney, whether it's Takata airbags or this 
issue, you're bringing forth complete facts and information 
like somebody we're going to put in the position to be a 
government lawyer should.
    Mr. Bradbury. I understand, Senator.
    Senator Cantwell. Thank you.
    Mr. Bradbury. And, of course, in the work we did, we tried 
to lay out all of the factors that we considered, and I 
certainly appreciate the strong feelings on this issue. I 
appreciate them deeply. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Thank you both. And it's nice to see your family here. 
Welcome. And thank you for your willingness to serve.
    Mr. Bradbury, let me start with you, and I want to follow 
up on just some of the conversation we're having with respect 
to Takata and your representation. And let me just put this in 
context. Prior to becoming a Senator here for the state of 
Nevada, I was the Attorney General for 8 years, was general 
counsel for the state agencies when they were looking to 
implement the laws that were passed for their mission and help 
them interpret it. That's similar to what I see you are going 
to be doing.
    And so I do have concerns about how you manage your private 
life and what you did in your private life, particularly when 
it comes to your advocacy for Takata and the recall of the 
airbags, and now how you're representing the very agency that 
you were fighting against on this public safety issue.
    So let me just say this and ask you a couple of questions 
surrounding this because there was a young woman in Nevada by 
the name of Karina Dorado who was seriously injured, as you 
well know, from a defective Takata airbag, which exploded in 
her car after a minor accident in Las Vegas, causing severe 
damage to her trachea.
    There are currently no laws or regulations prohibiting the 
sale of cars under recall or used parts that may be under 
recall. In other words, they can be recycled. That troubles me. 
As General Counsel of the Department, would you be supportive 
of NHTSA, should it be decided that such laws or regulations 
are indeed necessary, to prohibit the recycling of any 
defective products?
    Mr. Bradbury. Well, that issue certainly is a significant 
issue, and I would look forward, if confirmed, to working 
closely with the Chief Counsel of NHTSA to address whether 
there is an appropriate tool to bring to bear there or whether 
some new authority may be required. And I certainly would look 
forward to meeting with you and members of this committee to 
hear your perspective on those issues.
    And just to emphasize again, I've been in government 
previously and I clearly know the difference between 
representing a client in private practice and representing the 
United States as an attorney, such as in the position of 
General Counsel, if I am fortunate enough to be confirmed by 
the Senate. So you certainly have my pledge that that 
difference will be very, very important to me, and I will not 
lose sight of it.
    Senator Cortez Masto. Good. I appreciate that. And so one 
final question on a similar track. So then do you think there 
are additional steps the Department can take to detect the type 
of behavior that Takata engaged in, which is data manipulation 
and deception, before it gets to the crisis stage we are in 
today? And it may not pertain to Takata, maybe the next company 
or another company there that is engaging in that data 
manipulation and deception, do you think there's a role that 
you can continue down that path and the Department can take to 
detect it?
    Mr. Bradbury. Well, I certainly look forward to exploring 
that issue and whether there are things that can be done 
differently perhaps in terms of new regulation. Certainly when 
there is a--my understanding is--and let me just say, through 
my experience in that matter, I gained a great respect for the 
career attorneys and the engineers in NHTSA, I really did. I 
think very highly of NHTSA and my experience with them. And 
that actually was a significant factor in my decision to pursue 
this position. I was----
    Senator Cortez Masto. I'm glad to hear that. And I'm just 
going to cut you off because I don't have enough time, and I 
would like to get to Ms. Walsh. But I will tell you I respect 
them as well, and they were great partners of mine as Attorney 
General representing the state in working together in public 
safety issues across this country. So thank you for that.
    Ms. Walsh, welcome as well. In Nevada, actually in 2016, 
there are over $10 billion worth of commodities that were sold 
to the international marketplace. So this space is very 
important for us in Nevada.
    So I have a couple of questions when it comes to the 
foreign direct investment. A significant proportion in Nevada 
of previous foreign direct investment has come into the areas 
of renewable energy, which is an important space for us in 
Nevada, and I think we can continue to lead the country here. 
Unfortunately, the President recently made the decision to pull 
the United States out of the Paris climate agreement, signaling 
to other companies that the United States is no longer 
prioritizing the fight against climate change. Will you commit 
to continue efforts to increase foreign direct investment in 
the renewable energy sectors?
    Ms. Walsh. Thank you, Senator, for that question. The 
renewable energies and the whole foreign direct investment 
piece is critically important I believe to the Department, 
certainly to the Secretary, and if confirmed, I commit to 
absolutely supporting the foreign direct investment in your 
state of Nevada.
    Senator Cortez Masto. Thank you. And then the President has 
made several statements throughout his campaign and into the 
start of the administration insinuating that certain foreigners 
are not welcome in the United States. Since then, we have seen 
a number of reports of companies who have chosen to take their 
business elsewhere. As the Director of SelectUSA, how will you 
promote future investment despite the President's divisive 
rhetoric with respect to foreigners?
    Ms. Walsh. Thank you, Senator. Again, I think, if 
confirmed, I would definitely be one to look at all foreign 
direct investment. It's critically important to our country. I 
think that whatever the President's and the Secretary's 
direction is, I do feel that we can attract foreign direct 
investment particularly because of the new tax and regulation 
reforms that they are doing. America has a huge consumer 
population, and has always been the number one attraction for 
foreign investment.
    Senator Cortez Masto. Thank you very much.
    Thank you.
    The Chairman. Thank you, Senator Masto.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chair.
    And welcome to the witnesses. I appreciate your desire to 
serve.
    Mr. Bradbury, I just wanted to follow up on a couple issues 
that first Senator Nelson talked about Takata. So you're going 
to fully recuse yourself on those issues, correct?
    Mr. Bradbury. That's correct. Yes.
    Senator Sullivan. OK. So we appreciate that. That's the 
right thing to do. I think that's important for all of us to 
hear.
    This is less likely, but there was a mention of the issue 
of turning pharmaceutical if there is any issue that, however 
remote that might be, would you recuse yourself on that as 
well?
    Mr. Bradbury. Yes. Any private client that might have 
business before the Department of Transportation that I've 
represented, of course, any matter I personally handled for a 
client, I'm recused for the rest of my career basically from 
representing any other client in that. And for 2 years under 
the Executive Order, I would not handle any matter in which 
that former client has a direct and substantial interest. So 
absolutely, yes, but I don't anticipate any pharmaceutical 
issues coming before the Department.
    Senator Sullivan. No, I know, but I think it's very good to 
get it out there. It's pretty much your previous clients, and 
that's important for all of us to know. So I'm glad you're so 
direct on that.
    You know, Senator Cantwell was talking about the 
interrogation issues, and you might get more questions on it, 
but the Justice Department career attorneys and the Office of 
Professional Responsibility took a look at all of this 
afterwards. Obviously, the context was very different.
    As you mentioned, we have now passed laws, I voted for laws 
that make it very clear about where our nation is with regard 
to torture and not allowing it. Can you just give me a sense on 
where OPR was and everything in terms of any activities you 
were involved with? I think that's also important to hear what 
the career Justice Department officials, their judgment was 
during----
    Mr. Bradbury. Yes.
    Senator Sullivan.--which was, let's face it, after 9/11, it 
was a very, very difficult time. A lot of us were involved in 
different ways on responding to the attack on our Nation and so 
it would be good to hear what they had to say.
    Mr. Bradbury. Well, thank you, Senator Sullivan. It's very 
important, I think. You know, it was a challenging time----
    Senator Sullivan. Yes.
    Mr. Bradbury.--and the issues were very difficult ones, as 
I've stressed.
    Senator Sullivan. Yes.
    Mr. Bradbury. I wasn't in the Administration in the early 
days, you know, after 9/11, and there were opinions given by 
the Office of Legal Counsel in those early days that, you know, 
have become very famous at this point----
    Senator Sullivan. Right.
    Mr. Bradbury.--that relied on very expansive 
interpretations of executive power of the United States 
Commander in Chief.
    Senator Sullivan. That you weren't part of.
    Mr. Bradbury. I was not in the office then, I did not 
author those opinions.
    Senator Sullivan. Yes, that's important to clarify.
    Mr. Bradbury. From my perspective, one of the significant 
initiatives that I took during my time in the Office was to go 
back and review all of those opinions, identify where they were 
flawed, where the invocation of executive power was overly 
expansive and we felt not well supported, and we pulled back. 
So we withdrew those opinions. What I actually was working on, 
including with respect to all the interrogation-related 
opinions I did, was to replace and supersede those earlier very 
expansive opinions, which were much more narrow-focused 
opinions where I tried to explain very clearly all the factors 
and focus only on the statutory provisions, never relied on the 
Commander in Chief authority, et cetera.
    Senator Sullivan. That's helpful, and obviously you 
mentioned about Senator McCain and other Members voted on 
amendments within the last couple years. It clarified this 
under U.S. law. And you obviously agree with that because 
that's the law, correct?
    Mr. Bradbury. Oh, absolutely. The law has changed. I think 
it's a welcomed development for the branches to come together, 
make clear standards that apply across the government, and so 
the proposals and policies that we had to grapple with back 
then----
    Senator Sullivan. Are clarified now.
    Mr. Bradbury.--would not be permitted, many of them would 
not be permitted, today, and I would not anticipate that it 
would require a change in the law. That would require Congress 
to make that happen.
    Senator Sullivan. Right.
    Mr. Bradbury. So it's completely different.
    Senator Sullivan. Let me ask another quick question really 
of both of you, Ms. Walsh as well. A lot of us are focused on 
infrastructure. I think hopefully we're going to see an 
infrastructure bill. I've also been very focused on the 
importance of permitting reform, right? The President might 
want to do a trillion dollar infrastructure, but our permitting 
system is so broken that it takes 8 years to permit an airport 
runway or 6 years to permit a bridge, 20 years to permit a gold 
mine in Alaska. I mean, it's a broken system.
    I've gotten commitments from both Secretary Ross and 
Secretary Chao to work with this Committee, where I think 
you'll see bipartisan support, on looking at ways that we have 
to, have to, reform a Federal permitting system that doesn't 
put people to work. A trillion dollars, half of that will be 
blown by red tape and lawyers fees if we don't reform our 
permitting system.
    I'll be introducing a bill here soon. I'm hoping to get 
some of my Democratic colleagues on a Rebuild America Now Act 
that reforms our Federal permitting system. I just want to get 
your commitment in both of your agencies, in both of your 
positions, where it's very important that you work with us on 
trying to address the dysfunctional permitting system that 
undermines our infrastructure and keeps so many hardworking 
Americans and their families from actually working.
    Can I get both your commitments on that?
    Mr. Bradbury. Absolutely. I'll speak for myself, yes.
    Senator Sullivan. Ms. Walsh?
    Ms. Walsh. Senator, absolutely. It's a top priority for the 
Department of Commerce, and I will definitely commit to working 
with your teams and yourself.
    Senator Sullivan. Great. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    I would agree that if we can get an infrastructure bill 
going this year that one of the key priorities has to be making 
sure the dollars that are put into infrastructure are actually 
going into infrastructure and not into legal fees and a long 
permitting process.
    So next up is Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Mr. Chair and Ranking 
Member Nelson.
    And good morning to our witnesses. Thank you both for being 
here, and congratulations on your nominations.
    Mr. Bradbury, I also have concerns about your role in 
developing the justification for enhanced interrogation 
techniques and what many people call torture. I just did hear 
some of the exchange with Senator Sullivan, and what I'll plan 
to do is have my office follow up with you.
    I want to turn now to the Department of Transportation 
General Counsel's responsibility for agency regulatory reform. 
We've spent some time this year in this committee and in the 
Committee on Homeland Security and Government Affairs on 
regulatory issues. And one of the things that's come up 
repeatedly is the issue of how to incorporate quantitative 
factors into a cost-benefit analysis. For example, the 
Department of Transportation's 2014 rule on backup cameras in 
motor vehicles explicitly takes into account, and this is a 
quote, values that are difficult or impossible to quantify, 
including equity, human dignity, fairness, and distributive 
impacts.
    The 2014 rule takes into account the idea that the pain of 
harming or killing one's own small child by backing up over 
them with a car cannot, and this is another quote, fully or 
adequately be captured in the traditional measure of the value 
of a statistical life.
    So, Mr. Bradbury, do you agree with that qualitative 
analysis? And as General Counsel, would you continue to take 
these kinds of important qualitative values into account when 
conducting cost-benefit analyses of proposed regulatory 
changes, including actions to change or repeal current rules?
    Mr. Bradbury. Well, thank you, Senator Hassan. I appreciate 
your focus on these issues. In approaching any regulatory 
question, including whether to reform existing regulations, the 
number one priority from the Department of Transportation 
perspective is safety. So safety and the effect of the rule on 
safety and the goal of promoting safety has to take precedence, 
and I think Secretary Chao has stressed that.
    In tandem with that is it has to be made clear that we have 
to comply with the law, and any statutory requirements that 
Congress has provided under the laws that the Department of 
Transportation enforces, those are mandates that we have to 
comply with. So just because we're going through an exercise of 
regulatory reform and reviewing regulations doesn't mean that 
that process trumps a clear requirement of the law.
    So safety and complying with all legal requirements, those 
are the top priorities, and then you can get to the question 
of, how are the costs and benefits balanced? How do they weigh 
and how do you measure them? And I think, you know, I can't 
speak for the administration, I'm not in the administration 
yet, I haven't worked on these issues for the Department or the 
administration. Those quantifications, those analyses, there's 
a long set of protocols and traditions that apply to that that 
have been brought to bear by administrations of different 
parties. So there's consistency in that approach. The Office of 
Management and Budget and OIRA in particular oversees that.
    Senator Hassan. Right.
    Mr. Bradbury. So they review how you calculate things. 
There are hundreds of analysts who are career analysts there 
who perform that function. Similarly, at a big department like 
the Department of Transportation there are many analysts and 
career lawyers and economists who are involved in reviewing 
that.
    So I would not be in a position to simply come in and say, 
``Oh, you've got to do it completely differently.''
    Senator Hassan. Right.
    Mr. Bradbury. So I would look to those traditions. I would 
work closely with OMB and obviously I would love to hear your 
perspective and the perspective of others on this Committee on 
how to approach those issues.
    Regulatory reform, though, is very important, you know, 
as----
    Senator Hassan. Sure. And I thank you. I'm going to cut you 
off here just because I want to get to one question to Ms. 
Walsh, but I thank you for the answer, and I look forward, if 
you are confirmed, to continuing this discussion.
    Ms. Walsh, in the month of May, the Export-Import Bank 
financed almost $750,000 in exports from my home state of New 
Hampshire. I'm sure that many of my colleagues get similar 
monthly reports for the positive ways in which EXIM is helping 
their constituents. However, the lack of quorum on the bank's 
board of directors is holding it back from fully supporting our 
Nation's businesses.
    Members of this administration, in particular, Secretary 
Ross, have spoken about wanting to dramatically reduce the U.S. 
trade deficit in the world, but one of the administration's 
nominees to fill out the quorum on the bank's board, and, in 
fact, to be its president, has been a strong and outspoken 
opponent of the bank's very existence.
    Can you explain this contradiction? And if your job will be 
to promote trade investment and increased market access for 
U.S. exporters, how will this hinder your ability to do your 
job, and what will you do to fix it? And we're just about out 
of time, so we can follow up. But if you have a short answer, I 
would ask for the Chair's indulgence for just a second.
    Ms. Walsh. Thank you, Senator, for that question. Indeed, 
our mission is to focus on exports and FDI. The discussion 
regarding EX-IM Bank is not something at this point that I am 
able to participate in, but if confirmed, it's certainly 
something that we would look at because, as I mentioned before, 
we're looking at the whole cycle of success and what it takes 
to help our companies export overseas and really begin to gain 
more market share.
    Senator Hassan. Thank you very much.
    The Chairman. Thank you, Senator Hassan.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you. Thank you to both of you.
    Ms. Walsh, I enjoyed our meeting. I told you how important 
the U.S. Commercial Service is in my state helping tremendously 
with exports. What ideas do you have to increase the number of 
companies served, and particularly with a focus on rural 
companies?
    Ms. Walsh. Thank you, Senator, and thank you for the 
opportunity to meet with you and your staff yesterday. It was 
very encouraging meeting, to hear all of the wonderful things 
going on in the State. The Department is focused on really 
again the exports.
    One of the ways, if confirmed, that we would begin to look 
at how do we help companies better is to look at the way that 
we're using technology. The Department began to really 
integrate that into the program and training at the Commercial 
Services on the ground, and that also impacts rural companies 
as well. I think looking at the rural companies is a hugely 
important area that, if confirmed, that we would take a closer 
look at.
    Additionally, I think it's important, if confirmed, to look 
at what we're doing for small-and medium-sized enterprises that 
are women-owned as well as minority-owned and veteran-owned; 
and the Department is taking a much closer look at that, and 
that will definitely impact rural companies as well.
    Senator Klobuchar. And that was your background. You've 
done a lot of work in that area promoting women and assist 
them.
    Ms. Walsh. That's right.
    Senator Klobuchar. What role do you believe overseas 
offices play? We talked about this in promoting U.S. products 
and getting more contracts. I've seen other embassies from 
other countries more focused on that, and then oftentimes we 
can lose out if we don't have that as a major focus in our 
embassies.
    Ms. Walsh. Thank you, Senator, for that question. From what 
I have heard, if confirmed, I would definitely be looking 
closer into that, but Secretary Ross has made it very clear to 
the potential Ambassador nominees that this is one of the top 
priorities of the administration, and the Commercial Service 
officers are the person on point in the country. They're there 
to help pick up the businesses from the United States when 
they're export-ready and ensure that they get what they need to 
gain the market share in the country.
    Senator Klobuchar. And as we look at the budget coming up, 
we also discussed this, just the concern that if we make any 
major cuts to Foreign Commercial Service and to the people that 
are stationed overseas, I think it will have the opposite 
effect despite, I believe, the good work that you want to do. 
So----
    Ms. Walsh. Yes, Senator, on that, I have not had access to 
the budget discussions. I have not seen any list, but 
definitely I would work, if confirmed, with the Secretary and 
the Under Secretary to take a close look and analyze not only 
the numbers, but the success and what the posts are able to do 
at this point.
    Senator Klobuchar. Thank you very much for that answer.
    Mr. Bradbury, welcome. We do a lot of work with 
transportation out of my state, and we've had, of course, the 
bridge collapse and other things, and many visits from the 
various Secretaries. I share my colleagues' concern on the 
torture issue. We're actually in Minnesota, we're the home of 
the Center for Victims of Torture, and I carry the Torture 
Victims Relief Reauthorization Act every year. So I think I'm 
going to focus on those because some of my other colleagues did 
with some questions on the record for you.
    But I did want to ask you about one issue, Open Skies. You 
know, Open Skies agreements are an important part of our 
transportation policies under both Democrat and Republican 
administrations. These agreements provide consumers, carriers, 
and airports with more choice. And I'm concerned, of course, 
with recent actions like Norwegian Air and some of the other 
countries, UAE, Qatar, and how their airlines are undermining 
our U.S. carriers. And it just feels like the opposite of what 
the President has been talking about, but this has been going 
on before this administration came in. So I'm just hoping that 
this administration will work with us to take some action. What 
can the Department do to ensure American airline workers are 
not harmed by unfair competition where, of course, you have 
subsidized airlines? And I would suggest you look at the recent 
report that came out on the Qatar airline, which shows that 
they've been given the license for the alcohol in the country 
and other things, which are subsidies that would never to come 
to weight on American airlines.
    Mr. Bradbury. Well, thank you, Senator Klobuchar. And I 
just want to say as an aside I very much appreciate the work 
you've done on the antitrust issues in the Judiciary Committee, 
on the Subcommittee on Antitrust, where I think you've been 
very effective.
    Senator Klobuchar. You're welcome. Thank you.
    Mr. Bradbury. Just two quick points. One, I certainly 
appreciate and understand the critical importance of Open Skies 
bilateral agreements, the freedom they create for U.S. airlines 
to compete and to gain access to new markets, and the economic 
engine that that is for the United States.
    I have to sound a note of caution. This is another area 
where I have represented clients in private practice and will 
have recusal issues with respect to aviation issues that may 
affect--in particular, my client has been American Airlines.
    Senator Klobuchar. OK.
    Mr. Bradbury. So I will certainly look----
    Senator Klobuchar. That's better than another client, so--
--
    Mr. Bradbury. Yes. I will certainly look to the advice of 
the ethics officers, the senior ethics officer, career ethics 
officer, at the Department of Transportation and follow that 
advice with respect to those issues.
    Senator Klobuchar. All right.
    Mr. Bradbury. But I appreciate your interest in this. And I 
know it's a big important issue for the Department.
    Senator Klobuchar. Well, and Secretary Chao told me when 
she was last here that she would be looking into it.
    I know I've run out of time, but I did want to note there 
were some families out there in red shirts that are with the 
families of people who died in the Colgan Air crash, and they 
have been working with me and Captain Sullenberger and others 
to try to pass a bill on hours for freight air. And so I hope 
that you will look at that as well. I'll put a question and 
submit it later.
    Mr. Bradbury. Thank you for your interest in that. I 
definitely will and will enjoy hearing from you on that.
    Senator Klobuchar. Thank you.
    Mr. Bradbury. I look forward to that.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Bradbury, I want to discuss your experience at the 
Department of Justice during the Bush administration and why 
your authorship of the torture memos not only sunk your 
nomination to be Assistant Attorney General during the prior 
decade, but made you so unacceptable that the then Majority 
Leader offered to confirm 84 stalled Bush administration 
nominees, 84, in exchange for the withdrawal of just one 
nominee, you. That is quite the ransom you commanded from your 
work with the torture memos, that you could actually get 84 
people nominated just to have your one nomination withdrawn.
    I think it's clear what the Senators objected to then also 
remains the reason I am strongly opposed to your nomination 
now, your role in crafting the torture memos. You were an 
architect of the legal justification for detainee abuse in the 
form of waterboarding and other forms of torture. In my 
opinion, that alone should disqualify you for future government 
service. And while you are nominated to serve at DOT and not at 
Justice, your willingness to aid and abet torture demonstrates 
a failure of moral and professional character that makes you 
dangerous regardless of which agency you serve in.
    If confirmed, it's your sworn duty and obligation to serve 
the interests of the American public by providing honest and 
objective legal analysis to the Department and the 
administration. We would rely on your counsel to make sure that 
DOT employees do not subvert the law, the intent of Congress, 
or the United States Constitution. And unfortunately, as 
someone who defended the Constitution of the United States for 
23 years in uniform, I have no confidence that you are capable 
of carrying out that critical role.
    In fact, based on your work on the torture memo, we know 
that you are more than willing to use torture legal maneuvers 
very much to get around the laws and the Constitution of the 
United States. The public should be alarmed by your history of 
demonstrating complete deference to a President's policy goals 
and the likelihood of continuing this in the Trump 
administration.
    Mr. Bradbury, let me just make it clear what you justified. 
In one of the programs you justified, detainees were sleep 
deprived for up to 180 hours, that's 7-1/2 days; forced into 
stress positions; sometimes shackled to the ceiling; subject to 
rectal hydration and feeding; confined in boxes the size of a 
small dog crate. CIA personnel conducted mock executions. One 
man was waterboarded to the point that he became completely 
unresponsive with bubbles rising through his open full mouth. 
Another man was frozen to death. Some of these abuses were 
authorized; others were not. But brutality, once sanctioned by 
the likes of you, by the likes of you, is not easily contained.
    In 2005, the Senate voted 90 to 9 to enact the Detainee 
Treatment Act to prohibit cruel, inhuman, or degrading 
treatment or punishment after the Supreme Court decided that 
terrorism detainees in the U.S. custody were protected by the 
Geneva Conventions that you found legal loopholes to allow 
torture to continue. Even the DOJ Office of Professional 
Responsibility criticized you, in particular, for uncritical 
acceptance of the CIA's representations about the torture 
program.
    In testimony before the Senate Judiciary Committee in 2007, 
you defended the President's questionable interpretation of the 
Hamdan case where the Supreme Court ruled that President Bush 
did not have the authority to set up military tribunals at 
Guantanamo by famously, and I quote, your words, ``The 
President is always right,'' unquote. This rubberstamp 
mentality is extremely dangerous, especially in the Trump 
administration regardless of where you might serve.
    Let me be clear, Mr. Bradbury, you didn't make America any 
safer, and you certainly didn't make the men and women who wore 
the uniform of this great nation any safer; quite the opposite. 
The actions you helped justify put our troops in harm's way, 
put our diplomats deployed overseas in harm's way, and you 
compromised our Nation's very values.
    As a soldier, I was taught the laws of armed conflict, how 
to handle and treat detainees and prisoners, and the importance 
of acting in accordance with American values. Your actions at 
DOJ undermined that education. And let me tell you, until you 
have sat bleeding in a helicopter behind enemy lines like I 
did, hoping and praying there was an American who came for you, 
and not the enemy, what you did put our men and women who are 
behind enemy lines right today in danger.
    And I don't care that you say that now you think the laws 
that were passed in response to your actions are great and that 
you support them, the fact is you lacked the judgment to stand 
up and say what is morally right when pressured by the 
President of the United States, and I'm afraid that you would 
do again.
    Mr. Chairman, I can't oppose this nomination strongly 
enough. I yield back.
    The Chairman. Thank you, Senator Duckworth.
    Mr. Bradbury, do you want to respond?
    Mr. Bradbury. Can I say a few words?
    The Chairman. Yes.
    Mr. Bradbury. I would just like to say a couple of words.
    First, Senator Duckworth, I truly do appreciate the strong 
feelings that you hold. I share the feelings about the military 
and the potential for actions that may happen to our military 
personnel overseas, and that is a critically important set of 
issues, and that's one of the reasons why I think Congress made 
the judgment to make the standards the same for the military 
and for intelligence officers in the 2015 NDAA, National 
Defense Authorization Act. That's sensible, I understand that, 
and it's a sea change in the laws that we had to grapple with.
    I want to stress that many of the practices that you 
described were not ones that I addressed or had to review in 
terms of legality, and I never approached the project in terms 
of attempting to justify anything or achieve any policy result. 
I viewed them as very hard questions. If I had my druthers, I 
wouldn't have been engaged in having to address those issues, 
but when you serve in an office where you're asked to provide 
legal advice on the very hardest questions, that's the job, and 
that is what I did.
    I want to say one thing very important because this has 
been repeated, and it's repeated in a couple of the letters, 
and, Senator, you referenced it. The testimony I gave was in 
2006. It was before the Senate Judiciary Committee when I made 
the statement, ``The President is always right,'' and 
unfortunately, it was an ill-considered attempt at humor at the 
time. I realize it doesn't look that way objectively when you 
look at the record. It was an attempt to be ironic. It was 
unfortunate.
    I can tell you it's the last time I will ever testify 
before Congress and try to be funny in that kind of 
inappropriate way. I testified the next day before the House 
Armed Services Committee, and I made that very clear, that I've 
never met anybody who's always right, and this was just 
probably a thoughtless attempt on my part to be jocular and to 
be humorous.
    I also wrote a letter to Chairman Specter and Ranking 
Member Leahy just two days later after that hearing in July, 
and that's part of the record for that hearing. There is a copy 
of the letter, which I provided to the Chairman, and I would 
hope it becomes part of the record here because I made it clear 
there that I did not ascribe to the sentiment of that 
unfortunate statement that I made attempting to be funny. What 
I said was, ``I hope this clarification is helpful to the 
Committee, and I am sorry if my ill-considered attempt at humor 
caused any concern.'' And then I stressed--this was on July 14, 
2006, to Senator Leahy and Specter--``Certainly I well 
understand that an actual belief that the President can never 
be wrong would be wholly inconsistent with my responsibilities 
as a legal advisor to the Executive Branch.'' It was an 
unfortunate attempt in response to questions to be funny, and 
that's why I sent that clarification to try to be clear.
    I viewed so much of the work we did on these fraught 
national security issues during my time in OLC as an attempt 
really to pull back and narrow advice that had been given 
previously by the Office by predecessors before my time. Even 
with respect to some of the most difficult issues that I think 
you have addressed, we really took an effort to do it in a 
different way. We didn't rely on the President's authority 
under the Constitution, we focused on specific statutes. There 
weren't a lot of precedents. We used what we thought was 
relevant. We explained all the factors. I put everything in 
there, so there is nothing left out in terms of what I 
considered. I truly realize and respect that there are 
differences of views, that these are issues that reasonable 
people will disagree about, and I respect your position on 
these issues, and I understand it.
    Thank you.
    Senator Duckworth. Mr. Chairman, may I ask your indulgence 
to submit a few items in the record since the witness is doing 
the same?
    The Chairman. Sure.
    And your letter to Senators Leahy and Specter will be 
included without objection.
    [The information referred to follows:]

                                 U.S. Department of Justice
                                      Washington, DC, July 14, 2006

Hon. Arlen Specter,
Chairman,
Committee on the Judiciary,
United States Senate,
Washington, DC.

Hon. Patrick J. Leahy,
Ranking Minority Member,
Committee on the Judiciary,
United States Senate,
Washington, DC.

Dear Chairman Specter and Senator Leahy:

    I write to clarify one aspect of the testimony I gave before the 
Committee on Tuesday, July 11, in the hearing addressing the 
implications of the Supreme Court's decision in Hamdan v. Rumsfeld.
    Lest there be any doubt or confusion, I wish to make clear to the 
Committee that my statement, ``The president is always right,'' made in 
response to a question from Senator Leahy, was intended only to be 
humorous. I clarified this point in my testimony the next day before 
the House Armed Services Committee, in response to a question from 
Congressman Cooper:

        REP. COOPER: Mr. Bradbury, . . . [y]ou were quoted in the 
        newspaper yesterday as saying that the president is always 
        right. And I hope that's a misquote because I've never met an 
        infallible human being yet----

        MR. BRADBURY: Neither have I, Congressman.

        REP. COOPER:--with the possible exception of the Pope.

        MR BRADBURY: Neither have I, Congressman. I'm glad you brought 
        that up. I guess that just shows I shouldn't try to be humorous 
        when I'm testifying. That was a tongue-in-cheek comment. Nobody 
        is always right, and I certainly didn't mean to say that, other 
        than as in humor.

    I hope this clarification is helpful to the Committee, and I am 
sorry if my ill-considered attempt at humor caused any concern. 
Certainly, I well understand that an actual belief that the President 
can never be wrong would be wholly inconsistent with my 
responsibilities as a legal adviser to the Executive Branch.
            Sincerely,
                                       Steven. G. Bradbury,
                                 Acting Assistant Attorney General.

    Mr. Bradbury. Thank you, Mr. Chairman.
    Senator Duckworth. Thank you, Mr. Chairman. I would like to 
submit the following documents for the record: the Senate 
Intelligence Committee's exhaustive report, which outlines and 
details the CIA's detention and interrogation program; three 
separate memos from May 2005 that Mr. Bradbury wrote, which 
provide detailed and explicit legal justifications for 13 
specific interrogation tactics, including waterboarding, sleep 
deprivation, cramped confinement, as well as providing new 
justification for combining harsh physical and mental 
interrogation techniques; a July 2007 memo from Mr. Bradbury 
providing legal justification for certain enhanced 
interrogation techniques even after Congress passed the 
Detainee Treatment Act; the Department of Justice Office of 
Professional Responsibility report examining whether Mr. 
Bradbury and others provided poor legal advice and violated 
professional standards; a letter addressed to members of this 
committee from Retired Marine Corps General Charles Krulak 
expressing his opposition to this nominee; a letter from 14 
other leading human rights groups opposing this nominee.
    Thank you, Mr. Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

Senate Select Committee on Intelligence Committee, Study of the Central 
       Intelligence Agency's Detention and Interrogation Program
    The report ``Senate Select Committee on Intelligence Committee, 
Study of the Central Intelligence Agency's Detention and Interrogation 
Program'' is available at http://www.humanrightsfirst.org/uploads/pdfs/
torture/sscistudy1.pdf#page=461

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                                 U.S. Department of Justice
                                    Washington. DC, October 6, 2008
                        MEMORANDUM FOR THE FILES
Re: October 23, 2001 OLC Opinion Addressing the Domestic Use of 
        Military Force to Combat Terrorist Activities
    The purpose of this memorandum is to advise that caution should be 
exercised before relying in any respect on the Memorandum for Alberto 
R. Gonzales, Counsel to the President, and William J. Haynes II, 
General Counsel, Department of Defense, from John C. Yoo, Deputy 
Assistant Attorney General, and Robert J. Delahunty, Special Counsel, 
Office of Legal Counsel, Re: Authority for Use of Military Force to 
Combat Terrorist Activities Within the United States (Oct. 23, 2001) 
(``10/23/01 Memorandum'') as a precedent of the Office of Legal 
Counsel, and that certain propositions stated in the 10/23/01 
Memorandum, as described below, should not be treated as authoritative 
for any purpose.
    It is important to understand the context of the 10/23/01 
Memorandum. It was the product of an extraordinary--indeed, we hope, a 
unique--period in the history of the Nation: the immediate aftermath of 
the attacks of 9/11. Perhaps reflective of this context, the 10/23/01 
Memorandum did not address specific and concrete policy proposals; 
rather it addressed in general terms the broad contours of hypothetical 
scenarios involving possible domestic military contingencies that 
senior policymakers feared might become a reality in the uncertain wake 
of the catastrophic terrorist attacks of 9/11. Thus, the 10/23/01 
Memorandum represents a departure, although perhaps for understandable 
reasons, from the preferred practice of OLC to render formal opinions 
only with respect to specific and concrete policy proposals and not to 
undertake a general survey of a broad area of the law or to address 
general or amorphous hypothetical scenarios that implicate difficult 
questions of law.
    We also judge it necessary to point out that the 10/23/01 
Memorandum states several specific propositions that are either 
incorrect or highly questionable. The memorandum's treatment of the 
following propositions is not satisfactory and should not be treated as 
authoritative for any purpose:

  <bullet> The memorandum concludes in part V, pages 25-34, that the 
        Fourth Amendment would not apply to domestic military 
        operations designed to deter and prevent further terrorist 
        attacks. This conclusion does not reflect the current views of 
        this Office. The Fourth Amendment is fully applicable to 
        domestic military operations, though the application of the 
        Fourth Amendment's essential ``reasonableness'' requirement to 
        particular circumstances will be sensitive to the exigencies of 
        military actions. The 10/23/01 Memorandum itself concludes in 
        part VI, pages 34-37, that domestic military operations 
        necessary to prevent or address further catastrophic terrorist 
        attacks within the United States likely would satisfy the 
        FourthAmendment's reasonableness requirement, if the Fourth 
        Amendment were held to apply; thus, the erroneous conclusion in 
        part V was not necessary to the opinion.

  <bullet> Part V of the memorandum also contains certain broad 
        statements on page 24 suggesting that First Amendment speech 
        and press rights and other guarantees of individual liberty 
        under the Constitution would potentially be subordinated to 
        overriding military necessities. These statements, too, were 
        unnecessary to the opinion, are overbroad and general, and are 
        not sufficiently grounded in the particular circumstances of a 
        concrete scenario, and therefore cannot be viewed as 
        authoritative.

  <bullet> The memorandum concludes in part IV(A), pages 16-20, that 
        the domestic deployment of the Armed Forces by the President to 
        prevent and deter terrorism would fundamentally serve a 
        military purpose, rather than a law enforcement purpose, and 
        therefore the Posse Comitatus Act, 18 U.S.C.  1385 (2000), 
        would not apply to such operations. Although the ``military 
        purpose'' doctrine is a well-established limitation on the 
        applicability of the Posse Comitatus Act, the broad conclusion 
        reached in part IV(A) of the 10/23/01 Memorandum is far too 
        general and divorced from specific facts and circumstances to 
        be useful as an authoritative precedent of OLC.

  <bullet> The memorandum, on pages 20-21, treats the Authorization for 
        Use of Military Force (``AUMF''), enacted by Congress in the 
        immediate wake of 9/11, Pub. L. No. 107-40,115 Stat. 224 (Sept. 
        18, 2001), as a statutory exception to the Posse Comitatus 
        Act's restriction on the use of the military for domestic law 
        enforcement. The better view, however, is that a reasonable and 
        necessary use of military force taken under the authority of 
        the AUMF would be a military action, potentially subject to the 
        established ``military purpose'' doctrine, rather than a law 
        enforcement action.

  <bullet> The memorandum reasons, on pages 21-22, that in the 
        aftermath of the 9/11 attacks, the Insurrection Act, 10 U.S.C. 
         333 (2000), would provide general authority for the President 
        to deploy the military domestically to prevent and deter future 
        terrorist attacks; whereas, consistent with the longstanding 
        interpretation of the executive branch, any particular 
        application of the Insurrection Act to authorize the use of the 
        military for law enforcement purposes would require the 
        presence of an actual obstruction of the execution of Federal 
        law or a breakdown in the ability of state authorities to 
        protect Federal rights.

    For all of the foregoing reasons, we have concluded that 
appropriate caution should be exercised before relying in any respect 
on the 10/23/01 Memorandum as a precedent of OLC, and that the 
particular propositions identified above should not be treated as 
authoritative. We have advised the Counsel to the President, the Acting 
General Counsel of the Department of Defense, and appropriate offices 
within the Department of Justice of these conclusions.
                                        Steven G. Bradbury,
                       Principal Deputy Assistant Attorney General.
                                 ______
                                 
                                 U.S. Department of Justice
                                   Washington. DC, January 15, 2009
                        MEMORANDUM FOR THE FILES
Re: Status of Certain OLC Opinions Issued in the Aftermath of the 
        Terrorist Attacks of September 11, 2001
    The purpose of this memorandum is to confirm that certain 
propositions stated in several opinions issued by the Office of Legal 
Counsel in 2001-2003 respecting the allocation of authorities between 
the President and Congress in matters of war and national security do 
not reflect the current views of this Office. We have previously 
withdrawn or superseded a number of opinions that depended upon one or 
more of these propositions. For reasons discussed herein, today we 
explain why these propositions are not consistent with the current 
views of OLC, and we advise that caution should be exercised before 
relying in other respects on the remaining opinions identified 
below.\1\
---------------------------------------------------------------------------
    \1\ This memorandum supplements the Memorandum for the Files from 
Steven G. Bradbury, Principal Deputy Assistant Attorney General, Office 
of Legal Counsel. Re: October 23. 2001 OLC Opinion Addressing the 
Domestic Use of Military Force to Combat Terrorist Activities (Oct. 6, 
2008). Neither memorandum is intended to suggest in any way that the 
attorneys involved in the preparation of the opinions in question did 
not satisfy all applicable standards of professional responsibility.
---------------------------------------------------------------------------
    The opinions addressed herein were issued in the wake of the 
atrocities of 9/11, when policymakers, fearing that additional 
catastrophic terrorist attacks were imminent, strived to employ all 
lawful means to protect the Nation. In the months following 9/11, 
attorneys in the Office of Legal Counsel and in the Intelligence 
Community confronted novel and complex legal questions in a time of 
great danger and under extraordinary time pressure. Perhaps reflecting 
this context, several of the opinions identified below do not address 
specific and concrete policy proposals, but rather address in general 
terms the broad contours of legal issues potentially raised in the 
uncertain aftermath of the 9/11 attacks. Thus, several of these 
opinions represent a departure from this Office's preferred practice of 
rendering formal opinions addressed to particular policy proposals and 
not undertaking a general survey of a broad area of the law or 
addressing general or amorphous hypothetical scenarios involving 
difficult questions of law.
    Mindful of this extraordinary historical context, we nevertheless 
believe it appropriate and necessary to confirm that the following 
propositions contained in the opinions identified below do not 
currently reflect, and have not for some years reflected, the views of 
OLC. This Office has not relied upon the propositions addressed herein 
in providing legal advice since 2003, and on several occasions we have 
already acknowledged the doubtful nature of these propositions.
Congressional Authority over Captured Enemy Combatants
    A number of OLC opinions issued in 2002-2003 advanced a broad 
assertion of the President's Commander in Chief power that would deny 
Congress any role in regulating the detention, interrogation, 
prosecution, and transfer of enemy combatants captured in the global 
War on Terror. The President certainly has significant constitutional 
powers in this area, but the assertion in these opinions that Congress 
has no authority under the Constitution to address these matters by 
statute does not reflect the current views of OLC and has been 
overtaken by subsequent decisions of the Supreme Court and by 
legislation passed by Congress and supported by the President. The 
following opinions contain variations of this proposition:

  1.  Memorandum for William J. Haynes II, General Counsel, Department 
        of Defense, from Jay S. Bybee, Assistant Attorney General, 
        Office of Legal Counsel, Re: The President's Power as Commander 
        in Chief to Transfer Captured Terrorists to the Control and 
        Custody of Foreign Nations at 4-5 (Mar. 13, 2002) (``3/13/02 
        Transfer Opinion'') (asserting that ``the power to dispose of 
        the liberty of individuals captured and brought under the 
        control of United States armed forces during military 
        operations remains in the hands of the President alone'' 
        because the Constitution does not ``specifically commit[ ] the 
        power to Congress'') (``The treatment of captured enemy 
        soldiers is but one of the many facets of the conduct of war, 
        entrusted by the Constitution in plenary fashion to the 
        President by virtue of the Commander-in-Chief Clause. Moreover, 
        it is an area in which the President appears to enjoy exclusive 
        authority, as the power to handle captured enemy soldiers is 
        not reserved by the Constitution in whole or in part to any 
        other branch of the government.'').

  2.  Memorandum for Daniel J. Bryant, Assistant Attorney General, 
        Office of Legislative Affairs, from Patrick F. Philbin, Deputy 
        Assistant Attorney General, Office of Legal Counsel, Re: Swift 
        Justice Authorization Act at 2, 12 (Apr. 8, 2002) (``4/8/02 
        Swift Justice Opinion'') (``Indeed, Congress may no more 
        regulatethe President's ability to convene military commissions 
        or to seize enemy belligerents than it may regulate his ability 
        to direct troop movements on the battlefield.'') (``Precisely 
        because [military] commissions are an instrument used as part 
        and parcel of the conduct of a military campaign, congressional 
        attempts to dictate their precise modes of operation interfere 
        with the means of conducting warfare no less than if Congress 
        were to attempt to dictate the tactics to be used in an 
        engagement against hostile forces.'').

  3.  Memorandum for Daniel J. Bryant, Assistant Attorney General, 
        Office of Legislative Affairs, from John C. Yoo, Deputy 
        Assistant Attorney General, Office of Legal Counsel. Re: 
        Applicability of 18 U.S.C.  4001(a) to Military Detention of 
        United States Citizen at 10 (June 27, 2002) (``6/27/02 Section 
        4001 Opinion'') (``Congress may no more regulate the 
        President's ability to detain enemy combatants than it may 
        regulate his ability to direct troop movements on the 
        battlefield.'').

  4.  Memorandum for Alberto R. Gonzales, Counsel to the President, 
        from Jay S. Bybee, Assistant Attorney General, Office of Legal 
        Counsel, Re: Standards of Conduct for Interrogation under 18 
        U.S.C.  2340-2340A at 35, 39 (Aug. 1, 2002) (``8/1/02 
        Interrogation Opinion'') (``Congress may no more regulate the 
        President's ability to detain and interrogate enemy combatants 
        than it may regulate his ability to direct troop movements on 
        the battlefield.'') (``Any effort by Congress to regulate the 
        interrogation of battlefield combatants would violate the 
        Constitution's sole vesting of the Commander-in-Chief authority 
        in the President.'') (previously withdrawn).

  5.  Memorandum for William J. Haynes II, General Counsel, Department 
        of Defense, from John C. Yoo, Deputy Assistant Attorney 
        General, Office of Legal Counsel, Re: Military Interrogation of 
        Unlawful Enemy Combatants Held Outside the United States at 13, 
        19 (Mar. 14, 2003) (declassified by DoD Mar. 31, 2008) (``3/14/
        03 Military Interrogation Opinion'') (``In our view, Congress 
        may no more regulate the President's ability to detain and 
        interrogate enemy combatants than it may regulate his ability 
        to direct troop movements on the battlefield.'') (``Congress 
        can no more interfere with the President's conduct of the 
        interrogation of enemy combatants than it can dictate strategic 
        or tactical decisions on the battlefield.'') (previously 
        withdrawn).

    OLC has already withdrawn the last two opinions listed above, the 
8/1/02 Interrogation Opinion and the 3/14/03 Military Interrogation 
Opinion. See Memorandum for the Deputy Attorney General from Daniel B. 
Levin, Acting Assistant Attorney General, Office of Legal Counsel, Re: 
Legal Standards Applicable under 18 U.S.C.  2340-2340A (Dec. 30, 
2004), available at www.usdoj.gov/olc/2004opinions.htm; Letter for 
William J. Haynes II, General Counsel, Department of Defense, from 
Daniel B. Levin, Acting Assistant Attorney General, Office of Legal 
Counsel (Feb. 4, 2005). We have also previously expressed our 
disagreement with the specific assertions excerpted from the 8/1/02 
Interrogation Opinion:

        The August 1, 2002, memorandum reasoned that ``[a]ny effort by 
        Congress to regulate the interrogation of battlefield 
        combatants would violate the Constitution's sole vesting of the 
        Commander-in-Chief authority in the President.'' I disagree 
        with that view.

    Responses of Steven G. Bradbury, Nominee to be Assistant Attorney 
General for the Office of Legal Counsel, to Questions for the Record 
from Senator Edward M. Kennedy, at 2 (Oct. 24, 2005).

        The Federal prohibition on torture, 18 U.S.C.  2340-2340A, is 
        constitutional, and I believe it does apply as a general matter 
        to the subject of detention and interrogation of detainees 
        conducted pursuant to the President's Commander in Chief 
        authority. The statement to the contrary from the August 1, 
        2002, memorandum, quoted above, has been withdrawn and 
        superseded, along with the entirety of the memorandum, and in 
        any event I do not find that statement persuasive. The 
        President, like all officers of the Government, is not above 
        the law. He has a sworn duty to preserve, protect, and defend 
        the Constitution andfaithfully to execute the laws of the 
        United States, in accordance with the Constitution.

    Responses of Steven G. Bradbury, Nominee to be Assistant Attorney 
General for the Office of Legal Counsel, to Questions for the Record 
from Senator Richard J. Durbin, at 1 (Oct. 24, 2005).
    Here, we record our conclusion that the assertions excerpted above 
are not the position of OLC.
    It is well established that the President has broad authority as 
Commander in Chief to take military actions in defense of the country. 
See, e.g., Power to Use the Armed Forces Abroad Without Statutory 
Authorization, 4A Op. O.L.C. 185, 187 (1980) (``The power to deploy 
troops abroad without the initiation of hostilities is the most clearly 
established exercise of the President's general power as a matter of 
historical practice.''); Training of British Flying Students in the 
United States, 40 Op. Att'y Gen. 58, 62 (1941) (recognizing the 
President's authority to ``dispose of troops and equipment in such 
manner and on such duties as best to promote the safety of the 
country''). Furthermore, this Office has recognized that Congress may 
not unduly constrain or inhibit the President's exercise of his 
constitutional authority in these areas. See, e.g.. Placing of United 
States Armed Forces Under United Nations Operational or Tactical 
Control, 20 Op. O.L.C. 182, 185 (1996) (Congress ``may not unduly 
constrain or inhibit the President's authority to make and to implement 
the decisions that he deems necessary or advisable for the successful 
conduct of military missions in the field''). We have no doubt that the 
President's constitutional authority to deploy military and 
intelligence capabilities to protect the interests of the United States 
in time of armed conflict necessarily includes authority to effectuate 
the capture, detention, interrogation, and, where appropriate, trial of 
enemy forces, as well as their transfer to other nations. Cf, e.g., 
Hamdi v. Rumsfeld, 542 U.S. 507, 518 (2004) (plurality) (describing 
important incidents of war).
    At the same time. Article I, Section 8 of the Constitution also 
grants significant war powers to Congress. We recognize that a law that 
is constitutional in general may still raise serious constitutional 
issues if applied in particular circumstances to frustrate the 
President's ability to fulfill his essential responsibilities under 
Article II. Nevertheless, the sweeping assertions in the opinions above 
that the President's Commander in Chief authority categorically 
precludes Congress from enacting any legislation concerning the 
detention, interrogation, prosecution, and transfer of enemy combatants 
are not sustainable.
    Congress's power to ``define and punish . . . Offences against the 
Law of Nations,'' U.S. Const, art. I,  8, cl. 10, provides a basis for 
Congress to establish the Federal crime of torture, in accordance with 
U.S. treaty obligations under the Convention Against Torture, and the 
War Crimes Act offenses, in accordance, for example, with the ``grave 
breach'' provisions of the Geneva Conventions. This grant of authority 
also provides a basis for Congress to establish a statutory framework, 
such as that set forth in the Military Commissions Act of 2006 
(``MCA''), for trying and punishing unlawful enemy combatants for 
violations of the law of war and other hostile acts in support of 
terrorism. Without suggesting that congressional enactment was 
necessary to authorize the establishment of military commissions, the 
President's support for enactment of the MCA following the Supreme 
Court's decision in Hamdan v. Rumsfeld, 548 U.S. 557 (2006), confirms 
this view. The prior opinion of this Office suggesting that Congress 
has no role to play concerning the prosecution of enemy combatants is 
incorrect. See 4/8/02 Swift Justice Opinion at 17-19. Furthermore, the 
power ``[t]o make Rules for the Government and Regulation of the land 
and naval Forces,'' U.S. Const, art. I,  8, cl. 14, gives Congress a 
basis to establish standards governing the U.S. military's treatment of 
detained enemy combatants, including standards for, among other things, 
detention, interrogation, and transfer to foreign nations. This grant 
of authority would support, for example, the provisions of the Detainee 
Treatment Act of 2005 that address the treatment of alien detainees 
held in the custody of the Department of Defense. We disagree with the 
suggestion in the 3/13/02 Transfer Opinion that this Clause does not 
permit Congress to establish standards of conduct for the military's 
handling of detainees, but rather ``is limited to the discipline of 
U.S. troops.'' Id. at 5.
    The Captures Clause of Article I, which grants Congress power to 
``make Rules concerning Captures on Land and Water,'' id. cl. 11, also 
would appear to provide separate authority for Congress to legislate 
with respect to the treatment and disposition of enemy combatants 
captured by the United States in the War on Terror. Two of the opinions 
identified above reasoned that the Captures Clause grants authority to 
Congress only with respect to captured enemy property, such as enemy 
vessels seized on the high seas or materiel taken on the battlefield, 
and not captured persons, such as the fighters or supporters of al 
Qaeda and its affiliates who are detained by the United States in the 
global War on Terror. See 4/8/02 Swift Justice Opinion at 16-17; 3/13/
02 Transfer Opinion at 5. This Office has substantial doubts about that 
view.
    Sources from around the time of the Framing suggest that the 
Founders understood battlefield ``captures'' to include the capture of 
enemy prisoners. During the Revolutionary War, the Continental Congress 
passed legislation concerning not simply the capture of enemy vessels, 
but also the capture and treatment of persons on board those vessels. 
See, e.g., 4 Journals of the Continental Congress 1774-1789, at 254 
(Worthington Chauncey Ford ed., William S. Hein & Co. 2005) (1906) 
(prohibiting the treatment of persons ``contrary to common usage, and 
the practice of civilized nations in war''); 10 Journals of the 
Continental Congress 1774-1789, at 295 (Worthington Chauncey Ford ed., 
William S. Hein & Co. 2005) (1908) (``[I]f the enemy will not consent 
to exempt citizens from capture, agreeably to the law of nations, the 
commissioners be instructed positively to insist on their exchange, 
without any relation to rank.''). Likewise, in 1801, Alexander Hamilton 
observed that belligerents in war have the right ``to capture the 
persons and property of each other.'' Alexander Hamilton, The 
Examination, No. 1 (Dec. 17, 1801) (emphasis added), quoted in 3 The 
Founders' Constitution at 100 (Philip B. Kurland & Ralph Lemer eds. 
1997). See id. (``War, of itself, gives to the parties a mutual right 
to kill in battle, and to capture the persons and property of each 
other. This is a rule of natural law; a necessary and inevitable 
consequence of the state of war.''). Other early commentators similarly 
understood the ``law of capture'' to encompass the capture of prisoners 
of war, as well as the seizure of property. See Richard Lee, Treatise 
of Captures in War 45-63 (2d ed. 1803) (tracing the evolution of the 
law concerning definition and treatment of captured enemies); Emmerich 
de Vattel, The Law of Nations 394 (Joseph Chitty ed., London, S. Sweet 
1834) (1758) (explaining that persons or things ``captured'' by the 
enemy are usually freed as soon as they fall into the hands of soldiers 
belonging to their own nation); G.F. Martens, An Essay on Privateers, 
Captures, and Particularly on Recaptures (Thomas Hartwell trans., 
Lawbook Exchange 2004) (1801) (addressing the treatment by various 
nations of prisoners of war as part of the law of captures).
    The Supreme Court also presumed this understanding of the Captures 
Clause in the early decision Brown v. United States, 12 U.S. (8 Cranch) 
110 (1814), in which Chief Justice Marshall considered whether by 
virtue of a declaration of war the President possessed authority to 
detain enemy aliens (both enemy civilians and enemy combatants) and to 
confiscate their property. After quoting the Captures Clause, the Court 
noted that Congress had enacted laws regulating both enemy aliens and 
their property in the War of 1812, and concluded that those laws should 
govern the actions of the Executive Branch in the conflict. See id. at 
126 (``The act concerning alien enemies, which confers on the president 
very great discretionary powers respecting their persons, affords a 
strong implication that he did not possess those powers by virtue of 
the declaration of war.''); see id. (citing an ``act for the safe 
keeping and accommodation of prisoners of war''). Insofar as the early 
Supreme Court, relying on the Captures Clause, commented favorably on 
Congress's authority to regulate the treatment of prisoners of war--
and, indeed, actually suggested that the exercise of such congressional 
authority counseled against locating the authority to detain enemy 
prisoners solely in the general war powers of the President--we have 
substantial doubts about the assertion that the Captures Clause grants 
no power to Congress with regard to the detention and treatment of 
enemy combatants.\2\
---------------------------------------------------------------------------
    \2\ The survey of early historical examples in the 3/13/02 Transfer 
Opinion similarly does not support that opinion's assertion that an 
``unbroken historical chain'' recognizes ``exclusive Presidential 
control over enemy soldiers.'' 3/13/02 Transfer Opinion at 19. To the 
contrary, that history very usefully demonstrates a number of examples 
(such as the statute cited in Brown) where Congress passed legislation 
addressing the circumstances of captured soldiers. Although many of 
those measures simply authorized Presidential action, and were careful 
to preserve broad discretion for the President, they reflect an early 
understanding that Congress, as well as the President, has relevant 
authority in this area.
---------------------------------------------------------------------------
    For all these reasons, the identified assertions in the five 
opinions excerpted above do not reflect the current views of OLC and 
should not be treated as authoritative. This Office previously has 
withdrawn two of those opinions in their entirety. Appropriate caution 
should be exercised before relying in other respects on the remaining 
three opinions.
Interpreting FISA and its Applicability to Presidential Authority
    A number of classified OLC opinions issued in 2001-2002 relied upon 
a doubtful interpretation of the Foreign Intelligence Surveillance Act 
(``FISA''). As the Department has previously acknowledged, these 
opinions reasoned that unless Congress had made clear in FISA that it 
sought to restrict Presidential authority to conduct warrantless 
surveillance activities in the national security area, FISA must be 
construed to avoid such a reading, and these opinions asserted that 
Congress had not included such a clear statement in FISA. See Letter 
for Senator Dianne Feinstein and Senator Sheldon Whitehouse, from Brian 
A. Benczkowski, Principal Deputy Assistant Attorney General, Office of 
Legislative Affairs (May 13, 2008). All but one of these opinions have 
been withdrawn or superseded by later opinions of this Office. The 
remaining opinion containing this questionable proposition is:

  6.  Memorandum for William J. Haynes II, General Counsel, Department 
        of Defense, from John C. Yoo, Deputy Assistant Attorney 
        General, Office of Legal Counsel, Re: [Classified Matter] at 13 
        (Feb. 8, 2002) (``2/8/02 Classified Opinion'').

    The proposition paraphrased above interpreting FISA and its 
applicability to Presidential authority does not reflect the current 
analysis of the Department of Justice and should not be relied upon or 
treated as authoritative for any purpose. The general rule of 
construction that statutes will not be interpreted to conflict with the 
President's constitutional authorities absent a clear statement that 
Congress intended to do so is unremarkable and fully consistent with 
longstanding precedents of this Office. See, e.g.. Memorandum for Alan 
Kreczko, Legal Adviser to the National Security Council, from Walter 
Dellinger, Assistant Attorney General, Office of Legal Counsel, Re: 
Applicability of 47 U.S.C. section 502 to Certain Broadcast Activities 
at 3 (Oct. 15, 1993) (``The President's authority in these areas is 
very broad indeed, in accordance with his paramount constitutional 
responsibilities for foreign relations and national security. Nothing 
in the text or context of [the statute] suggests that it was Congress's 
intent to circumscribe this authority. In the absence of a clear 
statement of such an intent, we do not believe that a statutory 
provision of this generality should be interpreted to restrict the 
President's] constitutional powers'' to conduct the Nation's foreign 
affairs and to protect the national security). The courts apply the 
same canon of statutory interpretation. See, e.g., Department of Navy 
v. Egan, 484 U.S. 518, 530 (1988) (``[U]nless Congress has specifically 
provided otherwise, courts traditionally have been reluctant to intrude 
upon the authority of the Executive in military and national security 
affairs.'') However, the application of this canon of construction to 
conclude that FISA does not contain a clear statement that Congress 
intended the statute to apply to the President's exercise of his 
constitutional authority is problematic and questionable, given FISA's 
express references to the President's authority. The statements to this 
effect in earlier opinions of OLC were not supported by convincing 
reasoning.
    As set forth in the Justice Department's white paper of January 19, 
2006, addressing the legal basis for the surveillance activities of the 
National Security Agency publicly described by the President in 
December 2005, the Department's more recent analysis is different: 
Congress, through the Authorization for Use of Military Force of 
September 18, 2001, Pub. L. No. 107-40, 115 Stat. 224 (2001) 
(``AUMF''), confirmed and supplemented the President's Article II 
authority to conduct warrantless surveillance to prevent further 
catastrophic attacks on the United States, and such authority confirmed 
by the AUMF could reasonably be, and therefore had to be, read 
consistently with FISA, which explicitly contemplated that Congress 
could authorize electronic surveillance by a statute other than FISA. 
See U.S. Department of Justice, Legal Authorities Supporting the 
Activities of the National Security Agency Described by the President 
(Jan. 19, 2006) (``NSA Legal Authorities White Paper''). As the January 
2006 white paper pointed out, ``[i]n the specific context of the 
current armed conflict with al Qaeda and related terrorist 
organizations. Congress by statute [in the AUMF] had confirmed and 
supplemented the President's recognized authority under Article II of 
the Constitution to conduct such surveillance to prevent further 
catastrophic attacks on the homeland.'' Id. at 2. The white paper 
further explained the particular relevance of the canon of 
constitutional avoidance to the NSA activities: ``Even if there were 
ambiguity about whether FISA, read together with the AUMF, permits the 
President to authorize the NSA activities, the canon of constitutional 
avoidance requires reading these statutes to overcome any restrictions 
in FISA and Title III, at least as they might otherwise apply to the 
congressionally authorized armed conflict with al Qaeda.'' Id. at 3.\3\
---------------------------------------------------------------------------
    \3\ We recognize that the Supreme Court in Hamdan v. Rumsfeld 
refused to read the AUMF to authorize the President to convene military 
commissions in contravention of the Court's interpretation of the 
Uniform Code of Military Justice. See 548 U.S. at 557-58. The 
Department's 2006 white paper, however, was based on the view that 
FISA, which expressly contemplated that Congress may authorize 
warrantless surveillance in a separate statute, such as the AUMF, was 
more like the statute at issue in Hamdi, 18 U.S.C.  4001(a), which 
prohibits detention of a U.S. citizen, ``except pursuant to an act of 
Congress.'' See NSA Legal Authorities White Paper at 20-23.
---------------------------------------------------------------------------
    Accordingly, because the proposition highlighted above does not 
reflect the current views of this Office, appropriate caution should be 
exercised before relying in any respect on the 2/8/02 Classified 
Opinion as a precedent of OLC.
Presidential Authority to Suspend Treaties
    Two opinions of OLC from 2001 and 2002 asserted that the President, 
under our domestic law, has unconstrained discretion to suspend treaty 
obligations of the United States at any time and for any reason as an 
aspect of the ``executive Power'' vested in him by the Constitution:

  7.  Memorandum for John B. Bellinger III, Legal Adviser to the 
        National Security Council, from John C. Yoo, Deputy Assistant 
        Attorney General, and Robert J. Delahunty, Special Counsel, 
        Office of Legal Counsel, Re: Authority of the President to 
        Suspend Certain Provisions of the ABM Treaty at 12, 13 (Nov. 
        15, 2001) (``11/15/01 ABM Suspension Opinion'') (``The 
        President's power to suspend treaties is wholly discretionary, 
        and may be exercised whenever he determines that it is in the 
        national interest to do so. While the President will ordinarily 
        take international law into account when deciding whether to 
        suspend a treaty in whole or in part, his constitutional 
        authority to suspend a treaty provision does not hinge on 
        whether such suspension is or is not consistent with 
        international law.'') (footnote omitted) (``The power 
        unilaterally to suspend a treaty subsumes complete and partial 
        suspension: both kinds of suspension authority are comprehended 
        within the `executive Power,' U.S. Const, art. II,  1, cl. 1. 
        . . .'').

  8.  Memorandum for Alberto R. Gonzales, Counsel to the President, and 
        William J. Haynes II, General Counsel, Department of Defense, 
        from Jay S. Bybee, Assistant Attorney General, Office of Legal 
        Counsel, Re: Application of Treaties and Laws to al Qaeda and 
        Taliban Detainees at 11-13 (Jan. 22, 2002) (``1/22/02 Treaties 
        Opinion'') (reasoning that the President has ``unrestricted 
        discretion, as a matter of domestic law, in suspending 
        treaties'').

    The highlighted assertions were based on generalizations from 
historical examples in which Presidents have acted in certain limited 
circumstances to terminate or suspend treaties. See, e.g., 11/15/01 ABM 
Suspension Opinion at 14-18.
    We have previously concluded in a file memorandum that the 
reasoning supporting these assertions is unconvincing. See Memorandum 
to File from C. Kevin Marshall, Deputy Assistant Attorney General, and 
Bradley T. Smith, Attorney-Adviser, Office of Legal Counsel, Re: Legal 
Issues Regarding Proposed Broadcasts into Cuba at 2, 11-13 (May 23, 
2007) (``Cuba Broadcasting File Memorandum ``). We observed that 
Presidents have traditionally suspended treaties where authorized by 
Congress or where suspension was authorized by the terms of the treaty 
or under recognized principles of international law, such as where 
another party has materially breached the treaty or where there has 
been a fundamental change in circumstances. See id. at 6-13. We found 
the two opinions' treatment of this history to be unpersuasive, their 
analysis equating treaty termination with treaty suspension to be 
doubtful, and their consideration of the Take Care Clause to be 
insufficient. See id. at 11-13. For those reasons, in 2006 we advised 
the Legal Adviser to the National Security Council and the Deputy 
Counsel to the President not to rely on the two opinions identified 
above to the extent they suggested that the President has unlimited 
authority to suspend a treaty beyond the circumstances traditionally 
recognized. Id. at 13. We noted that the President, in fact, had not 
relied upon the broad assertions of authority to suspend treaties 
contained in the 11/15/01 ABM Suspension Opinion and the 1/22/02 
Treaties Opinion; the President decided not to suspend the Third Geneva 
Convention as to Afghanistan, and he did not suspend the ABM treaty 
(instead, the United States gave formal notice of withdrawal from the 
treaty pursuant to its terms). Cuba Broadcasting File Memorandum at 13. 
In summarizing the advice given in 2006 concerning the reliability of 
the 2001 and 2002 opinions, our file memorandum emphasized that 
although we questioned the reasoning in these opinions, we had no 
occasion to make a determination about the extent of the President's 
authority to suspend treaties:

        The above critique is not meant to be a determination that 
        under the Constitution the President lacks authority to suspend 
        treaties absent authorization from Congress, the text, or 
        background law. The White House did not directly ask that 
        question [in 2006], and we did not purport to resolve it. There 
        are arguments to be made based on the Vesting Clause and other 
        provisions of Article II, as well as history. Other prior 
        opinions have suggested that the President could have plenary 
        authority to terminate treaties, and one can find scholars 
        supporting such a view. The issue, however, is not nearly as 
        simple or clear as the [11/15/01 ABM Suspension Opinion] and 
        [the 1/22/02 Treaties Opinion] indicated, and we therefore are 
        no longer willing to advise the President to act in reliance 
        upon those memoranda's more sweeping claims.

Id. (citation omitted).
    We adhere to the 2007 Cuba Broadcasting File Memorandum, and, 
accordingly, we confirm that the highlighted propositions from the 11/
15/01 ABM Suspension Opinion and the 1/22/02 Treaties Opinion do not 
reflect the current views of this Office and should not be treated as 
authoritative, and that appropriate caution should be exercised before 
relying upon these opinions in other respects.
``National Self-Defense'' as a Justification for Warrantless Searches
    A 2001 OLC opinion addressing The constitutionality of proposed 
FISA amendments asserted the view that judicial precedents approving 
the use of deadly force in self-defense or to protect others justified 
the conclusion that warrantless searches conducted to defend the Nation 
from attack would be consistent with the Fourth Amendment:

  9.  Memorandum for David S. Kris, Associate Deputy Attorney General, 
        from John C. Yoo, Deputy Assistant Attorney General, Office of 
        Legal Counsel, Re: Constitutionality of Amending Foreign 
        Intelligence Surveillance Act to Change the ``Purpose'' 
        Standard for Searches at 8 (Sept. 25, 2001) (``9/25/01 FISA 
        Opinion'') (reasoning that because the Government's post-9/11 
        interest in ``preventing terrorist attacks against American 
        citizens and property within the continental United States'' 
        implicated the ``right to self-defense . . . of the Nation and 
        of its citizens,'' and because the courts had recognized that 
        ``deadly force is reasonable under the Fourth Amendment if used 
        in self-defense or to protect others,'' it was appropriate to 
        conclude that ``[i]f the government's heightened interest in 
        self-defense justifies the use of deadly force, then it 
        certainly would also justify warrantless searches'').

    We believe that this reasoning inappropriately conflates the Fourth 
Amendment analysis for government searches with that for the use of 
deadly force.
    We do not doubt that the existence of a government interest in 
preventing catastrophic terrorist attacks is highly relevant in 
determining whether a particular search would be ``reasonable'' under 
the Fourth Amendment. Although warrants are often required in the 
criminal law context, the Supreme Court has recognized warrantless 
searches to be ``reasonable'' in a variety of situations involving 
``special needs'' that go beyond the routine interest in law 
enforcement. E.g., Board of Educ. v. Earls, 536, U.S. 822, 828 (2002). 
Foreign intelligence collection may fit squarely within the area of 
``special needs, beyond the normal need for law enforcement,'' 
particularly where it occurs in the midst of an ongoing armed conflict 
and for the purpose of preventing a future terrorist attack. See NSA 
Legal Authorities White Paper at 37. Accordingly, as explained at 
length in the Department's January 2006 white paper, warrantless 
searches for such purposes may well be ``reasonable'' and consistent 
with the Fourth Amendment. Id. To the extent that the 9/25/01 FISA 
Opinion advances that straightforward proposition, we have no 
disagreement.
    However, the 9/25/01 FISA Opinion's reliance on court decisions 
involving the use of deadly force suggests a ``self-defense'' rationale 
whereby the purpose behind a search would, standing alone, justify the 
search for purposes of the Fourth Amendment. The Supreme Court has 
recognized that the use of deadly force may be ``reasonable'' under the 
Fourth Amendment where the ``officer has probable cause to believe that 
the suspect poses a threat of serious physical harm either to the 
officer or to others.'' Tennessee v. Garner, 471 U.S. 1, 12 (1985); see 
also Graham v. Connor, 490 U.S. 386, 392 (1989). Under this rule, the 
circumstances in which deadly force may be employed are highly fact-
dependent and require a showing that the officer believed that the 
suspect posed an imminent threat of harm. The 9/25/01 FISA Opinion's 
assertion that ``[i]f the government's heightened interest in self-
defense justifies the use of deadly force, then it certainly would also 
justify warrantless searches'' does not adequately account for the 
fact-dependent nature of the Fourth Amendment's ``reasonableness'' 
review, and does not expressly recognize that the circumstantial 
factors relevant to the Tennessee v. Garner self-defense analysis are 
not necessarily the same as those that may determine the constitutional 
reasonableness of a particular search, both in its inception and in its 
scope.
    Accordingly, the highlighted reasoning in the 9/25/01 FISA Opinion 
does not reflect the current views of OLC.
                                 * * *
    For all the foregoing reasons, the propositions highlighted in the 
nine opinions identified above do not reflect the current views of the 
Office of Legal Counsel and should not be treated as authoritative for 
any purpose. A number of the opinions that contained these propositions 
have been withdrawn or superseded and do not constitute precedents of 
this Office; caution should be exercised before relying in other 
respects on the remaining opinions.
    We have advised the Attorney General, the Counsel to the President, 
the Legal Adviser to the National Security Council, the Principal 
Deputy General Counsel of the Department of Defense, and appropriate 
offices within the Department of Justice of these conclusions.

                                        Steven G. Bradbury,
                       Principal Deputy Assistant Attorney General.
                                 ______
                                 
Department of Justice's Office of Professional Responsibility Report on 
    the Investigation into the Office of Legal Counsel's Memoranda 
Concerning Issues Relating to the Central Intelligence Agency's Use of 
      `Enhanced Interrogation Techniques' on Suspected Terrorists
    The report ``Department of Justice's Office of Professional 
Responsibility Report on the Investigation into the Office of Legal 
Counsel's Memoranda Concerning Issues Relating to the Central 
Intelligence Agency's Use of ``Enhanced Interrogation Techniques'' on 
Suspected Terrorists'' is available at https://www.aclu.org/files/pdfs/
natsec/opr20100219/20090729_OPR_Final_Report_with_20100719_declassifica
tions.pdf
                                 ______
                                 
                                 United States Marine Corps
                                                      June 26, 2017
Senator John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    For over a decade, I have been part of a group of retired generals 
and admirals of the U.S. Armed Forces who have voiced our opposition to 
torture. I write to urge you to oppose the nomination of Steven G. 
Bradbury for the position of Department of Transportation general 
counsel.
    In his role as acting head of the Department of Justice's Office of 
Legal Counsel (OLC), Mr. Bradbury displayed a disregard for both U.S. 
and international law when authorizing the use of so-called ``enhanced 
interrogation techniques'' to interrogate terrorism suspects. These 
interrogation techniques, which Mr. Bradbury repeatedly approved, 
included methods that the United States has acknowledged and even 
prosecuted as torture and cruel, inhuman, and degrading treatment.
    The use of these techniques not only violated well-established law 
and military doctrine, but also endangered U.S. troops and personnel, 
hindered the war effort, and betrayed the country's values, damaging 
the United States' stature around the world as a beacon for human 
rights and the rule of law. We know that the United States is strongest 
when it remains faithful to its core values. The use of torture and 
cruel, inhuman, and degrading treatment undermines those values, and 
Mr. Bradbury continually represented their use as legal and advisable 
during his time serving in the Bush Administration.
    In recommending these techniques, Mr. Bradbury also displayed a 
discomforting deference to the executive branch's wishes, tailoring his 
legal recommendations to fit the White House's preferred outcome, and 
even testified in a Senate Judiciary Committee hearing that ``the 
President is always right.'' Mr. Bradbury's recommendations also 
contradicted the intent of Congress. In 2005, Congress passed the 
Detainee Treatment Act with a vote of 90-9. The law prohibited abuse of 
detainees by the U.S. military and agencies, but Mr. Bradbury authored 
a legal memo specifically designed to undermine the will of Congress 
and to provide the Bush Administration with authorization to continue 
using interrogation methods that constituted torture and cruel, 
inhuman, and degrading treatment.
    I believe that this is more important than political affiliation. 
Mr. Bradbury has time and again shown his willingness to contravene 
established law and the intent of Congress in service to the will of 
the executive branch. Though the position to which he is nominated 
likely will not involve decisions on national security issues, I 
believe that based on his past governmental service, Mr. Bradbury is 
not fit for this political office. I ask you respectfully to oppose his 
nomination.
            Semper Fidelis,
                                          Charles C. Krulak
                                               General, USMC (Ret.)
                                    31st Commandant of the Marine Corps
                                 ______
                                 
                                                      June 22, 2017
To:
Chairman John Thune
Ranking Member Bill Nelson
Committee on Commerce, Science, and Transportation

CC: All Other Senators

    We write to express our serious concerns regarding the nomination 
of Steven G. Bradbury for general counsel of the Department of 
Transportation (DOT). Mr. Bradbury's role in justifying torture and 
cruel, inhuman, or degrading treatment of individuals held in U.S. 
custody marked him as an architect of the torture program. Not only 
should the Senate be concerned about confirming a nominee who had a 
central role in the criminal violation of human rights, but his work 
during that period calls into question his ability to provide the kind 
of rigorous, independent legal analysis that is required of any top 
government lawyer.
    Mr. Bradbury was acting head of the Department of Justice's (DOJ) 
Office of Legal Counsel (OLC) from 2005 to 2009. During that time, Mr. 
Bradbury wrote several legal memoranda that authorized waterboarding 
and other forms of torture and cruel, inhuman, or degrading treatment. 
As such, he is most prominently--and correctly--known as one of the 
authors of the ``torture memos.'' \1\ His analysis directly 
contradicted relevant domestic and international law regarding the 
treatment of prisoners, and helped establish an official policy of 
torture and detainee abuse that has caused incalculable damage to both 
the United States and the prisoners it has held.\2\
---------------------------------------------------------------------------
    \1\ See ``The Torture Documents,'' The Rendition Project, available 
at: https://www.therendi
tionproject.org.uk/documents/torture-docs.html.
    \2\ See Torture Act 18 U.S.C. Sec. 2340 (1994); Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
adopted December 10, 1984, G.A. Res. 39/46, annex, 39 U.N. GAOR Supp. 
(No. 51) at 197, U.N. Doc. A/39/51 (1984), entered into force June 26, 
1987, art. 7, The U.S. ratified Convention against Torture in 1994. 
http://www.ohchr.org/EN/ProfessionalInterest/Pages/CAT.aspx; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
December 16, 1966, G.A. Res. 2200A (XXI), entered into force March 23, 
1976, art. 2. The U.S. ratified the ICCPR in 1992.
---------------------------------------------------------------------------
    Mr. Bradbury's role in the torture program, even then, was 
notorious--so much so that the Senate refused to confirm him as 
assistant attorney general for the Office of Legal Counsel during the 
Bush Administration. The Senate now knows even more about Mr. 
Bradbury's record, and the harm caused by his opinions, based on 
oversight by the Senate Select Committee on Intelligence and its report 
on the Central Intelligence Agency's (CIA) use of torture and abuse.
    In Mr. Bradbury's time as acting head of the OLC, he demonstrated 
an unwavering willingness to defer to the authority and wishes of the 
president and his team instead of providing objective and independent 
counsel. During congressional testimony in 2007, Mr. Bradbury responded 
to questions about the president's interpretation of the law of war by 
declaring, ``The President is always right''--a statement that is as 
outrageous as it is inaccurate.\3\ The DOJ Office of Professional 
Responsibility (OPR) reviewed Mr. Bradbury's ``torture memos'' and 
determined that they raised questions about
---------------------------------------------------------------------------
    \3\ Amanda Terkel, ``Justice Department Lawyer to Congress: `The 
President is Always Right,' '' Think Progress, July 12, 2006, available 
at: https://thinkprogress.org/justice-department-lawyer-to-congress-
the-president-is-always-right-1ce40cf3ab61.
---------------------------------------------------------------------------
    the objectivity and reasonableness of Mr. Bradbury's analyses; that 
Mr. Bradbury relied on uncritical acceptance of Executive Branch 
assertions; and that in some cases Mr. Bradbury's legal conclusions 
were inconsistent with the plain meaning and commonly held 
understandings of the law.\4\ Senior government officials from the Bush 
Administration who worked with Mr. Bradbury have said that they had 
``grave reservations'' about conclusions drawn in the Bradbury torture 
memos and have described Mr. Bradbury's analysis as flawed, saying the 
memos could be ``considered a work of advocacy to achieve a desired 
outcome.'' \5\
---------------------------------------------------------------------------
    \4\ ``Investigation into the Office of Legal Counsel's Memoranda 
Concerning Issues Relating to the Central Intelligence Agency's Use of 
`Enhanced Interrogation Techniques' on Suspected Terrorists,'' U.S. 
Department of Justice Office of Professional Responsibility, July 29, 
2009, available at: https://www.aclu.org/files/pdfs/natsec/opr20100219/
20090729_OPR_Final_Report
_with_20100719_declassifications.pdf.
    \5\ Id.
---------------------------------------------------------------------------
    Moreover, Mr. Bradbury's 2007 torture memo was written with the 
purpose of evading congressional intent and duly enacted Federal law. 
The Detainee Treatment Act of 2005 (DTA), legislation that passed the 
Senate with a vote of 90-9, stated, ``No individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location, shall be subject to cruel, 
inhuman, or degrading treatment.'' However, Mr. Bradbury's memo 
explicitly allowed the continuation of many of the abusive 
interrogation techniques that Congress intended to prohibit in the 
DTA.\6\
---------------------------------------------------------------------------
    \6\ Jane Mayer, The Dark Side (New York: Doubleday, 2008): 321-322.
---------------------------------------------------------------------------
    Perhaps most concerning from a congressional oversight perspective, 
Mr. Bradbury affirmatively misrepresented the views of members of 
Congress to support his legal conclusions. Specifically, in his 2007 
memo he relied on a false claim that when the CIA briefed ``the full 
memberships of the House and Senate Intelligence Committees and Senator 
McCain . . . none of the Members expressed the view that the CIA 
detention and interrogation program should be stopped, or that the 
techniques at issue were inappropriate.'' \7\ In fact, Senator McCain 
had characterized the CIA's practice of sleep deprivation as torture 
both publicly and privately, and at least four other senators raised 
objections to the program.\8\
---------------------------------------------------------------------------
    \7\ Steven Bradbury, ``Memorandum for John A. Rizzo Acting General 
Counsel, Central Intelligence Agency,'' U.S. Department of Justice 
Office of Legal Counsel, July 20, 2007, available at: https://
www.justice.gov/olc/file/886296/download
    \8\ ``Committee Study of the Central Intelligence Agency's 
Detention and Interrogation Program,'' Executive Summary, Senate Select 
Committee on Intelligence, December 13, 2012, 435-436, available at: 
https://www.feinstein.senate.gov/public/_cache/files/7/c/7c85429a-ec38-
4bb5
-968f-289799bf6d0e/D87288C34A6D9FF736F9459ABCF83210.sscistudy1.pdf
---------------------------------------------------------------------------
    As a senior government lawyer, Mr. Bradbury authorized torture and 
cruel treatment of detainees in violation of U.S. and international 
law. Mr. Bradbury demonstrated either an inability or an unwillingness 
to display objectivity and reasonableness in evaluating the president's 
policy proposals. We ask that in reviewing Mr. Bradbury's nomination 
for general counsel of the Department of Transportation, another 
profoundly important position of public trust, you take these serious 
and disturbing factors into consideration.
            Sincerely,

American Civil Liberties Union
Appeal for Justice

Center for Constitutional Rights

Center for Victims of Torture

The Constitution Project

Council on American-Islamic Relations

Defending Rights & Dissent

Human Rights First

Human Rights Watch

The Leadership Conference on Civil and Human Rights

National Religious Campaign Against Torture

Open Society Policy Center

Physicians for Human Rights

Win Without War
      

    The Chairman. Senator Blumenthal is up next.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you both for your willingness to serve.
    Mr. Bradbury, in your questionnaire for this Committee, I 
think you were asked whether you have been the subject of a 
complaint to any, quote, professional association. How did you 
answer that question?
    Mr. Bradbury. I don't believe I've been subject of a 
complaint.
    Senator Blumenthal. You answered the question no, correct? 
Is that answer correct?
    Mr. Bradbury. Yes.
    Senator Blumenthal. I have, and I would like it to be 
admitted into the record, Mr. Chairman, if there's no 
objection, a New York Times article of May 19, 2009, reporting 
a complaint to the Bar associations of four states and the 
District of Columbia regarding you and a number of other 
attorneys relating to legal opinions that you provided as a 
member of the Bush administration. Are you familiar with that 
set of complaints?
    Mr. Bradbury. I haven't seen them. I heard the report of 
it, and we checked with the Bar on that, and they don't have a 
record of a complaint. I think what happens, Senator, as I 
understand it, is someone files something, and there's a period 
of time, and then there has to be some procedure taken at the 
Bar office, and then I would have been notified, and I was not 
notified that I needed to do anything. So----
    Senator Blumenthal. Were you aware of those complaints when 
you answered your questionnaire?
    Mr. Bradbury. I was aware that there had been reports in 
the media of it. I was aware at the time of the reports in the 
media. And that's why I said I checked with the D.C. Bar to see 
if there was a record of a formal complaint. And there must be 
some process that happens before it becomes a formal complaint 
proceeding.
    Senator Blumenthal. Did you check with the Bars of the four 
states where those complaints were filed?
    Mr. Bradbury. Well, I'm only a member of the D.C. Bar. That 
would have been the only one that would pertain to me. I 
believe some of the other people who were discussed in the 
media reports included Attorney General Mukasey and several 
others.
    Senator Blumenthal. But the questionnaire asks whether you 
have, quote, been the subject of a complaint to any 
professional association?
    Mr. Bradbury. Yes.
    Senator Blumenthal. Wouldn't the correct answer to that 
have been yes?
    Mr. Bradbury. Well, my understanding would be we asked the 
Bar and the Bar said there was not a complaint that they had a 
record of. So that's--I think I was----
    Senator Blumenthal. Well, whether or not there was a 
record, there was a complaint.
    Mr. Bradbury. I haven't seen this document, and I--so I----
    Senator Blumenthal. In your questionnaire, you reported 
things as minuscule as having been a sandwich maker in college.
    Mr. Bradbury. Well, that was a job that fell within the 
time period that I was required to----
    Senator Blumenthal. Well, I would suggest respectfully that 
perhaps you may want to reconsider that response and amend your 
questionnaire. And I would like this article entered into the 
record. And with your permission, Mr. Chairman, I would like to 
suggest that the D.C. Bar be asked to respond as to where the 
complaint is or was, whether it was ever formally filed, and 
whether the procedure was started for pursuing it.
    The Chairman. Mr. Bradbury, you indicated that you don't 
have any knowledge of that?
    Mr. Bradbury. I don't know internally within the bar what 
the procedure is as I sit here. And so----
    Senator Blumenthal. Let me move on for the moment, and I'll 
follow up in written questions.
    You indicated that you would recuse yourself with respect 
to Takata. Will you recuse yourself as to any of the successor 
companies or interests that purchase any of the assets of 
Takata, since it's now in bankruptcy? And will you also recuse 
yourself as to any of the issues concerning liability that 
might pertain to other airbag manufacturers or automobile 
manufacturers that use those airbags, since the same legal and 
factual issues will be involved in all of the potential 
liability?
    Mr. Bradbury. Well, as I've indicated to Senator Nelson, I 
certainly will recuse myself from all aspects of those recall 
issues relating to the Takata airbag issues. So----
    Senator Blumenthal. I'm not asking about recall issues, I'm 
asking about liability for severe injuries and deaths caused by 
airbags that may use, among other substances, ammonium 
nitrate----
    Mr. Bradbury. Yes.
    Senator Blumenthal.--which has been found in Takata to be 
very relevant, and with respect to those other airbag 
manufacturers or automobile manufacturers be relevant as well. 
Will you recuse yourself from all of those issues relating to 
the automobile and airbag manufacturers?
    Mr. Bradbury. Everything related to the airbag issues. So 
the liability aspects that you describe would certainly be 
related to that. And with respect to successor entities, that 
was another question I think Senator Nelson asked, and I did 
make it clear that I viewed the successor companies or 
successor entities as part of that.
    Senator Blumenthal. And while we're on the subject of 
recusal, since you represented a number of airlines, I believe, 
American Airlines, Delta Airlines--which others have you----
    Mr. Bradbury. American Airlines is the one in recent years 
that I've represented.
    Senator Blumenthal. How about in previous years?
    Mr. Bradbury. Well, many years ago, at my other firm, I 
represented another airline with respect to competition issues.
    Senator Blumenthal. Will you recuse yourself as to those 
airlines?
    Mr. Bradbury. As I've indicated, I certainly will recuse 
myself with respect to American Airlines. Any particular matter 
that has a direct or substantial effect on American Airlines, 
I'm recused under the statute for one year, under the ethics 
pledge for two years, if I were to be confirmed. And then, of 
course, any--Senator Blumenthal, any, as you know, any matter 
that I actually handled for American Airlines, where I was 
involved, I would be recused from completely permanently.
    So the answer to that is yes. American is the one that I 
have been active on in recent years before the Department of 
Transportation.
    Senator Blumenthal. Well, I appreciate your response to my 
questions. And I have a number of additional questions with 
respect to competition in the airline industry, practices of 
airlines, the need for more competition, the excessive 
consolidation that's taken place in the industry, the need for 
passenger bill of rights, which I have introduced to protect 
against some of these abuses, and I will submit those questions 
for the record because my time has expired.
    [The article referred to follows:]

                           The New York Times

   Advocacy Groups Seek Disbarment of Ex-Bush Administration Lawyers

                      By Scott Shane--May 18, 2009

    WASHINGTON--A coalition of left-wing advocacy groups filed legal 
ethics complaints on Monday against 12 former Bush administration 
lawyers, including three United States attorneys general, whom the 
groups accuse of helping to justify torture.
    The coalition, called Velvet Revolution, asked the bar associations 
in four states and the District of Columbia to disbar the lawyers, 
saying their actions violated the rules of professional responsibility 
by approving interrogation methods, including waterboarding, that 
constituted illegal torture.
    By writing or approving legal opinions justifying such methods, the 
advocates say, the Bush administration lawyers violated the Geneva 
Conventions, the Convention Against Torture and American law.
    Kevin Zeese, a longtime activist and lawyer who signed the 
complaints on behalf of Velvet Revolution, said the groups were acting 
because the Obama administration had resisted calls for a criminal 
investigation of abuse of prisoners under the Bush administration.
    The Obama administration has not ruled out the possibility of 
professional disciplinary action being taken against some of those 
involved.
    ``The torture issue needs to be taken out of the hands of 
politicians if it is going to be dealt with as the war crimes that it 
is,'' Mr. Zeese said.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    John C. Yoo wrote some of the legal opinions in dispute. Credit 
Mandel Ngan/Agence France-Presse--Getty Images

    The complaints are available online at the group's website, 
www.velvetrevo
lution.us/torture_lawyers/index.php.
    The filings come as the Justice Department's ethics office, the 
Office of Professional Responsibility, completes a report on the 
department lawyers who wrote opinions authorizing harsh interrogations.
    The report, in the works for nearly five years and expected to be 
released in the next few weeks, is said to be highly critical of some 
authors of the opinions, including John C. Yoo, a senior official at 
the department's Office of Legal Counsel in 2002, and his boss, Jay S. 
Bybee.
    The Velvet Revolution complaint also names Steven G. Bradbury, who 
headed the legal counsel office from 2005 to 2009; the three attorneys 
general, John Ashcroft, Alberto R. Gonzales and Michael B. Mukasey; 
Michael Chertoff and Alice S. Fisher, who headed the Justice 
Department's criminal division; two former Pentagon officials, Douglas 
J. Feith and William J. Haynes II; and two former White House lawyers, 
Timothy E. Flanigan and David S. Addington.
    Legal experts are divided over the likely effect of such 
complaints.
    A complaint filed last year against Mr. Yoo, a Berkeley law 
professor who remains a member of the Pennsylvania bar, was rejected by 
that state's bar association, in part because the Justice Department 
was already investigating Mr. Yoo's role in the interrogation 
memorandums.
    Mr. Yoo has often defended his role in writing the legal opinions, 
noting that they were written in the anxious months after the terrorist 
attacks of Sept. 11, 2001, and were intended only to outline the limits 
of the law, not to advise policy makers on what methods to use.
    But one interrogation opinion written primarily by Mr. Yoo was 
later withdrawn by the Justice Department, which considered it overly 
broad and poorly reasoned.

    The Chairman. Thank you, Senator Blumenthal.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman.
    Mr. Bradbury, I really enjoyed our visit, as I did with Ms. 
Walsh, in my office.
    Ms. Walsh. Thank you.
    Senator Young. So it's good to see you. I really 
appreciate, as I said, when we visited your interest in 
serving, Mr. Bradbury, the sacrifices associated with that, and 
I appreciate your enduring the scrutiny we've come to associate 
with these hearings.
    In the aftermath of the Takata incident, which has been 
invoked numerous times, you were hired as a part of an 
eminently qualified team of lawyers to bring swift resolution 
to the Takata airbag recall effort and the related 
investigation. As the legal representative of TK Holdings, the 
parent company of Takata, you played an important role in 
constructing a solution to one of the largest automotive safety 
recalls in the history of this country. As somebody who just 
practiced law for a couple of years, I want to commend you for 
your exemplary legal work as you collaborated with NHTSA to 
construct a model for addressing safety recalls of this 
magnitude.
    Could you please speak to the complexity of this recall and 
how it might lay the groundwork for future automotive safety 
recalls of this size?
    Mr. Bradbury. Yes, thank you, Senator. It really is unique. 
It's, I think, the largest, at this point, set of related 
automotive safety recalls in history, hugely complex because of 
all of the different automakers involved. And that's why 
there's a coordinated remedy program with a coordinated remedy 
order that NHTSA crafted. And there's an independent monitor at 
the center of that to orchestrate this because I think there 
are 13 automakers involved and, as was said by Senator Nelson, 
tens of millions of devices that will need to be replaced in 
cars, so hugely complicated.
    And moreover, as Senator Nelson said, it's staged because 
it's a problem that occurs over time. And all of this needed to 
be worked out by the career lawyers and the engineers at NHTSA. 
And really what I was doing as an attorney in this case for the 
company was not really litigating against NHTSA and trying to 
resist and stop this from happening, we were very proactive 
from the beginning in terms of bringing the information 
together, disclosing irregularities and issues that were 
problems, producing millions of pages of documents, and then 
working with NHTSA to craft these consent orders that create 
these recalls and make them go forward and expand, obviously, a 
long, long way to go. And there needs to be a lot of work done.
    Senator Young. Sure.
    Mr. Bradbury. But that's the kind of work that we did. I 
think it demonstrates the kind of power and effectiveness that 
NHTSA can have if it uses the tools that Congress has given it 
to address these sorts of problems. So I think it's 
groundbreaking.
    Senator Young. I would presume over the course of preparing 
for this legal work and the course of the work itself, you 
acquired extensive knowledge about automotive safety, the 
automobile sector, about the legal issues surrounding auto 
safety. You no doubt acquired skills about related to the 
structure that you put in place and knowledge of it, right? In 
fact, you're the foremost expert arguably on that. Do you think 
in your future role, all these things would help you serve 
effectively in that role, this background?
    Mr. Bradbury. Well, thank you, Senator. I do. I certainly 
gained a familiarity with NHTSA and with its authorities and 
with the people who work there. So I look forward to 
collaborating closely with the Chief Counsel and with NHTSA to 
address safety issues certainly in other areas. I won't be 
involved at all with Takata and the recalls of the airbag 
issues, but I have great respect for the people, for the 
process, and for the focus on the safety mission.
    Senator Young. Well, thank you again for your appearance 
here today.
    And I'm actually going to yield back the balance of my 
time.
    The Chairman. Thank you, Senator Young.
    Senator Nelson, anything else for the good of the record?
    Senator Nelson. Yes, please, Mr. Chairman.
    I want to ask, Mr. Bradbury, since you were Counsel for 
Takata, you argued with my belief, and that was your job as the 
lawyer for Takata--that Takata put profits over safety. And now 
we have seen the hundreds and hundreds of e-mails that went on 
among executives in the company. And that has led to this sad 
tale and ultimately Takata has filed for bankruptcy.
    So with everything that you know now, do you still believe 
that Takata was a good and moral actor?
    Mr. Bradbury. Well, Senator, I certainly have high regard 
for people at the company I came to know. I do think they care 
greatly about the product, but I'm not here to defend any 
client. I'm certainly not here to defend Takata. These are 
matters I will not be working on for the Department of 
Transportation. I appreciate your strong view on the issue. I 
respect it greatly. I came to have strong views, too. And I 
know that there are a lot of people both in NHTSA and in 
industry who are working overtime to try to address the 
problems that were created by the issues with the airbag 
inflators. It is a serious, serious set of problems.
    Senator Nelson. The point of my question, Mr. Bradbury, 
because it looks like you're going to be confirmed with only 50 
votes by the full Senate, is the moral frame of mind. I happen 
to be talking about Takata, which I think was morally bankrupt 
because they allowed this to happen, but you can look at the 
other things. Take, for example, the General Motors ignition 
switch and look at how many people have been killed or maimed 
as a result of that.
    And so there has to be some moral underpinning about what 
is right and wrong and the willingness to speak out, as 
government officials, against that kind of thinking.
    Mr. Bradbury. I agree, absolutely. And there is a strong 
moral component to the safety mission of NHTSA and the 
Department of Transportation, and that has to be out front, 
forward leaning, the mission, the action, what shapes and 
directs the action of NHTSA and these issues.
    I know NHTSA has been criticized in connection with some of 
the matters that you mentioned, but I do think they're stronger 
today at NHTSA by virtue of some of the authorities they've 
exercised and the steps they've taken to resolve these 
complicated issues, like the airbag issues.
    And they, I think, have broken some new ground in terms of 
the framework they've got in place, the way they're using their 
authority. And I think at least there's a positive message in 
that in terms of the willingness and the ability of the agency 
to address those issues, which are moral issues, of public 
safety, which has really got to be the uppermost priority.
    Senator Nelson. Well, I'm talking to you because you, when 
General Counsel, one of the chief positions at the Department 
of Transportation, are going to have an influence over the 
administration's appointees at NHTSA. So what is our philosophy 
going forward? Is it to protect the company or to protect the 
people?
    Mr. Bradbury. It's to protect the people. It's public 
safety. At NHTSA, it's public safety.
    Senator Nelson. That's got to be asserted aggressively----
    Mr. Bradbury. I agree.
    Senator Nelson.--by the administration's appointees.
    Mr. Bradbury. I agree.
    Senator Nelson. All right. Ms. Walsh, I don't want you to 
feel left out.
    [Laughter.]
    Senator Nelson. For some time, Florida fruit and vegetable 
growers have had to deal with an onslaught of subsidized 
agricultural imports from Mexico. This is a result of dumping 
by Mexican companies--bell peppers, tomatoes, strawberries, 
cucumbers--and Florida growers have been harmed by this anti-
competitive practice, and they took advantage of NAFTA to be 
able to do this.
    One of the reasons why Florida growers haven't been able to 
file a trade case with the Department of Commerce is the 
process doesn't account for seasonal differences in the market 
place. Growers have to show the harm Mexican imports are 
causing to the industry nationwide, even though northern 
growers are not producing these types of crops in the winter. 
So by the Department's regulations, the southern growers are 
penalized.
    So what do you think you can do to help improve the process 
for our growers?
    Ms. Walsh. Thank you, Senator, for that important question. 
And I think that that is certainly a concern and probably one 
of the most important concerns of Secretary Ross. And I think, 
as you mentioned on NAFTA, Congress has received the letter for 
renegotiation. That's a critical issue for this administration. 
When the President said, ``America First,'' these are just the 
types of issues that he was referring to, and it's my 
understanding that this will continue to be a top priority in 
Florida, and the orange growers are obviously a critical 
market.
    So if confirmed, the Commercial Service is not involved on 
the enforcement side, but on the export side and on the FDI 
side, but definitely as a team, we will be working closely with 
you and your staff to ensure that Florida growers get what they 
deserve.
    Senator Nelson. This isn't orange growers. This is 
vegetable growers, this is----
    Ms. Walsh. Agriculture.
    Senator Nelson.--this is peppers and tomatoes. This is 
vegetables, not oranges. Now, we've got our own problem with 
oranges, but it is in the form of a little insect that brings a 
bacteria that is killing the citrus tree in 5 years. That's a 
whole different problem. But in this particular case, I want to 
know if you will be concerned about this inequity that is 
devastating the fresh fruit and vegetable market, particularly 
the winter vegetables.
    Ms. Walsh. Certainly, if confirmed, Senator, I will look 
with our team at that issue at the Department of Commerce.
    Senator Nelson. So you'll look at it. That doesn't mean 
that you're concerned about it.
    Ms. Walsh. I'm absolutely concerned about it. If confirmed, 
we will look at that.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    And we would like to see more of those winter vegetables in 
South Dakota in the winter.
    [Laughter.]
    Senator Blumenthal. Mr. Chairman, can I ask a couple more 
questions if I promise not to ask about vegetables?
    [Laughter.]
    Senator Blumenthal. Just one?
    The Chairman. If we let you ask a second round, then--and 
we don't have anybody else that's coming back. Do we know?
    All right. Be brief.
    Senator Blumenthal. I'll be brief. Thank you.
    Ms. Walsh, I would like to ask you, I know you've been 
asked about the Export-Import Bank.
    Ms. Walsh. Mm-hmm.
    Senator Blumenthal. I come from a state that really depends 
on this bank. Many of our large manufacturers, like General 
Electric and United Technologies, but many of our small 
manufacturers as well. Senator Cantwell asked you about the 
Export-Import Bank earlier. I would like to give you another 
chance to express a commitment to this bank because it is so 
tremendously important to American manufacturing and to our 
whole economy. Will you support the Export-Import Bank? And how 
will you assure that our trade policies through the Export-
Import Bank favor small as well as large manufacturers?
    Ms. Walsh. Thank you, Senator, for that question. As I 
mentioned before, if confirmed, I personally would not be in a 
position to have impact on that particular decision. That is 
not within the Department of Commerce decisionmaking.
    Senator Blumenthal. Well, what will you do to support the 
Export-Import Bank insofar as it does affect manufacturing, 
which is within the purview and jurisdiction of the Commerce 
Department?
    Ms. Walsh. Senator, if confirmed, I would take an 
opportunity to discuss with the Secretary and the Under 
Secretary what role we could play in that issue, but it's my 
understanding that we are not directly involved in that.
    Senator Blumenthal. Do you support American manufacturing?
    Ms. Walsh. Absolutely.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Again, we appreciate it very much. Thank you for taking our 
questions. A special thank you to the families that are 
represented here today. Thank you for your willingness to serve 
and to work with your loved ones through the rigors of public 
service. We are grateful for that and appreciate you being here 
as well.
    We're going to leave the hearing record open for a couple 
of weeks, during which time Senators are asked to submit any 
questions for the record. And I would ask our panelists upon 
receipt that if they would submit their written answers to the 
Committee as soon as possible, we will try and process these 
nominations as quickly as we can. So thank you again.
    And with that, this hearing is adjourned.
    Mr. Bradbury. Thank you.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                          Steven Gill Bradbury
    Question. In your testimony before the Committee, you discussed 
your tenure as Principal Deputy Assistant Attorney General and Acting 
Assistant Attorney General at the Justice Department's Office of Legal 
Counsel (OLC) from 2005-2009. Between 2001 and 2003, in the aftermath 
of the 9/11 terrorist attacks, OLC issued several opinions regarding 
enhanced interrogation techniques and the President's war powers. In 
2008 and 2009, you authored two separate documents, each entitled 
``Memorandum for the Files.'' These memoranda asserted that certain 
opinions issued between 2001 and 2003 no longer reflected the then-
current views of OLC.
    Please explain the scope and purpose of the aforementioned 
memoranda you authored.
    Answer. After I became Principal Deputy Assistant Attorney General 
(``Principal Deputy AAG'') for the Office of Legal Counsel (``OLC'' or 
the ``Office'') in 2004, I participated in decisions to withdraw and 
supersede previous legal opinions addressing interrogation policies 
that had been issued by our predecessors in OLC in 2002 and 2003. We 
determined that the earlier opinions were flawed, in part because they 
relied on overly broad interpretations of the President's 
constitutional authorities in war time vis-a-vis the powers of 
Congress. I was involved in preparing replacement opinions that focused 
much more narrowly on the specific statutory and treaty provisions 
necessary to provide the advice needed by senior policy makers and that 
did not rely on broad assertions of presidential power.
    After I became Acting AAG for OLC in 2005 and while I served as the 
senior appointed official in charge of the Office, I undertook a 
broader initiative to conduct a comprehensive review of all the post-9/
11 legal opinions issued by the Office from 2001 to 2003 relating to 
war powers. The two memos to files that I prepared at the end of the 
Bush administration in October 2008 and January 2009 memorialized for 
senior government officials and for the new incoming Obama team the 
results of that comprehensive review of the earlier war-power-related 
opinions of the Office.
    These memos to files set forth with specificity my conclusions for 
OLC about the flawed reasoning of the 2001-2003 opinions and advised 
policy makers across the government as to which opinions and which 
specific propositions of law had been withdrawn or superseded by OLC 
and no longer represented the views of the Office. I believe these 
memos to files were helpful to the new OLC leadership at the beginning 
of the Obama administration. Among other things, the Obama team decided 
to post my memos to files on the OLC Website, where they remain 
publicly avail-able today.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Steven Gill Bradbury
    Question 1. A priority for me in last year's Federal Aviation 
Administration extension law was to include consumer protections 
pertaining to refunds for delayed baggage and family seating.
    Specifically, the Department of Transportation (DOT) is statutorily 
mandated to issue final regulations by July 15, 2017 that will require 
airlines to promptly refund fees paid for checked baggage that is 
delayed. Unfortunately, I have not seen much progress on this.
    The law also required DOT to review and, if appropriate, establish 
policies to ensure that children 13 years old and under can sit with an 
adult in their party. Similarly, DOT does not appear to have taken any 
action on this provision.
    If confirmed, will you commit to addressing the statutory mandates 
set by Congress for these and other consumer protection rules?
    Answer. If confirmed, I do commit that, consistent with ethics 
requirements on matters where I may be recused, I will address relevant 
statutory mandates concerning DOT rules and other actions and will 
assist in advising DOT leadership and policy makers on compliance with 
applicable mandates. Please note that certain aviation matters pending 
before DOT are one area where I may have recusals because of my recent 
work representing an airline client.

    Question 2. Developing autonomous vehicle technology could mean 
that driverless trucks are regularly on our roads in the near future. 
This raises both safety concerns and employment questions for the 
millions of truck drivers in the U.S.
    How do you plan to balance the industry's push for autonomous 
vehicles with the potentially significant safety and employment 
impacts?
    Answer. It is a top priority that the autonomous vehicles developed 
for use on America's highways will be safe for operation. Therefore, 
the number one question in approaching the regulation of autonomous 
vehicles must be whether the regulation is necessary and appropriate to 
ensure the safe operation of the vehicles. At the same time, the 
development of autonomous vehicle technology has the promise to be 
transformational, including in advancing the overall goal of motor 
vehicle and motor carrier safety, since the vast majority of motor 
vehicle accidents today are caused by human error. For that reason, we 
must take care to ensure that regulatory mandates do not unnecessarily 
stifle incentives for investment and innovation in this new technology. 
I believe these competing objectives can be harmonized, consistent with 
the requirements of law.

    Question 3. The Southeastern Legal Foundation is not listed among 
significant representations as part of the resume submitted in response 
to Question A.9 of the Commerce Committee Questionnaire.
    Please explain this omission and detail the nature and extent of 
all work you have performed for the Southeastern Legal Foundation.
    Answer. I did not list the work I did for Southeastern Legal 
Foundation (``SLF'') on my resume because, in my judgment, it was not 
among my most significant client work within the usual focus areas of 
my private practice. I have represented SLF in three projects, as 
follows: (1) In 2012, I prepared an amicus brief for SLF and two other 
public interest organizations in a Supreme Court case involving an 
interpretation of the U.S. Tax Code (PPL Corp. v. IRS, No. 12-43 
(U.S.)); (2) in 2013-2014, I assisted SLF with its cert. petition and 
merits briefs in the Supreme Court in cases brought by several industry 
petitioners and organizations, including SLF, challenging the EPA's 
greenhouse gas rules for stationary-source permits under the Clean Air 
Act (grouped together as Utility Air Regulatory Group v. EPA, No. 12-
1146 (U.S.)); and (3) in 2016, I prepared an amicus brief for SLF in 
the U.S. Court of Appeals for the D.C. Circuit in a case challenging 
the EPA's Clean Power Plan under the Clean Air Act (State of West 
Virginia v. EPA, No. 15-1363 (D.C. Cir.)).

    Question 4. Please identify all persons, organizations, and 
entities that provided the funding in support of the work you performed 
for the Southeastern Legal Foundation.
    Answer. The only persons, organizations, or entities that provided 
funding in support of my work for SLF were SLF and my law firm Dechert 
LLP. SLF was a pro bono client of Dechert, and Dechert did not receive 
payment for my services in connection with the first two projects 
listed in response to Question 1. In reviewing records in response to 
this Question, I was reminded that in connection with the third project 
listed in response to Question 1 (the amicus brief filed in the D.C. 
Circuit in case No. 15-1363), SLF offered to and did pay Dechert a 
modest flat fee exceeding $5,000. I had forgotten about this payment, 
and because SLF had been a pro bono client, I inadvertently omitted 
reference to SLF in part 4 of my initial OGE-278e nominee financial 
disclosure report, submitted to this Committee on June 8, 2017. I have 
now corrected my OGE-278e report by adding Southeastern Legal 
Foundation to the clients listed in part 4 of the report (those clients 
from which my law firm received at least $5,000 for my services during 
the reporting period). I thank the Senator for raising this question, 
which led me to identify and correct this error in my disclosure 
report.

    Question 5. Pursuant to your association with the Southeastern 
Legal Foundation, the following questions relate to the Petition for 
Certiorari, Southeastern Legal Foundation, Inc. v. United States 
Environmental Protection Agency (online at https://www.edf.org/sites/
default/files/SLF%20Petition%20for%20Cert.pdf).
    Please explain the following statement:

    In making the Endangerment Finding, EPA simply adopted the 
conclusions of the Intergovernmental Panel on Climate Change (``IPCC'') 
that not only were human GHG emissions a cause of atmospheric warming 
in the second half of the twentieth century, but that it is ``90-99 
percent certain'' that humans caused ``most'' of that warming. The 
legal deficiency in this conclusion is that, given the current state of 
science, it is irrational (and therefore reversible) to make this 
conclusion with such certitude. (p. 10)
    Answer. The quoted statement reflected the position of the client, 
SLF. This position was developed and supported in submissions filed by 
SLF and other parties in the underlying proceedings before the EPA and 
the D.C. Circuit. The cert. petition cited to the record evidence that 
supported this position and briefly summarized that support in the 
discussion following the quoted language. I did not participate in the 
underlying proceedings and was not involved in developing support for 
this argument. The position reflected in the quoted statement was not 
among the issues addressed on the merits in this case by the Supreme 
Court, which limited its grant of cert. review to a narrower question 
of statutory interpretation.

    Question 6. Please explain the following statement:
    As to the first line of evidence, EPA claimed that the twentieth 
century had witnessed an ``unusual'' rise in average global 
temperature, one that supposedly could not be explained by natural 
variability, and one that therefore demanded an anthropogenic 
explanation. The scientific evidence, however, shows otherwise[.] (p. 
11)
    Answer. The quoted statement reflected the position of the client, 
SLF. This position was developed and supported in submissions filed by 
SLF and other parties in the underlying proceedings before the EPA and 
the D.C. Circuit. The cert. petition cited to the record evidence that 
supported this position and briefly summarized that support in the 
discussion following the quoted language. I did not participate in the 
underlying proceedings and was not involved in developing support for 
this argument. The position reflected in the quoted statement was not 
among the issues addressed on the merits in this case by the Supreme 
Court, which limited its grant of cert. review to a narrower question 
of statutory interpretation.

    Question 7. Please explain the following statement:
    [T]he regional warming that did occur in various areas of the globe 
during the last documented warming period was not anomalous in climate 
history and was well within the normal range of historical variability. 
(p. 12)
    Answer. The quoted statement reflected the position of the client, 
SLF. This position was developed and supported in submissions filed by 
SLF and other parties in the underlying proceedings before the EPA and 
the D.C. Circuit. The cert. petition cited to the record evidence that 
supported this position and briefly summarized that support in the 
discussion following the quoted language. I did not participate in the 
underlying proceedings and was not involved in developing support for 
this argument. The position reflected in the quoted statement was not 
among the issues addressed on the merits in this case by the Supreme 
Court, which limited its grant of cert. review to a narrower question 
of statutory interpretation.

    Question 8. Please explain the following statement:
    There was no consistent trend of ``global'' warming in the second 
half of the twentieth century, nor any global warming in the last 16 
years, and the regional warming that did occur was not anomalous. EPA's 
supposed physical understanding of GHG effects in the atmosphere is 
contradicted by copious empirical evidence, and the models on which EPA 
relies have proven to be wrong in many of their most important 
predictions, including current temperatures. (p. 15)
    Answer. The quoted statement reflected the position of the client, 
SLF. This position was developed and supported in submissions filed by 
SLF and other parties in the underlying proceedings before the EPA and 
the D.C. Circuit. The cert. petition cited to the record evidence that 
supported this position and briefly summarized that support in the 
discussion following the quoted language. I did not participate in the 
underlying proceedings and was not involved in developing support for 
this argument. The position reflected in the quoted statement was not 
among the issues addressed on the merits in this case by the Supreme 
Court, which limited its grant of cert. review to a narrower question 
of statutory interpretation.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Steven Gill Bradbury
    Question 1. Last Congress, I introduced the Torture Victims Relief 
Reauthorization Act to authorize increased funding for the Office of 
Refugee Resettlement to support treatment centers and services for 
torture victims. In the House, Representative Chris Smith has 
introduced a companion bill. The Center for Victims of Torture, based 
in St. Paul, has been a pioneer in providing support to victims of 
torture who are resettled in the United States.
    I am pleased that the issue of prohibiting torture, and providing 
services for its victims, has largely been a bipartisan one.
    Mr. Bradbury, I understand that during the Bush administration, you 
were one of the principal authors of the legal opinions that later 
became known as the ``torture memos.'' Knowing what we know now, do you 
still agree with the views expressed in those memos?
    Answer. As I testified in my nomination hearing, I support the 
McCain-Feinstein Amendment, enacted by Congress in 2015, which mandates 
that all agencies of the U.S. Government are limited to use of the Army 
Field Manual in the interrogation of detainees and which prohibits the 
use of physical coercion. I believe the McCain-Feinstein Amendment 
represents a historic policy decision and a moral judgment for the 
United States, and it reaffirms America's leadership on interrogation 
policy and practice. The clear mandate of the McCain-Feinstein 
Amendment appropriately elevates and vindicates the compelling 
principle of reciprocity in the treatment of captured U.S. service men 
and women.
    Twelve years ago, when I was called upon to advise on the legality 
of proposed interrogation policies for use by intelligence officers, 
the McCain-Feinstein Amendment had not been enacted, and it was 
understood at that time that intelligence agencies operated under a 
different, less well defined, legal regime from the U.S. Armed 
Services. I did my best to pull back previous OLC opinions that were 
overly broad or otherwise flawed; to limit OLC's advice to the 
narrowest grounds necessary and avoid reliance on expansive 
interpretations of presidential power; to spell out very clearly the 
specific factual assumptions on which the advice depended, including 
the particular conditions, limitations, and safeguards that were 
required as part of the policies; and to describe in detail the 
specifics of those policies so that the senior decision makers on the 
Principals Committee of the National Security Council would be fully 
apprised of precisely what they were being asked to approve. The OLC 
opinions I prepared on these issues are no longer operative, and the 
law has changed. I welcome the statutory changes enacted by Congress.

    Question 2. Mr. Bradbury, I also understand that the Justice 
Department's Office of Professional Responsibility raised questions 
about the objectivity and reasonableness of your analyses in these 
memos. How would you respond to those statements?
    Answer. While the Office of Professional Responsibility (``OPR'') 
at the Justice Department later took issue with aspects of my opinions, 
OPR did not conclude that my work failed in any way to meet 
professional standards--in contrast to the earlier, superseded opinions 
issued by my predecessors. On page 259 of its final report dated July 
29, 2009, OPR found that my opinions were ``careful, thorough, 
lawyerly'' and ``fell within the professional standards that apply to 
Department attorneys.'' Moreover, OPR noted that I ``explicitly 
qualified [my] conclusions and explained the assumptions and 
limitations that underlay [my] analysis,'' and that I had properly 
``distributed drafts of the memoranda widely, within and without the 
Department [of Justice], for comments.'' And on page 260 of its report, 
OPR stated, ``We commend the Best Practices [for OLC opinions] as laid 
out [in a memo to the attorneys of OLC authored] by Bradbury and urge 
the OLC to adhere to them.''
    The final OPR report was rejected by the Justice Department in a 
January 5, 2010 opinion by Associate Deputy Attorney General David 
Margolis, DOJ's most senior career official. By tradition and DOJ 
protocol, all OPR recommendations were presented to Mr. Margolis as the 
senior career Associate in the Deputy Attorney General's Office. As a 
result of the Margolis decision, the OPR report has no continuing force 
or effect.

    Question 3. The National Transportation Safety Board includes 
reducing fatigue-related accidents on its 2017 Most Wanted List of 
Transportation Safety Improvements. I recently introduced the Safe 
Skies Act, which I worked on with Senator Boxer for many years. This 
commonsense bill would take the rest requirements put into place for 
passenger pilots after the tragic crash of Colgan Flight 3407 and apply 
them to cargo pilots who--despite using the same runways and airspace 
as passenger pilots--currently have looser rest requirements.
    Mr. Bradbury, if confirmed, would dealing with pilot fatigue be a 
priority for you at the Department of Transportation?
    Answer. If confirmed, I look forward to working with the Secretary 
and the FAA to make all aviation safety issues, including issues of 
pilot fatigue, a top priority, consistent with ethics requirements on 
matters where I may be recused. As I noted in my nomination hearing, 
certain aviation matters pending before DOT are one area where I may 
have recusals because of my recent work representing one of the major 
U.S. passenger airlines.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Steven Gill Bradbury
    Question 1. Forthrightness and honesty are extremely important 
qualities for lawyers, especially those who work for the public in 
government service. Do you agree that, especially for government 
lawyers, forthrightness and transparency are extremely valuable 
qualities?
    Answer. Yes.

    Question 2. Did you receive the Senate Committee's questionnaire?
    Answer. Yes.

    Question 3. Did you answer that questionnaire?
    Answer. Yes.

    Question 4. Did you read question C(1) on page 25, which asks: 
``Have you ever been . . . the subject of a complaint to, any . . . 
professional association . . . or other professional group?''
    Answer. Yes.

    Question 5. How did you answer this question?
    Answer. I answered ``No.''

    Question 6. Are you aware that this question does not concern the 
merits of any complaint filed concerning you, but rather the fact that 
a complaint had been filed?
    Answer. I am aware that the question does not turn on whether a bar 
complaint proceeding, once initiated, has resulted in any disciplinary 
action.

    Question 7. At the time you answered this question, were you aware 
of a New York Times article on May 19, 2009 with the headline ``Ethics 
Complaint Is Filed Against Lawyers for Bush Over Torture Policy,'' 
which reported that a coalition of advocacy groups filed legal ethics 
complaints about you with the D.C. Bar?
    Answer. I recall being aware of news articles in the spring of 2009 
reporting that certain persons had announced the intention to submit 
information or allegations concerning my work at the Department of 
Justice, along with the work of other senior Justice Department 
officials, including former Attorney General Mukasey, to relevant state 
bars in an effort to initiate disciplinary proceedings. I did recall 
those news reports when I prepared my responses to the Committee's 
questionnaire.

    Question 8. Did anyone inform you of the existence of this article?
    Answer. I was aware of the news articles.

    Question 9. Did you ever receive, read, or view the complaint 
discussed in the above-referenced article?
    Answer. No, not that I recall.

    Question 10. Does your testimony to the Committee contradict this 
article?
    Answer. I believe my testimony is accurate.

    Question 11. What steps did you take to make yourself aware of 
whether this complaint had been filed concerning you?
    Answer. In preparing my responses to the Committee's questionnaire, 
I contacted the Office of Disciplinary Counsel of the D.C. Bar to 
inquire if any disciplinary complaints had ever been filed against me, 
and I was advised that the Bar had no record of any complaints.

    Question 12. Did you ever contact the D.C. Bar as to whether a 
complaint had been filed concerning you?
    Answer. Yes, three times.

    Question 13. When and how did you contact the D.C. Bar as to 
whether a complaint had been filed concerning you?
    Answer. Once by phone when preparing my responses to the 
Committee's questionnaire; a second time by phone following my 
nomination hearing; and a third time, in response to the Senator's 
question, by submitting by mail a sworn affidavit seeking a Certificate 
from the D.C. Bar's Office of Disciplinary Counsel.

    Question 14. What response did the DC Bar give you in response to 
any inquiry you made as to the presence of a complaint?
    Answer. Twice by phone the D.C. Bar's Office of Disciplinary 
Counsel advised me that it had no record of a bar complaint against me. 
In response to my written request, the D.C. Bar's Office of 
Disciplinary Counsel mailed me a Certificate Concerning Discipline and/
or Administrative Suspension, a copy of which has been provided to the 
Committee to be included as part of the record of my nomination 
hearing. The Certificate, dated July 6, 2017, states in relevant part: 
``No discipline has been imposed upon this attorney nor has 
Disciplinary Counsel filed a petition seeking discipline against this 
attorney. No complaint has been filed, upon which basis, this attorney 
has been required to respond to a formal investigation by Disciplinary 
Counsel.''

    Question 15. Do you stand by your response to the Committee?
    Answer. Yes.

    Question 16. Is your answer to the Committee's questionnaire 
regarding past complaints an accurate statement?
    Answer. Yes, I believe it is accurate. Section 6 of Rule XI of the 
D.C. Bar provides that the Disciplinary Counsel shall have the power 
and duty ``[t]o investigate all matters involving alleged misconduct by 
an attorney subject to the disciplinary jurisdiction of this Court 
which may come to the attention of Disciplinary Counsel or the Board 
[on Professional Responsibility of the D.C. Bar] from any source 
whatsoever, where the apparent facts, if true, may warrant 
discipline,'' and it further provides that ``[e]xcept in matters 
requiring dismissal because the complaint is clearly unfounded on its 
face or falls outside the disciplinary jurisdiction of the Court, no 
disposition shall be recommended or undertaken by Disciplinary Counsel 
[including both formal disciplinary petitions and informal admonitions] 
until the accused attorney shall have been afforded an opportunity to 
respond to the allegations.'' I never received notice from the Bar's 
Disciplinary Counsel that allegations had been received against me, and 
the Disciplinary Counsel never sought a response from me as to any 
allegations that may have been submitted to the Bar by any person. 
Therefore, if any allegations concerning me were submitted to the D.C. 
Bar, it appears evident that the Office of Disciplinary Counsel must 
have concluded that such allegations were ``clearly unfounded on 
[their] face'' or that they fell ``outside the disciplinary 
jurisdiction'' of the Bar. Moreover, the confidentiality requirements 
of Section 17 of Rule XI of the D.C. Bar prohibit the Disciplinary 
Counsel from disclosing to me any allegations or materials that did not 
result in a docketed complaint.

    Question 17. What plans do you have to amend your answer to the 
questionnaire?
    Answer. For the reasons described above, I do not plan to amend my 
answer to the questionnaire.

    Question 18. In your public testimony before the Senate Commerce 
Committee on June 28, 2017, did I ask you about your work representing 
airlines?
    Answer. I believe the question may have come up.

    Question 19. What airlines did you mention as clients?
    Answer. If asked, I would have mentioned American Airlines.

    Question 20. Did you mention United Air Lines?
    Answer. I would not have mentioned United Air Lines.

    Question 21. I note this representation is mentioned in your 
written disclosures, but why did you fail to mention your 
representation of United at the hearing?
    Answer. Although listed on my resume as a former client, United Air 
Lines is not a current client of mine, and I have not represented 
United Air Lines since approximately 2002. Moreover, the matters I 
handled for United at that time are no longer active; they involved a 
potential merger that was abandoned in 2001 and a codeshare alliance 
that has since been terminated. Since the time I represented it, United 
Air Lines has passed through bankruptcy, had several changes in 
management, and underwent a merger with Continental Airlines; in short, 
United Continental is not the same entity I last represented 15 years 
ago.

    Question 22. What message should the Committee take from a witness' 
failure to mention a client as notable and pertinent to the question as 
United Air Lines?
    Answer. I believe my representation of a different United Air Lines 
so many years ago is highly unlikely to raise (indeed, practically 
certain not to raise) any conflict-of-interest issue with my potential 
work for the United States, in the event I am confirmed as General 
Counsel of DOT.

    Question 23. Are there any clients that you forgot to include or 
chose to exclude from your responses to any inquiries from the 
Committee?
    Answer. Yes. I inadvertently omitted reference to Southeastern 
Legal Foundation in part 4 of my OGE-278e nominee financial disclosure 
report, which was submitted to the Committee on June 8, 2016, as 
explained above in response to Question 2 from Senator Nelson.

    Question 24. Please list any clients you have failed to disclose.
    Answer. Southeastern Legal Foundation.

    Question 25. Will you recuse yourself from all issues affecting 
your current and former clients during your tenure at the U.S. 
Department of Transportation?
    Answer. If confirmed, I will follow the requirements of the ethics 
laws and the ethics pledge in the President's executive order with 
regard to potential recusals from matters at DOT stemming from my 
recent work on behalf of clients in private practice. These will 
include my recusal from Takata-related matters, as I confirmed to 
Senator Nelson. In considering recusal questions and the requirements 
of the ethics laws and regulations, I will consult with the senior 
career ethics officer at DOT.

    Question 26. Lawyers must verify the information on which they rely 
to make legal distinctions. Law schools teach their first-year students 
the importance of facts when putting together a legal argument. Without 
the correct facts and evidence, even incredibly intelligent legal 
theories will fall apart. My reading of the Justice Department's Office 
of Professional Responsibility's report on the Office of Legal 
Counsel's torture memos leads me to conclude you did not attempt to 
verify or question the information the CIA gave you regarding torture 
techniques because you did not consider that to be your role.
    Should a lawyer rely entirely on representations of fact made by 
clients or other parties?
    Answer. In providing legal advice in some instances, attorneys must 
rely on the factual representations provided by clients.

    Question 27. Do you agree that lawyers are expected to practice at 
least a minimum amount of factual due diligence?
    Answer. Yes, attorneys should ask questions and gain an 
understanding of the relevant factual basis on which they are providing 
a legal opinion.

    Question 28. Do you agree that scientific research is important to 
support regulations, especially at the Department of Transportation, 
which considers extremely complicated technical innovations?
    Answer. Yes.

    Question 29. Did you rely on a study by Professor James Horne in a 
memo that justified extended sleep deprivation because it did not cause 
physical pain or even severe physical pain?
    Answer. Our opinion did cite this study in analyzing the 
application of the specific provisions of the anti-torture statute to 
sleep deprivation. The opinion did not purport to ``justify'' sleep 
deprivation and did not cite this study for the purpose of 
``justifying'' any interrogation policy.

    Question 30. Did you read that study in its entirety?
    Answer. I don't recall; I know that attorneys in our Office did 
review the book.

    Question 31. Are you aware that Professor Horne responded to your 
memo by saying that: ``I thought it was totally inappropriate to cite 
my book as being evidence that you can do this and there's not much 
harm. With additional stress, these people are suffering. I just find 
it absurd. [The memo] distorts what I really meant.''?
    Answer. I have read these statements.

    Question 32. What is your response to Professor Horne's statement?
    Answer. I understand and accept that the professor's study involved 
very different circumstances.

    Question 33. If you are confirmed as General Counsel, who will you 
ask for assistance when making legal determinations that depend on 
important, complex scientific findings?
    Answer. If confirmed, I will seek input on complex scientific 
matters from the engineers and other subject-matter experts within DOT 
(or elsewhere in government, if necessary) who have the best knowledge 
regarding those matters.

    Question 34. How can the Committee rest assured you won't let 
others dictate your conclusions?
    Answer. I have never let anyone dictate my conclusions as a legal 
adviser.

    Question 35. I take the issue of ``regulatory capture'' quite 
seriously. This occurs when an industry ``takes over'' or ``captures'' 
its regulator, exercising undue influence on the regulator's efforts. 
It has been demonstrated throughout the transportation sector and the 
U.S. Department of Transportation in recent years.
    Are you familiar with the concept of ``regulatory capture''?
    Answer. Yes.

    Question 36. What does this concept mean to you?
    Answer. In my understanding, the concept refers to a situation 
where government regulators allow their regulatory actions to be 
directed by the interests and objectives of the private industry they 
are responsible for regulating, rather than by the public interest and 
the terms and policy goals of the laws they are charged with 
implementing.

    Question 37. Do you think that regulatory capture is a problem in 
the Department of Transportation?
    Answer. In my experience with attorneys and engineers at DOT, I 
have not observed examples of what I would consider regulatory capture.

    Question 38. How would you combat regulatory capture as General 
Counsel for the Department of Transportation?
    Answer. By serving only one client, the United States; by upholding 
the objective requirements of the law and remaining faithful to the 
legal mandates enacted by Congress and the requirements of the rules 
and regulations governing the actions of DOT; by acting in all matters 
according to the public interest and in accordance with the highest 
standards and principles of public service; by collaborating closely 
with experienced career attorneys and other career employees of DOT; 
and by keeping an open door policy and an atmosphere of relaxed 
collegiality, so that career staff feel free to be candid and to bring 
to my attention (or the attention of the Department's Inspector 
General) any instance where it is perceived that actions are being 
taken for improper reasons.

    Question 39. How would you help protect the Department of 
Transportation from regulatory capture?
    Answer. By staying true to the commitments laid out in response to 
Question 4.

    Question 40. What are your views about the lack of competition in 
the airline industry?
    Answer. Competition in the airline industry is the policy adopted 
by Congress in the Airline Deregulation Act. Competition in airline 
services benefits consumers, and I believe the regulatory actions of 
DOT should preserve and promote competition. If confirmed as DOT 
General Counsel, I would expect to be guided by that objective, 
consistent with ethics requirements on matters where I may be recused. 
As noted, certain aviation matters pending before DOT are one area 
where I may have recusals because of my recent work representing 
American Airlines.

    Question 41. How can government help support a competitive 
marketplace?
    Answer. Government can help support a competitive marketplace by 
pursuing regulatory actions that preserve competition and the 
incentives to invest in innovation and in new facilities and increased 
capacity when supported by consumer demand, while addressing 
demonstrated instances of unfair or deceptive practices in the airline 
industry.

    Question 42. Would you support a Government Accountability Office 
investigation into airlines' anti-competitive practices?
    Answer. I understand that DOT is or will be assessing competition 
in the airline industry. The Government Accountability Office (``GAO'') 
is an arm of Congress, and it is not for me to opine on whether GAO 
should undertake an investigation. If confirmed, I would expect to 
cooperate with GAO's investigations and audits.

    Question 43. You've advised airlines [on] ways of achieving 
antitrust immunity for joint ventures with foreign carriers. This 
immunity exists in perpetuity. Should these grants ever expire?
    Answer. It is my understanding that DOT monitors and reviews all 
grants of antitrust immunity and reserves the right to amend or revoke 
these grants as circumstances warrant. Again, this area is one where I 
may have recusals because of my recent representation of American 
Airlines.

    Question 44. Would you support increasing the DOT's enforcement 
power against the rail, aviation and auto industries?
    Answer. I understand that DOT has broad authority across these 
various transportation modes. If confirmed, I would intend to study 
whether DOT requires additional authority in any area, to hear from 
interested Members of Congress and stakeholders on that question, and 
to work with the Secretary and the modal administrators accordingly.

    Question 45. Do you support President Trump's budget proposal, 
which massively funds an impractical, ego-driven border wall, but 
provides no real funding for transportation issues like upgrading real 
infrastructure?
    Answer. I did not participate in formulating the President's budget 
proposal, and I have not studied the details of the proposal. If 
confirmed to be General Counsel of DOT, my primary concern regarding 
the budget would be to help ensure adequate resources for regulatory 
and enforcement activities and the fulfillment of all statutory 
requirements.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                          Steven Gill Bradbury
    Question 1. During your confirmation hearing, you stated that every 
opinion you gave for the Office of Legal Counsel ``represented [your] 
best judgment of what the laws in effect at the time required.'' The 
American Bar Association's Model Rules of Professional Conduct begin by 
noting that lawyers are officers of the legal system and public 
citizens with ``special responsibility for the quality of justice.''
    Do you believe that you fulfilled this special responsibility as an 
attorney in the legal opinions you wrote signing off on the use of 
tactics such as waterboarding?

    Question 2. Do you believe that those tactics are in accordance 
with our shared American values?

    Question 3. Was that a factor in your legal analysis?

    Question 4. Do you think it should have been?
    Answer. As I testified in my nomination hearing, I support the 
McCain-Feinstein Amendment, enacted by Congress in 2015, which mandates 
that all agencies of the U.S. Government are limited to use of the Army 
Field Manual in the interrogation of detainees and which prohibits the 
use of physical coercion. I believe the McCain-Feinstein Amendment 
represents a historic policy decision and a moral judgment for the 
United States, and it reaffirms America's leadership on interrogation 
policy and practice. The clear mandate of the McCain-Feinstein 
Amendment appropriately elevates and vindicates the compelling 
principle of reciprocity in the treatment of captured U.S. service men 
and women.
    Twelve years ago, when I was called upon to advise on the legality 
of proposed interrogation policies for use by intelligence officers, 
the McCain-Feinstein Amendment had not been enacted, and it was 
understood at that time that intelligence agencies operated under a 
different, less well defined, legal regime from the U.S. Armed 
Services. As my opinions acknowledged, I realize that reasonable people 
may disagree with the legal conclusions I reached on these difficult 
questions, but I did my best to limit OLC's advice to the narrowest 
grounds necessary; to avoid reliance on broad interpretations of 
presidential power; to spell out very clearly the specific factual 
assumptions on which the advice depended, including the particular 
conditions, limitations, and safeguards that were required as part of 
the policies; and to describe in detail the specifics of those policies 
so that the senior decision makers on the Principals Committee of the 
National Security Council would be fully apprised of precisely what 
they were being asked to approve. As noted above, however, the legal 
landscape has changed since I authored these opinions, and I welcome 
those changes. The OLC opinions I prepared on interrogation matters are 
no longer operative, and the policies I addressed in the past would be 
prohibited under current law.

    Question 5. During your confirmation hearing, when referring to 
your memoranda on enhanced interrogation techniques, which many people 
have called torture, you stated, ``If I had my druthers, I wouldn't 
have engaged in having to address those issues.''
    Why did you seek to be the head of the Office of Legal Counsel if 
you did not want to engage in addressing those difficult legal 
questions?

    Question 6. Why are you now seeking another government legal 
position where you will be called on to engage in addressing difficult 
legal questions?
    Answer. My comment at the hearing related specifically to the 
uniquely difficult issues I was called upon to address concerning 
interrogation. These were not the only challenging issues I dealt with 
at OLC, but they were the most difficult. If confirmed as General 
Counsel of DOT, I would appreciate the challenge of addressing 
interesting and difficult legal issues, particularly in areas of 
regulation and complex statutory provisions touching on industries of 
critical national importance, like drones, self-driving vehicles, and 
other new technologies that are making their way into our 
transportation systems. It would be a privilege and an honor to serve 
in this position.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Elizabeth Erin Walsh
    Question 1. Alaska's seafood exports represent 55 percent of total 
U.S. seafood exports, and make up roughly two-thirds of the value of 
Alaska's seafood--over $3 billion annually. In 2015, Alaska exported to 
102 different countries. In recent years, we've experienced challenges 
as seafood consumption in Asian markets change, and U.S. exports face 
pressure from farmed and other low-priced alternatives sourced 
internationally.
    What specific steps will you take to promote the export of Alaskan 
seafood in global markets? What improvements can be made in our 
discussions and strategies with the markets in which the Foreign 
Commercial Service operates?
    Answer. If confirmed, I look forward to finding ways to address the 
current trade imbalance in fisheries so that our fishery resources 
create more jobs here in America. In light of the fact that Trade 
Promotion Authority now includes fish and fishery products, I look 
forward to collaborating with colleagues throughout government--
including NOAA and USTR--on a range of export issues such as this one 
where the International Trade Administration (ITA) and specifically the 
U.S. and Foreign Commercial Service can add value. To ensure efficiency 
and effectiveness, it is critical we work together and leverage each 
other's capabilities to ensure the competitiveness of U.S. industries.

    Question 2. One of the core missions of the Commerce Department is 
to promote U.S. companies and exports. How will you improve upon the 
existing efforts to promote opportunities for American companies 
abroad?
    Answer. U.S. exports face significant challenges in many markets. 
The causes of market obstruction and closure are numerous including: 
high tariffs; subsidies provided to foreign producers giving them 
unfair advantage over their U.S. competitors; blocking or unreasonably 
restricting the flow of digital data and services; theft of trade 
secrets; as well as non-tariff barriers--such as unnecessary 
regulations on particular items--to limit competition, including in the 
services sector.
    If confirmed, I will work tirelessly to increase exports by 
breaking down long-standing trade barriers and fostering increased 
access for American goods in foreign markets. I intend to work closely 
with my colleagues within ITA and the Secretary to use all possible 
tools to encourage other countries to give U.S. producers fair, 
reciprocal access to their markets.

    Question 3. There have been widely reported examples of China 
denying access to U.S. industry and investment when Chinese companies 
are granted access to the U.S. market in similar situations. 
Specifically, how will you improve opportunities for American business 
in China?
    Answer. China has pursued policies that has disadvantaged American 
companies and workers. If confirmed, I will use every available tool to 
counter restrictive and unfair trade policies of those who pledge 
allegiance to free trade while violating its core principles. I believe 
in free and fair trade and I pledge to work with my colleagues in the 
Trump Administration and the U.S. Congress to restore a level playing 
field.

    Question 4. What specific changes or improvements will you 
implement in the mission of the Foreign Commercial Service that will 
create better conditions for the promotion of U.S. enterprise abroad?
    Answer. I support the International Trade Administration's mission 
of promoting trade and investment, advancing the competitiveness of 
U.S. industries, and ensuring fair trade through the rigorous 
enforcement of our trade laws and agreements. Furthermore, I will 
assist with the critical role the U.S. and Foreign Commercial Service 
plays in executing our trade laws, particularly for U.S. small and 
medium-sized businesses.

    Question 5. Would you support an expansion of the CFIUS mandate to 
include market access and reciprocity as factors considered by the 
Committee?
    Answer. CFIUS is an important statute that provides a valuable tool 
that allows us to advance U.S. national security, foreign policy, and 
economic objectives. If confirmed, I will work within the Department of 
Commerce, with the Treasury Department--which leads CFIUS--and the rest 
of the interagency as appropriate, to support a vigorous and thorough 
CFIUS review process which must include consideration of market access 
and reciprocity as important analytics in our national security 
calculus.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Elizabeth Erin Walsh
    Question 1. Florida acts as a central hub for trade with Latin 
America. In fact, Latin America makes up three of the top five export 
market fins for Florida. However, the value of goods exported to our 
top South American trading partners declined from 2015 to 2016.
    Given all the anxiety and rhetoric about trade recently, how do you 
intend to ease tensions with our trade partners in Latin America and 
increase opportunities for American exports in that part of the world?
    Answer. Trade with Latin America remains vital to the prosperity of 
American businesses, farmers, ranchers, workers and service providers. 
The United States maintains comprehensive trade agreements with 11 
trading partners in the region and is actively engaged in constructive 
dialogue with the rest of the region on trade through trade and 
investment framework agreements, bilateral trade councils, and other 
initiatives. The Administration's commitment to maintaining and 
expanding our commercial relationships with our Latin American trading 
partners is evident in these expansive activities. Through these 
efforts, the Administration seeks to build a trading system that holds 
our trading partners to a higher standard of fairness, ensures a level 
playing field, reduces impediments to free and fair trade, and creates 
opportunities for American businesses, farmers, ranchers, workers and 
service providers. I understand that the International Trade 
Administration's Global Markets unit provides extensive support for 
U.S. small and medium-sized businesses through the U.S. and Foreign 
Commercial Service. These services are conducted through a large 
network of experts and offices across America and in Latin America. The 
services include cutting edge market intelligence, export counseling, 
business matchmaking and advocacy. If confirmed, I look forward to 
supporting Global Markets work in this important region.

    Question 2. Do you see statements by the President and others in 
the administration as counterproductive to that effort?
    Answer. The United States recognizes how critical Latin America is 
to the health and growth of the U.S. economy and maintains strong trade 
relations with our Latin American trading partners. President Trump had 
already met with many of his counterparts to discuss how the United 
States hopes to grow our trading relationship in ways that are fairer 
and more effective for both the United States and our Latin American 
trading partners.

    Question 3. The Obama Administration had a goal of doubling exports 
in five years. What sort of goal would you set for exports in the next 
five years?
    Answer. If confirmed, I would welcome the support of the Congress 
for the International Trade Administration's mission of promoting trade 
and investment, advancing the competitiveness of U.S. industries, and 
ensuring fair trade through the rigorous enforcement of our trade laws 
and agreements.

    Question 4. What do you believe is the most important thing 
Congress could do to increase exports?
    Answer. If confirmed, I would welcome the support of the Congress 
for the International Trade Administration's mission of promoting trade 
and investment, advancing the competitiveness of U.S. industries, and 
ensuring fair trade through the rigorous enforcement of our trade laws 
and agreements. In addition to Congress' support of ITA's mission, I 
would welcome the support of Congress for the Administration's overall 
vision for creating a more vibrant, and more competitive, economy, 
including through tax reform, increased funding for infrastructure, and 
other legislative steps to stimulate U.S. economic growth.

    Question 5. The United States is the global leader in producing 
phosphate-based fertilizer, with Florida leading the way for the 
country. Florida produces 50 percent of the Nation's phosphate-based 
fertilizer, including blended mixtures such as monoammonium phosphate 
and diammonium phosphate. Given a level playing field, U.S. fertilizer 
producers can compete with anyone, but they currently face unfair trade 
barriers in places like the European Union.
    Will you commit to working with our producers to find ways to open 
the E.U. to U.S. fertilizer?
    Answer. I share your concerns about the tariff and non-tariff trade 
barriers that inhibit our U.S. fertilizer producers' ability to export. 
If confirmed, I commit to working with industry to ensure a level 
playing field in foreign markets.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
